  DEPARTMENT OF HOMELAND SECURITY

       Office of Inspector General



    A Performance Review of FEMA’s Disaster
      Management Activities in Response to
              Hurricane Katrina




    Office of Inspections and Special Reviews


OIG-06-32                              March 2006
                                                                        Office of Inspector General

                                                                        U.S. Department of Homeland Security
                                                                        Washington, DC 20528




                                           March 31, 2006

                                              Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared by our office as
part of our oversight responsibilities to promote economy, effectiveness, and efficiency within the
department.

This report assesses the Federal Emergency Management Agency’s (FEMA) performance as it
conducted its disaster management responsibilities in response to Hurricane Katrina. We examined
whether the laws, regulations, policies, procedures, plans, guidelines, and resources were adequate
and operational, and whether FEMA's organizational structure enhanced or hindered its emergency
management capabilities.

The recommendations herein have been developed to the best knowledge available to our office, and
have been discussed in draft with those responsible for implementation. It is our hope that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all who contributed to the preparation of this report.




                                              Richard L. Skinner
                                              Inspector General
Table of Contents


Executive Summary .......................................................................................................................1

Background .......................................................................................................................................4
     Hurricane Katrina’s Devastation......................................................................................................4
     Preparing for the Storm....................................................................................................................5
     Initial Response................................................................................................................................6
     Initial Recovery..............................................................................................................................13
     Framework for Federal Disaster Response ....................................................................................13

Results of Review ..........................................................................................................................18

Difficulty Adapting to New Response Plans ........................................................................18
     States Had Varied Success Implementing Incident Command System Structures and
     Establishing Unified Command.....................................................................................................19
     FEMA and DHS Were Adjusting to the National Response Plan .................................................23
     Need to Solidify Role of ESF-5, Emergency Management...........................................................31
     ESF-6, FEMA’s Coordination Efforts with Other Governmental and
     Nongovernmental Partners.............................................................................................................34
     New Capabilities and Improved Coordination Necessary for ESF-9 ............................................52
     ESF-15 Structure and State Coordination Need Improvement......................................................56
     National Guard and Active Duty Troops Provide Valuable Support but
     Improved Coordination with FEMA Is Needed.............................................................................62

FEMA Provided Record Levels of Support but Delivery Structure
Needs Improvement .....................................................................................................................65
     Visibility and Improvements to Resource Ordering and Delivery Process Required ...................66
     Unreliable Disaster Communications During the Initial Response ...............................................77
     FEMA Does Not Have Staff or Plans Adequate to Meet Its Human Capital Needs during
     Catastrophic Disasters....................................................................................................................81
     Individual Assistance .....................................................................................................................87
     FEMA’s Efforts to Augment Staff and Call Center Capacity .......................................................87
     Housing Area Command Concept .................................................................................................94
     Delivery of FEMA’s Individuals and Households Program..........................................................97
     Delivery of FEMA’s Public Assistance Program ........................................................................106



                                  A Performance Review of FEMA’s Disaster Management Activities
                                                In Response to Hurricane Katrina
Table of Contents

FEMA Needs to Improve Readiness ....................................................................................109
    FEMA’s Organization and Capacity to Respond to Disasters.....................................................110
    Grant Program Changes Contributed to Weakened Relationship with States.............................112
    Organizational Staffing Requires Better Management ................................................................118
    Despite Expanded Training Delivery, Some FEMA Training Needs Are Unmet.......................120
    FEMA Planning Efforts Were Incomplete and Insufficient ........................................................123
    Long-term Deterioration in FEMA’s Exercise Program .............................................................128
    FEMA Should Strengthen Remediation Measures for “Lessons Learned”.................................132

Future Considerations...............................................................................................................134
    Working Toward All-Hazards Preparedness ...............................................................................135
    Developing DHS Culture in Carrying Out Emergency Management Responsibilities...............140
    Stafford Act Authorities Are Sufficient, Long-term Recovery Issues Need to be Addressed ....143

Management Comments and OIG Analysis ......................................................................145

Appendices
    Appendix A:           Hurricane Katrina Timeline................................................................................146
    Appendix B:           FEMA’s Individual Assistance Programs ..........................................................149        4




    Appendix C:           FEMA’s Public Assistance Program and Eligible Work ...................................156
    Appendix D:           The National Incident Management System ......................................................159
    Appendix E:           The National Response Plan...............................................................................163
    Appendix F:           Comparison of PFO and FCO Duties Under the National Response Plan.........165
    Appendix G:           National Voluntary Organizations Active in Disaster........................................166
    Appendix H:           FEMA Consolidated Shelter Report...................................................................168
    Appendix I:           Disaster Recovery Centers: Location Map........................................................170
    Appendix J:           Disaster Recovery Centers: Hours of Operation ...............................................171
    Appendix K:           Agencies Receiving Mission Assignments ........................................................173
    Appendix L:           Mission Assignment Descriptions......................................................................174
    Appendix M:           Call Center Staff Compared to Number of Calls ...............................................178
    Appendix N:           Average Length of Disaster Victim Calls ..........................................................179
    Appendix O:           FEMA Referrals to Other Assistance Providers.................................................180
    Appendix P:           DHS Organizational Charts................................................................................181
    Appendix Q:           FEMA Ten-Year Timeline .................................................................................183
    Appendix R:           Purpose, Scope, and Methodology .....................................................................185
    Appendix S:           Recommendations ..............................................................................................187
    Appendix T:           Management Response to Draft Report .............................................................193

                               A Performance Review of FEMA’s Disaster Management Activities
                                             In Response to Hurricane Katrina
Table of Contents

  Appendix U:   Major Contributors to This Report.....................................................................209
  Appendix V:   Report Distribution.............................................................................................210


Abbreviations
  ADD               Automated Deployment Database
  CORE              Cadre of On-Call Response Employees
  DAE               Disaster Assistance Employee
  DHS               Department of Homeland Security
  EMAC              Emergency Management Assistance Compact
  EMPG              Emergency Management Performance Grants
  EOC               Emergency Operations Center
  EP&R              Emergency Preparedness and Response
  ESF               Emergency Support Function
  FCO               Federal Coordinating Officer
  FEMA              Federal Emergency Management Agency
  FY                Fiscal Year
  HSOC              Homeland Security Operations Center
  HUD               Department of Housing and Urban Development
  ICS               Incident Command System
  IHP               Individuals and Households Program
  IIMG              Interagency Incident Management Group
  JFO               Joint Field Office
  MERS              Mobile Emergency Response Support
  MRE               Meal Ready-to-Eat
  NDMS              National Disaster Medical System
  NEMB-CAP          National Emergency Management Baseline Capabilities Assurance Program
  NPSC              National Processing Service Center
  NRCC              National Response Coordination Center
  NIMS              National Incident Management System
  NRP               National Response Plan
  ODP               Office of Domestic Preparedness
  OIG               Office of Inspector General
  PFO               Principal Federal Official
  RAMP              Remedial Action Management Program
  RRCC              Regional Response Coordination Center
  SBA               Small Business Administration
  US&R              Urban Search and Rescue
  VOAD              Voluntary Organizations Active in Disaster


                     A Performance Review of FEMA’s Disaster Management Activities
                                   In Response to Hurricane Katrina
OIG
Department of Homeland Security
Office of Inspector General


      Executive Summary
                            The federal government, in particular the Federal Emergency Management
                            Agency (FEMA), received widespread criticism for a slow and ineffective
                            response to Hurricane Katrina. Much of the criticism is warranted. Hurricane
                            Katrina’s high winds and storm surge caused devastating loss of life and
                            substantial property damage in Mississippi and in Louisiana. In the city of
                            New Orleans several breaches of the levee system compounded losses. The
                            hurricane caused significant damage in Alabama also. Although FEMA and
                            other agencies deployed emergency responders and resources in advance of
                            the storm and supported state efforts to evacuate people and conduct other
                            final preparations, most were overwhelmed the first week after landfall.

                            We conducted a review of FEMA’s activities in response to Hurricane
                            Katrina, which details FEMA’s responsibilities for three of the four major
                            phases of disaster management – preparedness, response, and recovery –
                            during the first five weeks of the federal response. In addition, we evaluated
                            FEMA’s preparedness and readiness efforts over the past ten years to
                            determine its organizational capability and posture prior to Hurricane Katrina.

                            Under the authorities of the Robert T. Stafford Disaster Relief and Emergency
                            Assistance Act (the Stafford Act) 1 and the National Response Plan (NRP),
                            FEMA provides disaster assistance to individuals and communities and
                            coordinates emergency support functions for emergency management; mass
                            care, housing, and human services; urban search and rescue; long-term
                            recovery; and external affairs. We reviewed whether FEMA's authorities,
                            plans and procedures, organizational structure, and resources were adequate
                            and effective. Appendix R summarizes the scope and methodology of this
                            review.

                            Within the past two years, the Department of Homeland Security (DHS)
                            published two watershed planning documents – the National Incident
                            Management System (NIMS) and the NRP – that restructure how federal,

1
    P.L. No. 93-288 (1974)(codified as amended at 42 U.S.C. §§5121–5206 and other scattered sections)


                                   A Performance Review of FEMA’s Disaster Management Activities
                                                 In Response to Hurricane Katrina

                                                               Page 1
state, and local government agencies and emergency responders conduct
disaster preparation, response, and recovery activities. Changes needed to
implement both documents, however, were still underway when Hurricane
Katrina made landfall. FEMA’s initial response was significantly impeded by
the adjustments it was making in implementing its responsibilities under the
NRP.

The response demonstrated some positive features of the incident command
structure under NIMS, which FEMA and state staff led in Mississippi and
Alabama. It also highlighted severe deficiencies and multiple areas where
FEMA and DHS headquarters must make adjustments to the NRP, such as the
use of incident designations, the role of the Principal Federal Official (PFO),
and the responsibilities of emergency support function coordinators.

When compared to other disasters, FEMA provided record levels of support to
Hurricane Katrina victims, states, and emergency responders. However, a
lack of visibility in the resource ordering process, difficulty deploying
sufficient numbers of trained personnel, unreliable communication systems,
and insufficient management controls for some assistance programs
demonstrate a need for improved response support capabilities and more
effective delivery mechanisms for assistance.

FEMA’s efforts to support state emergency management and to prepare for
federal response and recovery in natural disasters were insufficient for an
event of Hurricane Katrina’s magnitude. Difficulties experienced during the
response directly correlate with weaknesses in FEMA’s grant programs,
staffing, training, catastrophic planning, and remediation of issues identified
during previous disasters and exercises. As FEMA’s role in administering
grants and conducting exercises for natural hazards preparedness has
diminished, new mechanisms are needed to enhance capability and sustain its
relationships with states and first responders.

Finally, the integration of FEMA, all hazards preparedness, and disaster
response and recovery capabilities within DHS requires additional attention.
After the terrorist attacks of September 11, 2001, DHS’ prevention and
preparedness for terrorism have overshadowed that for natural hazards, both
in perception and in application. Although an “all-hazards” approach can
address preparedness needs common to both man-made and natural events,
DHS must ensure that all four phases of emergency management –
preparedness, response, recovery, and mitigation – are managed throughout
the department on an all-hazards basis. Coordination and consultation among

     A Performance Review of FEMA’s Disaster Management Activities
                   In Response to Hurricane Katrina

                                Page 2
DHS components and with the states is essential to guide, advise, develop,
and monitor all-hazards capability and responder effectiveness.

We make 38 recommendations to the Director of FEMA, Under Secretary for
Preparedness, Assistant Secretary of Public Affairs, and Director of the Office
of Operations Coordination. We are recommending that DHS headquarters
and FEMA establish measurable expectations of FEMA’s response; provide
the necessary financial, technical, and staff support to meet them; and assess
FEMA’s readiness. In addition, we make recommendations aimed at
clarifying how DHS headquarters, FEMA, and other DHS components will
implement aspects of the NRP, and address improvements to FEMA’s
infrastructure for resource ordering and tracking; personnel deployment;
disaster communications; and disaster application handling. To improve
disaster preparedness, we are recommending that FEMA complete
catastrophic, surge, and workforce plans; add training; strengthen its remedial
action program; and, build relationships with the states in concert with the
Preparedness Directorate and DHS Public Affairs. Finally, we are
recommending several modifications to how FEMA manages disaster
assistance, including testing programs before their use and housing displaced
persons.




     A Performance Review of FEMA’s Disaster Management Activities
                   In Response to Hurricane Katrina

                                Page 3
    Background
         Hurricane Katrina’s Devastation
                           After first making landfall in Florida as a Category 1 hurricane on
                           August 25, 2005, Hurricane Katrina crossed the Gulf of Mexico and grew in
                           intensity before making a second landfall in Louisiana as a strong Category 3
                           hurricane on August 29, 2005. 2 As the storm passed and assistance started
                           moving into the area, New Orleans’ levee system sustained several breaches,
                           failed, and submerged much of the city under water, exacerbating what was
                           already a major disaster.

                           While FEMA and other federal, state, and local entities pre-staged
                           commodities and personnel in and around the region to respond to Hurricane
                           Katrina, the magnitude of the storm and its catastrophic effects completely
                           overwhelmed FEMA’s disaster response system and resources, and those of
                           state and local governments. In addition, differences in disaster response and
                           emergency management capabilities across states resulted in varied levels of
                           response success.

                           Hurricane Katrina left damage in catastrophic proportions along the Gulf
                           Coast in Louisiana, Mississippi, and Alabama. The hardest hit communities
                           lost all infrastructure: electricity; water and sewer; roads and bridges;
                           communication systems including telephone lines, cell phone towers, radio
                           capabilities, and many satellite antennae; and, in some instances, basic
                           governmental operations including law enforcement. Many local first
                           responders were also victims.

                           Hurricane Katrina caused 1,326 deaths – 1,096 in Louisiana, 228 in
                           Mississippi, and 2 in Alabama. 3 More than 700,000 people were displaced

2
  The Saffir-Simpson Hurricane Scale classifies hurricanes by wind intensity in order to predict the damage and flooding
the storm will likely cause upon landfall. A Category 3 hurricane has sustained winds of 111–130 miles per hour and a
predicted storm surge of 9–12 feet, causing flooding and some structural damage. A Category 4 hurricane has sustained
winds of 131–155 miles per hour and a predicted storm surge of 13–18 feet. The most intense hurricane, Category 5, has
sustained winds over 156 miles per hour and a predicted storm surge over 19 feet. A Category 5 hurricane can cause
complete roof failure, building failure, utility loss, and major flooding damage. Initial reports indicated that Hurricane
Katrina made landfall as a Category 4 storm, particularly due to the level of damage left by the storm; however, on
December 20, 2005, the National Hurricane Center reported that aircraft data showed Hurricane Katrina actually made
landfall in Louisiana as a high-end Category 3 hurricane.
3
  Data from www.firstgov.gov, Frequently Asked Questions – Hurricane Katrina’s effects, accessed January 30, 2006.

                                  A Performance Review of FEMA’s Disaster Management Activities
                                                In Response to Hurricane Katrina

                                                               Page 4
                          from the Gulf Coast region as a result of Hurricane Katrina. More than
                          273,000 people were displaced and evacuated to shelters. An estimated
                          300,000 homes were destroyed, or received major or minor damage in
                          Louisiana, Mississippi, and Alabama. In Mississippi alone, 780 homes and
                          413 mobile homes were reported destroyed; 6,482 homes and 808 mobile
                          homes sustained major damage; and 42,444 homes and 18,243 mobile homes
                          had minor damage as of September 17, 2005. 4 Major disaster declarations
                          covered over 90,000 square miles of the affected Gulf Coast area.


        Preparing for the Storm
                          The National Hurricane Center tracked Hurricane Katrina as it gained
                          intensity and crossed the Gulf of Mexico, and issued multiple dire warnings
                          regarding its severity. By 5:00 PM eastern daylight time on August 26, 2005,
                          the National Hurricane Center predicted that Hurricane Katrina’s track had
                          shifted and was headed for southeast Louisiana and New Orleans, where
                          landfall was expected as a Category 4 storm. Eleven members of FEMA’s
                          Hurricane Liaison Team were at the National Hurricane Center in Miami,
                          Florida, to monitor the storm and storm advisories by August 27, 2005. 5 In
                          addition, federal emergency declarations were issued for Louisiana on
                          August 27, 2005, and for Mississippi and Alabama on August 28, 2005,
                          authorizing FEMA to begin pre-positioning commodities and emergency
                          management personnel.

                          Even before the storm shifted, FEMA activated its National Response
                          Coordination Center (NRCC) in Washington, DC, and Regional Response
                          Coordination Centers (RRCC) in Atlanta, Georgia, and Denton, Texas. 6 They
                          tracked the storm and began preparations to coordinate the response. State
                          emergency management officials in Alabama, Mississippi, and Louisiana also
                          activated their Emergency Operations Centers (EOC) and began preparing for
                          a second landfall. In addition, the NRCC, RRCCs, and state EOCs activated
                          all 15 Emergency Support Functions (ESFs) plus the Defense Coordinating
                          Officer (a military liaison) specified in the NRP.


4
  Mississippi Defense Coordinating Element Situation Report 17, September 17, 2005. These totals do not include
numbers from two of the hardest hit counties in Mississippi.
5
  See Appendix A for a timeline of Hurricane Katrina’s storm track and key decisions and events of the response.
6
  For a discussion of FEMA’s headquarters and regional structure, see the FEMA’s Organization and Capacity to
Respond to Disasters section of this report.

                                 A Performance Review of FEMA’s Disaster Management Activities
                                               In Response to Hurricane Katrina

                                                             Page 5
                            FEMA deployed its Emergency Response Team-National to Louisiana’s EOC
                            in Baton Rouge, and Emergency Response Teams-Advanced to the state
                            EOCs in Jackson, Mississippi, and Clanton, Alabama. FEMA Emergency
                            Response Teams began coordinating with the states to preposition both
                            commodities and personnel in the area to respond as soon as storm conditions
                            subsided and it was safe for responders to enter the affected area. In addition,
                            FEMA activated and pre-positioned multiple response teams to locations near
                            the forecasted affected areas. It pre-staged three Urban Search and Rescue
                            (US&R) task forces in Louisiana and two in Mississippi. Mobile emergency
                            operations vehicles and Mobile Emergency Response Support (MERS)
                            personnel, who are capable of providing communications equipment and other
                            support, were deployed and pre-staged near each state’s EOC. In addition,
                            many National Disaster Medical System (NDMS) teams, including Disaster
                            Medical Assistance Teams, Disaster Mortuary Operational Response Teams,
                            and Veterinary Medical Assistance Teams were activated and pre-staged in
                            the region for deployment as soon as conditions permitted.

                            FEMA activated federal operational staging areas and mobilization centers to
                            accept delivery of commodities and dispense them to local distribution points
                            within the affected areas. Quantities of ice, water, meals ready-to-eat
                            (MREs), and other commodities were pre-staged at Meridian Naval Air
                            Station in Mississippi; Maxwell Air Force Base and Craig Field in Alabama;
                            and Camp Beauregard, Barksdale Air Force Base, and the New Orleans
                            Superdome in Louisiana, in addition to staging areas in Florida, Georgia, and
                            Texas. Also, the three affected states identified pre-staged commodities,
                            particularly ice, left over from the Hurricane Dennis response. 7


           Initial Response
                            As soon as conditions permitted, life saving and life sustaining efforts began,
                            and Rapid Needs Assessment teams assessed damage in the affected areas. In
                            many areas, roads and bridges were destroyed, making air or water the only
                            means available to reach stranded victims, conduct initial damage
                            assessments, and get emergency management response personnel into the
                            area.

                            The communications infrastructure – phone lines, cell phone towers, and radio
                            and satellite antennae – was destroyed in many areas. This significantly
7
    Hurricane Dennis was declared a major disaster in Alabama on July 10, 2005.

                                   A Performance Review of FEMA’s Disaster Management Activities
                                                 In Response to Hurricane Katrina

                                                               Page 6
impacted the ability of emergency responders to get situational and
operational information to state or federal personnel outside the affected areas.
It took days to establish an accurate picture of the disaster’s magnitude and
devastation.

FEMA’s national US&R task forces, the U.S. Coast Guard, National Guard
troops, active duty federal troops, and state and local first responders
performed search and rescue missions, and rescued an estimated 50,000
victims. U.S. Coast Guard personnel conducted over 30,000 rescues during
the first week after landfall – more rescues than it performed in all of 2004.

NDMS activated and deployed over 80 teams to support response efforts.
Medical Needs Assessment Teams from FEMA Regions IV and VI were
deployed to assess medical needs in the affected area. Over 50 Disaster
Medical Assistance Teams were deployed. All 11 Disaster Mortuary
Operational Response Teams plus 2 Disaster Portable Mortuary Units
deployed to assist in body recovery and identification operations. Three
National Medical Response Teams, five Veterinary Medical Assistance
Teams, and three International Medical Surgical Response Teams were
activated also. In addition, four Management Support Teams provided
logistical, managerial, and operational support for NDMS teams in the
affected area. NDMS also supported search and rescue operations by
evacuating over 2,500 people with special needs.

In addition, FEMA began moving pre-staged trucks of water, ice, and MREs
from federal operational staging areas into the disaster area and to various
points of distribution. Additional commodities were ordered for daily
delivery; however, it took time to establish an operational delivery system to
supply adequate quantities of commodities to support victims and first
responders. Also, FEMA personnel and state and local responders expressed
confusion and frustration because FEMA’s logistics system lacks an asset
visibility program. As a result, FEMA personnel and state and local
responders did not know what type or quantity of commodities was on the
way or even when resources would arrive.

Alabama

FEMA’s Emergency Response Team-Advanced was on the ground and
operating at the EOC in Clanton, Alabama by August 26, 2005. In Alabama,
FEMA had the benefit of existing pre-positioned assets, commodities, and an
operational Joint Field Office (JFO) because of Hurricane Dennis, which

     A Performance Review of FEMA’s Disaster Management Activities
                   In Response to Hurricane Katrina

                                Page 7
struck Alabama earlier in the summer. As a result, FEMA was able to
mobilize operations quickly at the JFO in response to Hurricane Katrina.

Alabama’s two most southern counties were the hardest hit and sustained
major damage. Communications infrastructure was destroyed and officials in
these counties experienced difficulty communicating their needs to the JFO
for the first two days after landfall. The state sent a communications vehicle,
and FEMA sent a MERS unit to the area to provide communications support
and other response assistance.

FEMA and state officials told us the response went well in Alabama. Both
conducted joint integrated action planning to coordinate and manage
Alabama’s response efforts. In addition, Alabama was able to release its
Defense Coordinating Officer on August 31, 2005, because Department of
Defense support was not needed in Alabama. This allowed additional
Department of Defense resources to shift into Mississippi.

Mississippi

Mississippi’s six southern most counties were left with catastrophic damage.
Winds and storm surge from Hurricane Katrina destroyed basic infrastructure
along approximately 26 miles of Mississippi’s coast from Biloxi to Waveland.
Neighborhoods, schools, and business districts in the three coastal counties
were destroyed as well.




     A Performance Review of FEMA’s Disaster Management Activities
                   In Response to Hurricane Katrina

                                Page 8
                                      1                                                                       2




                                                                                                              3

                                          1) Debris pile in Waveland, MS, 10/14/05; 2) Temporary school structure
                                          established in Waveland, MS, 10/14/05; 3) Neighborhood street and
                                          debris in Waveland, MS, 10/14/05; 4) Neighborhood street and debris in
                                      4   Gulfport, MS, 10/14/05




FEMA’s Federal Coordinating Officer (FCO) and Mississippi’s State
Coordinating Officer immediately established joint integrated operations.
FEMA and state or local counterparts integrated, worked side-by-side, and
addressed issues as they occurred. Pre-existing relationships, established by
federal, state, and local entities during the response to Hurricane Dennis and
preparedness exercises, facilitated the integration of Hurricane Katrina
response personnel.

FEMA, state, and local emergency management responders operated jointly at
an interim operating facility in Biloxi, which later became the Area Field
Office, and at the JFO in Jackson. FEMA established branches and divisions
within its Operations Section. Division supervisors were empowered to act
and, in conjunction with local counterparts, determined needs for their
division. Those needs were reported to the branch director, who determined
what the branch could meet, and then unmet needs were forwarded to the
Operations Section Chief at the JFO. Needs that could not be filled by the
JFO were mission assigned or contracted to other federal agencies.

FEMA and state officials expressed frustration with the rate and quantity of
commodities delivered to Mississippi as well as with the lack of asset

     A Performance Review of FEMA’s Disaster Management Activities
                   In Response to Hurricane Katrina

                                Page 9
visibility for the logistics process. Officials indicated they had ordered water,
ice, and MREs in quantities far greater than what was delivered, yet when
they attempted to determine where additional quantities were in the process,
they were told the commodities were “in the pipeline.” According to FEMA
field officials, on average, Mississippi received less than 50 percent of the
commodities it requested between August 27, 2005, and September 5, 2005.
While FEMA should address asset visibility, a number of factors outside of
FEMA’s control affect its ability to deliver requested commodities, including
the reasonableness of field requests, supplier inventories, and the availability
of transportation resources. Even so, the effectiveness of a response is
dependent upon the ability to anticipate and address potential shortfalls
through adequate contingency planning.

The communications infrastructure was destroyed in areas of Mississippi.
FEMA deployed a MERS detachment to the Gulfport area, containing satellite
equipment and a satellite link, to establish communications and provide
support. We were told that without MERS, there would have been no
communications in the area. FEMA officials said it took about three days
after landfall to fully grasp the magnitude of the destruction.

Louisiana

Hurricane Katrina’s winds and storm surge caused severe damage in a number
of Louisiana parishes; however, the majority of the damage in the city of New
Orleans was a result of several breaches in the city’s levee system after
landfall. Because of the breaches much of the city was submerged, and
dewatering efforts placed Louisiana’s response and recovery behind
Mississippi.




     A Performance Review of FEMA’s Disaster Management Activities
                   In Response to Hurricane Katrina

                               Page 10
                                                                                                               2



                                     1




                                                                                                               3


                                         1) Damaged house in Plaquemines parish in Louisiana, 10/23/05; 2) New
                                         Orleans, LA – Lower Ninth Ward, 10/24/05; 3) Damaged house in New
                                         Orleans, LA, 10/24/05; 4) Neighborhood street and debris in New Orleans’
                                     4   Lower Ninth Ward, 10/24/05




The Superdome in New Orleans was designated as a shelter of last resort.
Louisiana state officials told us that its use as a shelter was intended only for
citizens who had special needs and were medically unable to evacuate the city
prior to Katrina’s landfall. After the levees breached, additional victims
began appearing at the Superdome, the Convention Center, and other locations
around the city.

Prior to landfall, FEMA pre-staged five trucks of water and two trucks of
MREs at the Superdome. In addition, we were told, a few trucks of
commodities were delivered to the Superdome after landfall. However, the
unexpected large number of evacuees arriving at the Superdome and other
locations within the city was not anticipated nor adequately planned for by
state and local authorities. The limited commodities quickly became depleted,
people with special needs were not addressed, various stages of civil unrest
ensued, and FEMA responders pulled out of the Superdome until order and
security could be restored.

Under mission assignments from FEMA, the Departments of Defense and
Transportation provided support for the evacuation of victims from New
Orleans. Over four days beginning August 31, 2005, more than 22,000

     A Performance Review of FEMA’s Disaster Management Activities
                   In Response to Hurricane Katrina

                               Page 11
evacuees were transported from the Superdome, the Convention Center, and
other locations in the city to shelters in Texas and other states.

FEMA officials experienced difficulty establishing joint, integrated operations
with Louisiana’s emergency management personnel. Limited space at
Louisiana’s EOC prevented some FEMA and state personnel from co-
locating, and FEMA established an interim operating facility at a separate
location where most FEMA personnel operated until the JFO was established.
FEMA’s FCO and Louisiana’s State Coordinating Officer did not establish
joint operational objectives and priorities until September 11, 2005. In
addition, Louisiana’s limited number of trained emergency managers
impacted the integration of FEMA with state and local counterparts.

   New Orleans: A Uniquely Vulnerable City

Because the greater New Orleans metropolitan area sits in the tidal lowlands
of Lake Pontchartrain and is generally bordered on its southern side by the
Mississippi River, its near sea level elevation makes it uniquely susceptible to
flooding. Levees and floodwalls built around the city were expected to
greatly reduce the threat of flooding from hurricane-induced storm surges,
waves, and rainfalls. However, the levees kept natural silt deposits from the
Mississippi River from replenishing the delta, causing Louisiana’s coastal
wetlands to wash away and the city of New Orleans to sink even deeper,
which when combined with rising sea levels, increased the region’s
vulnerability to flooding.

New Orleans’ location also creates unique evacuation issues. For example,
only two main highways provide evacuation routes inland and out of the New
Orleans area; one route leads through Mississippi. Should both Mississippi
and Louisiana need to evacuate simultaneously, significant congestion
problems would occur, and shelters in Mississippi would become
overwhelmed in trying to care for evacuees from two states. While Louisiana
and Mississippi had an agreement in place to convert all traffic lanes to a
northbound direction on specified evacuation routes, the plan’s effectiveness
was dependent on Louisiana beginning to evacuate a day before Mississippi.
Both states began evacuating on the same day prior to Hurricane Katrina’s
landfall.




     A Performance Review of FEMA’s Disaster Management Activities
                   In Response to Hurricane Katrina

                               Page 12
        Initial Recovery
                         FEMA’s primary programs to assist individuals and states recover from the
                         effects of a disaster are the Individual and Public Assistance programs.

                         For Hurricane Katrina, an individual or household could receive a maximum
                         of $26,200 of Individual and Household Program (IHP) assistance from
                         FEMA. IHP has two major components: housing assistance and other needs
                         assistance. 8 Housing assistance is 100 percent federally funded and
                         administered and provides assistance for temporary rental lodging, home
                         repairs, and home replacement. Other needs assistance is a cost-shared
                         partnership between FEMA and the states. It assists with the reimbursement
                         of medical and dental costs, funeral and burial costs, transportation, and
                         personal property items. As of September 30, 2005, FEMA had received
                         1,557,937 registrations for IHP assistance from residents of the three affected
                         states. It made 1,380,564 applicant referrals for assistance under the housing
                         assistance component and awarded $2,401,735,486. It also made 784,887
                         referrals under the other needs assistance component and awarded
                         $68,793,970.

                         FEMA’s Public Assistance program provides supplemental federal disaster
                         grants for the repair, replacement, or restoration of disaster-damaged, publicly
                         owned facilities and the facilities of certain private non-profit organizations. 9
                         The program reimburses eligible emergency related activities such as debris
                         removal and emergency protective measures. As of October 1, 2005, FEMA
                         had received a total of 430 projects and obligated more than $962 million to
                         the three affected states.


        Framework for Federal Disaster Response
                         The terrorist attacks of September 11, 2001, resulted in substantial changes to
                         how the federal government prepares for, responds to, and recovers from
                         natural disasters. The Homeland Security Act of 2002 10 created DHS and
                         realigned FEMA, previously independent, as part of the department within the



8
  See Appendix B for a description of FEMA’s Individual Assistance Programs.
9
  See Appendix C for a description of FEMA’s Public Assistance Program and eligible work under the program.
10
   P.L. 107-296 (November 25, 2002).

                                A Performance Review of FEMA’s Disaster Management Activities
                                              In Response to Hurricane Katrina

                                                           Page 13
                           Emergency Preparedness and Response Directorate. 11 FEMA gained some
                           capabilities, such as the NDMS from the Department of Health and Human
                           Services, but did not retain others, such as the administration of selected
                           preparedness grants. Further, the Homeland Security Act and Homeland
                           Security Presidential Directive-5, “Management of Domestic Incidents,”
                           called for a new, unified, all-hazards framework and plan for responding to
                           terrorism, natural disasters, special events, and emergencies.

                           As required by Homeland Security Presidential Directive-5, DHS developed
                           NIMS as a framework to help emergency managers and responders from
                           different jurisdictions and disciplines work together more effectively during
                           disasters and emergencies. To the extent possible, disasters are managed
                           locally; as most responses do not exceed the capabilities of the local
                           government. However, some incidents require multiple jurisdictions or levels
                           of government to provide an adequate response. To aid cooperation, the
                           NIMS standardizes the concepts and processes for incident command and
                           management, resource management, training and certification, and
                           communications. Appendix D provides greater detail on the command and
                           management aspects of NIMS, including Incident Command Structure. DHS
                           published NIMS on March 1, 2004. Jurisdictions are required to comply fully
                           with its guidelines by September 30, 2006, in order to remain eligible for DHS
                           preparedness grants.

                           DHS designed the NRP to fit the NIMS framework and to synthesize previous
                           federal plans including those for natural hazards, biological and radiological
                           hazards, and terrorist events. 12 The NRP addresses events such as Hurricane
                           Katrina – events that involve multiple geographic areas; cause casualties and
                           displace persons; disrupt critical infrastructure and essential public services;

11
   A DHS reorganization that took effect after Hurricane Katrina eliminated the Emergency Preparedness & Response
Directorate, organizationally placing FEMA directly under the DHS Secretary. The reorganization created a DHS
Preparedness Directorate distinct from FEMA, which absorbed some of FEMA’s Preparedness Division. These and
other organizational changes were planned as part of the Second Stage Review. The review examined elements of DHS
in order to recommend ways to better manage risk in terms of threat, vulnerability, and consequence; prioritize policies
and operational missions according to this risk-based approach; and establish a series of preventive and protective steps
that would increase security at multiple levels. The results of the review were announced on July 13, 2005, and were
reflected in the Department of Homeland Security Appropriations Act, 2006, P.L. No. 109-90 (October 18, 2005).
FEMA’s Preparedness Division remained intact at the time of Hurricane Katrina, and is therefore referred to as such in
this report.
12
   The NRP superseded the Initial National Response Plan, the Federal Response Plan, the Domestic Terrorism Concept
of Operations Plan, and the Federal Radiological Emergency Response Plan on April 14, 2005. The NRP outlines the
authorities and responsibilities for coordinating domestic incident management based on 70 statutes, regulations,
executive orders, and presidential directives.

                                  A Performance Review of FEMA’s Disaster Management Activities
                                                In Response to Hurricane Katrina

                                                              Page 14
overwhelm the response capabilities of state, local, tribal, and private-sector
officials; and require a short or no-notice federal response. The NRP consists
of a base plan plus 31 annexes describing ESFs, incident-specific response,
and administrative support processes. For further background on the NRP,
see Appendix E.

FEMA has or shares lead responsibility for 9 of the 31 annexes and has
supporting roles for many others. These assign FEMA responsibility for
overall coordination of disaster relief efforts across federal, state, and
volunteer organizations. Specific responsibilities FEMA fulfills under the
NRP include:

   •    Federal Coordinating Officers: For disasters declared under the
        Stafford Act, the President appoints an FCO from FEMA’s cadre to act
        on his behalf in orchestrating the federal response effort in the affected
        state. The FCO manages and coordinates the application of programs
        and funds under the Stafford Act, including mission assignments and
        resource allocation.

   •    ESF-5: Emergency Management: As ESF-5 coordinator and its
        primary agency, FEMA staffs the core management and administrative
        functions in support of the JFO, RRCC, NRCC, and Emergency
        Response Teams. FEMA staffs incident command functions including
        the section chiefs for operations, logistics, planning, and finance and
        administration. FEMA also provides the staff and information
        technology support to process federal mission assignments.

   •    ESF-6: Mass Care, Housing, and Human Services: FEMA coordinates
        ESF-6 and serves as its primary agency jointly with the American Red
        Cross (Red Cross). ESF-6 supports disaster victims with feeding,
        sheltering, Disaster Welfare Inquiry, and first aid; short and long-term
        housing; implementation of the Individuals and Households Program;
        Crisis Counseling; Disaster Unemployment Assistance; Disaster Legal
        Services; and voluntary agency coordination and donations
        management.

   •    ESF-9: Urban Search and Rescue: FEMA’s National US&R Response
        System provides specialized collapsed structure search and rescue
        operations and life-saving assistance to victims.



       A Performance Review of FEMA’s Disaster Management Activities
                     In Response to Hurricane Katrina

                                 Page 15
                              •    ESF-14: Long-term Community Recovery and Mitigation: This ESF
                                   applies available federal programs to support disaster mitigation and
                                   permanent restoration of infrastructure, housing, and the local
                                   economy. 13

                              •    ESF-15: External Affairs: DHS Public Affairs coordinates ESF-15,
                                   and FEMA serves as its primary agency. ESF-15 works to provide
                                   accurate, coordinated, and timely information to the public, the
                                   government, the media, and the private sector.

                          Like the NRP, the Stafford Act determines FEMA’s role in disaster
                          preparedness, response, and recovery. The provisions of the Stafford Act
                          establish processes and programs for providing federal assistance to state,
                          local, and tribal governments; individuals; and qualified private nonprofit
                          organizations. Federal assistance may include technical assistance, the
                          provision of goods and services, and financial assistance including direct
                          payments, grants, loans, and insurance. FEMA coordinates and issues much
                          of the assistance under the Stafford Act, but other federal agencies also
                          provide assistance. For example, the Small Business Administration (SBA)
                          manages and funds the Disaster Loan Program for renters, homeowners, and
                          businesses.

                          In order for FEMA to make federal assistance under the Stafford Act
                          available, states initiate a request for an emergency or major disaster
                          declaration that is reviewed by FEMA for approval of the President.
                          Emergency declarations typically authorize federal programs for emergency-
                          type assistance, such as debris removal, while major disaster declarations
                          afford a broader range of federal assistance. Funding is capped at $5 million
                          per emergency declaration; this restriction does not apply to major disaster
                          declarations. The Stafford Act also permits FEMA to anticipate declarations
                          and pre-stage federal personnel and resources when a disaster that threatens
                          human health and safety is imminent but not yet declared. However, FEMA
                          cannot provide federal assistance until an emergency or major disaster
                          declaration is made.

                          States are required to activate their emergency plans as a prerequisite to
                          requesting federal assistance under the Stafford Act. Authority to declare
                          evacuations and enforce state and local laws are state and local concerns.

13
  Because our scope focuses on the period of August 24 to September 30, 2005, and prior, we did not conduct a
performance review of FEMA’s long-term recovery and mitigation efforts for Hurricane Katrina.

                                  A Performance Review of FEMA’s Disaster Management Activities
                                                In Response to Hurricane Katrina

                                                            Page 16
                          During Hurricane Katrina, all three governors deployed their National Guard
                          units and emergency management staff – the Alabama Emergency
                          Management Agency, Mississippi Emergency Management Agency, and the
                          Louisiana Office of Homeland Security and Emergency Preparedness.
                          Additional state and local resources include police, fire, public health and
                          medical and other personnel; private sector support, and state mutual aid
                          agreements. For example, Alabama, Mississippi, and Louisiana are all
                          signatories to the Emergency Management Assistance Compact (EMAC),
                          which allows each to request, receive, and reimburse other states for resources
                          such as personnel and commodities. 14 During Hurricane Katrina, the majority
                          of assistance requested through EMAC was for National Guard resources and
                          law enforcement personnel. Other types of requests included medical team
                          support, search and rescue resources and commodities such as ice and water.

                          Before Hurricane Katrina’s landfall, FEMA was providing assistance to states
                          for 38 previously declared disasters. In preparation for Hurricane Katrina, the
                          President signed emergency declarations authorizing federal public assistance
                          for emergency protective measures and debris removal for Louisiana on
                          August 27, 2005, and for Alabama and Mississippi on August 28, 2005. On
                          August 29, 2005, Hurricane Katrina’s landfall, the President signed major
                          disaster declarations for all three states to provide Individual Assistance and
                          Public Assistance to selected parishes and counties. The declarations were
                          revised multiple times to expand the number of declared localities and types
                          of assistance available, and to reduce the percent of assistance funded by state
                          cost sharing. As of September 30, 2005, 44 states and the District of
                          Columbia also received emergency declarations to support Hurricane Katrina
                          evacuees.

                          The chart below illustrates the number of major disaster and emergency
                          declarations issued under the Stafford Act from fiscal year (FY) 1995 to FY
                          2005.




14
  EMAC is a mutual aid agreement between states, which enables assistance between states during times of disaster or
emergency.

                                 A Performance Review of FEMA’s Disaster Management Activities
                                               In Response to Hurricane Katrina

                                                            Page 17
                                                      Major Disaster and Emergency Declarations
                                                                under the Stafford Act
                                         120
                                                                                                                               67

                                         100
                Number of Declarations                                                                         19
                                          80           2                                                                 7
                                                                               16
                                                                       3                        15
                                          60                    5
                                                                                           5
                                                                                                        1
                                          40    2      72
                                                                       61                                      62       65
                                                               49              53               50
                                          20                                            41              42                     45
                                               29

                                           0
                                               1995   1996    1997    1998    1999     2000    2001    2002   2003      2004   2005
                                                                                     Fiscal Year
                                                             Major Disaster Declarations       Emergency Declarations




Results of Review

  Difficulty Adapting to New Response Plans
               In the past two years, DHS published two watershed planning documents –
               the NIMS and the NRP – that restructure how federal, state, and local
               government agencies and emergency responders conduct disaster preparation,
               response, and recovery activities. Changes needed to implement both
               documents, including developing specific procedures and plans, training, and
               testing, were still underway when Hurricane Katrina made landfall. The
               response to Hurricane Katrina demonstrated some positive effects from
               implementing the incident command structure under NIMS, which FEMA and
               state staff led in Mississippi and Alabama. It also highlighted severe
               deficiencies and multiple areas where FEMA and DHS headquarters must
               make adjustments to the NRP, such as the use of incident designations, the
               role of the PFO, and the responsibilities of ESF coordinators.




                                          A Performance Review of FEMA’s Disaster Management Activities
                                                        In Response to Hurricane Katrina

                                                                           Page 18
States Had Varied Success Implementing Incident Command System
Structures and Establishing Unified Command
          Incident command system (ICS) structures and unified command were
          implemented with varying levels of success in Mississippi, Alabama, and
          Louisiana during the response to Hurricane Katrina. Mississippi immediately
          implemented a comprehensive ICS structure and integrated federal, state, and
          local personnel at all levels in a unified command. Alabama implemented an
          ICS structure, but at a smaller scale because Hurricane Katrina did not cause
          the level of damage in Alabama that it did in Mississippi and Louisiana.
          Louisiana experienced difficulty with fully implementing an ICS structure and
          establishing a unified command with federal, state, and local officials.

          Mississippi

          FEMA’s FCO and Mississippi’s State Coordinating Officer immediately
          established a unified command with a comprehensive ICS structure. Prior to
          landfall, FEMA’s Emergency Response Team-Advanced arrived at the state’s
          EOC and began coordinating commodities and personnel for the response.

          FEMA and state officials told us that after landfall, federal, state, and local
          counterparts integrated and worked side-by-side to manage the response. As
          issues occurred, all were able to immediately address the issue and
          recommend solutions. Joint incident action planning meetings with federal
          and state counterparts from all response sections facilitated planning
          objectives, priorities, and operations for each operational period.

          Due to the magnitude of the damage, the Operations Section established three
          geographic branches, each containing multiple divisions, within Mississippi.
          Branch I included the six most severely damaged coastal counties. Within
          Branch I, each county was a separate division. Branches II and III consisted
          of divisions covering two or more counties each. Because FEMA did not
          have enough personnel to staff all division supervisor positions, personnel
          from the U.S. Forest Service filled some division supervisor positions. In
          addition, FEMA established a federal operational staging area in each branch
          to facilitate the distribution of commodities and other resources in the affected
          area.

          FEMA and state emergency management officials in Mississippi recognized
          early on that a forward location in the disaster area would be necessary so an

               A Performance Review of FEMA’s Disaster Management Activities
                             In Response to Hurricane Katrina

                                         Page 19
Area Field Office was established in Biloxi. Federal, state, and local
personnel were pushed forward into the disaster area, and they were
empowered to act. Division supervisors within the affected area determined
their requirements and requests that could not be filled by the state were
passed to the Branch. The requests were then passed to the JFO if they could
not be filled at the Branch level, and sent forward within the ICS structure
until filled.

The ICS structure established in Mississippi included geographic branches
and divisions, and authority was delegated to personnel at the division level.
In addition to establishing a unified command with federal, state, and local
response personnel, the structure allowed FEMA, state, and local emergency
management officials to manage Hurricane Katrina response efforts even
though existing resources were overwhelmed according to FEMA and state
officials.

Alabama

In comparison to Mississippi, Alabama’s ICS structure was much smaller,
showing the flexibility and scalability of the ICS system. Only two coastal
counties in Alabama received significant damage from Hurricane Katrina.
Damage to other counties was not as severe as Mississippi’s. As a result,
Alabama’s ICS structure was much less complex. For example, Alabama did
not have a need to establish branches or divisions in order to adequately
coordinate a response.

In addition, FEMA and Alabama Emergency Management Agency personnel
worked from the beginning to establish joint objectives and priorities. Joint
incident action plans were developed also. Alabama’s FCO recognized that
Department of Defense assistance would not be required and, two days after
landfall, released the Defense Coordinating Element so it could move to
Mississippi for future support operations.

Louisiana

Louisiana had great difficulty establishing an integrated command structure,
and never fully achieved a unified command with FEMA. FEMA’s
Emergency Response Team-National arrived at Louisiana’s EOC in Baton
Rouge before landfall and attempted to integrate with Louisiana’s Office of
Homeland Security and Emergency Preparedness personnel. However,
extremely limited space at Louisiana’s EOC prevented some FEMA and state

     A Performance Review of FEMA’s Disaster Management Activities
                   In Response to Hurricane Katrina

                               Page 20
                             personnel from co-locating. Instead, FEMA established an interim operating
                             facility at a separate location, where most FEMA personnel operated until the
                             JFO was established on September 12, 2005. Although the JFO was
                             operational, state operations personnel continued working at the state EOC
                             rather than co-locating with FEMA at the JFO. Therefore, a few FEMA
                             Operations Section personnel continued to work out of the EOC to facilitate
                             and pre-screen Louisiana’s requests for assistance until state operations
                             personnel moved to the JFO.

                             FEMA immediately established positions based on an ICS structure; however,
                             FEMA and state officials told us that because Louisiana had a limited number
                             of trained emergency management staff, the state was not able to provide a
                             counterpart to all federal positions. FEMA officials in Louisiana told us that
                             state emergency management personnel were concerned exclusively with
                             evacuations and did not assign staff to work with FEMA to plan initial
                             response efforts for Louisiana. FEMA officials indicated that its personnel
                             prepared initial plans for commodity and medical needs, and they had to pull a
                             state employee to begin US&R planning. While FEMA does not usually
                             coordinate with local officials, FEMA sent liaisons into the affected Louisiana
                             parishes and attempted to establish a unified command with local officials and
                             the National Guard. However, at the local level in the affected parishes,
                             federal and local counterparts did not coordinate to establish a unified
                             command in most cases according to FEMA officials in Louisiana. In
                             addition, FEMA’s FCO and Louisiana’s State Coordinating Officer did not
                             establish joint priorities and objectives for the response until
                             September 11, 2005. 15

                             Louisiana’s ICS structure did not include geographic branches or divisions
                             within the Operations Section. A forward operational area was not established
                             in New Orleans until September 5, 2005, when the Deputy PFO arrived in
                             Louisiana. According to FEMA officials, the PFO cell, which later became an
                             Area Field Office, operated as a satellite of the JFO in Baton Rouge. While
                             the Area Field Office was assigned an area of responsibility covering several
                             parishes in the New Orleans area, personnel on the ground there were not
                             delegated authority, as was the case with division supervisors in Mississippi.
                             In contrast to Mississippi, the New Orleans Area Field Office received its
                             action plans and operations from Baton Rouge rather than determining the
                             needs for the area and sending requests for assistance through the JFO. The


15
     Louisiana Defense Coordinating Officer Situation Report, September 11, 2005, at 1900 hrs.

                                   A Performance Review of FEMA’s Disaster Management Activities
                                                 In Response to Hurricane Katrina

                                                               Page 21
limited ICS structure and lack of unified command in Louisiana significantly
undercut its response efforts.

Multiagency Coordination Entities Duplicated Support Efforts

FEMA’s NRCC in Washington, DC, and RRCCs at FEMA Regional Offices
in Atlanta, Georgia, and Denton, Texas, acted as multiagency coordination
entities during the Hurricane Katrina response. In addition to FEMA
personnel, the NRCC and RRCCs included personnel from other components
within DHS plus personnel from other federal agencies, all performing
functions in support of the various emergency support functions.

Each entity coordinated policy and provided strategic guidance and situational
information to personnel operating in the incident area. Each also worked to
locate sources for needed resources and determine how best to allocate limited
resources to address and balance requirements across Mississippi, Alabama,
and Louisiana. Often these efforts were duplicative.

Emergency Response Teams-National and Advanced also acted as
multiagency coordination entities during the initial Hurricane Katrina
response. These teams deployed to each state prior to landfall and began
coordination efforts for the response. After landfall, the teams were in place
and could immediately begin addressing issues and coordinating the response.

The NRCC, RRCCs, and Emergency Response Teams have the same
organizational structure. However, as issues developed, all three entities
began working to resolve the issue rather than allowing the issue to be worked
at the field level first by the Emergency Response Teams-National and
Advanced, and then elevated to the regional or national level as necessary.
Instead efforts were duplicated, resulting in the need for multiple conference
calls among the three entities to resolve an issue.

Given the complexity of the response effort and issues presented by Hurricane
Katrina, DHS headquarters and FEMA must establish a defined use for
multiagency coordination entities that expedites the resolution of issues,
facilitates incident management, coordinates policy, and provides strategic
guidance and direction to support incident management activities at the most
appropriate operation level. Doing so will avoid the unnecessary and time
consuming coordination and posturing that resulted in response to Hurricane
Katrina.


     A Performance Review of FEMA’s Disaster Management Activities
                   In Response to Hurricane Katrina

                               Page 22
FEMA and DHS Were Adjusting to the National Response Plan
          During the response, several significant departures from NRP protocols
          occurred: (1) DHS’ actions to apply NRP protocols for Incidents of National
          Significance and catastrophic incidents were ambiguous; (2) DHS defined a
          new, operational role for the PFO by assigning the PFO both FCO and
          Disaster Recovery Manager authorities; and, (3) the Interagency Incident
          Management Group (IIMG) took an operational role not prescribed in the
          NRP. As a backdrop to these changes, FEMA had not yet developed or
          implemented policies and training for roles and responsibilities necessary to
          supplement the NRP. Further, a number of agencies that were assigned
          emergency support functions under existing NRP authorities believed it was
          necessary to revise their operational protocols and procedures during the
          response.

          The implementation of the NRP occurred on an aggressive schedule. DHS’
          Secretary officially released the NRP for implementation on January 6, 2005.
          The plan phased in training and plan modification requirements over 120
          days, superseding its predecessor response plans on April 14, 2005. However,
          some training and plan modifications were not complete when Hurricane
          Katrina occurred. For the remainder of the NRP’s first year, DHS planned to
          assess NRP coordinating structures, processes, and protocols. The
          assessments will culminate in a one-year review and recommendations to the
          Secretary on necessary NRP revisions. An initial review of the NRP,
          scheduled for December 2005, is not yet complete. We would anticipate that
          lessons learned from Hurricane Katrina would be used to make necessary
          revisions to the NRP.

          The NRP made significant changes to the Federal Response Plan, the plan that
          had shaped FEMA’s and the federal government’s response to most disasters.
          We received mixed reaction to how the NRP affected the federal response to
          Hurricane Katrina. Some senior officials at FEMA and DHS headquarters
          commented the NRP was used to the greatest extent possible since its
          implementation, and that training to transition to the NRP was well conducted.
          Other FEMA headquarters officials disagreed, stating that the NRP contained
          unrealistic requirements and unclear language, and asserted that executing the
          plan’s new concepts and components created confusion. State officials also
          told us the NRP was unclear and not well understood; but overall, their
          consensus was that it did not have a positive or negative effect on the state and


               A Performance Review of FEMA’s Disaster Management Activities
                             In Response to Hurricane Katrina

                                         Page 23
local response because most were familiar with the NRP’s predecessor, the
Federal Response Plan.

Two NRP Designations Had Little Effect on Response Operations

A key concept in the all-hazards NRP is the distinction between events that
occur every day and are addressed by the responsible jurisdiction or
governmental authority and those that are considered “Incidents of National
Significance.” Incidents of National Significance are major events that must
be addressed by the combined effort of federal, state, local, tribal, private
sector, and nongovernmental entities. They involve situations including:

   •    Acts or credible threats of terrorism involving a response by more than
        one federal agency;
   •    Federal support to states during a catastrophic incident or disaster
        declared under the Stafford Act;
   •    Federal response to special events such as National Security Special
        Events (e.g., national political conventions);
   •    Federal-to-federal support requested of DHS by another agency; and,
   •    Direction from the President for DHS to manage response to an
        incident.

According to the NRP, all declared emergencies and major disasters by the
President under the Stafford Act are Incidents of National Significance. DHS’
Secretary may also designate Incidents of National Significance, which are
not Stafford Act declarations. Between April 14, 2005, when the NRP
superseded other plans, and Hurricane Katrina’s landfall, FEMA responded to
19 declared disasters (all NRP Incidents of National Significance).

The President approved emergency declarations for all three states prior to
Hurricane Katrina’s landfall, making them Incidents of National Significance.
However, confusion arose when DHS’ Secretary formally declared Hurricane
Katrina an Incident of National Significance on August 30, 2005. It was
unclear what federal resources would be made available under the
August 30, 2005, designation. The announcement did not significantly alter
the response operation, but calls into question whether senior officials were
knowledgeable of NRP authorities and protocols.

As a whole, the NRP does not require a formal statement of activation, but
parts of the plan such as the Catastrophic Incident Annex do. This annex

       A Performance Review of FEMA’s Disaster Management Activities
                     In Response to Hurricane Katrina

                                 Page 24
coordinates an accelerated, proactive federal response to a no-notice or short-
notice catastrophic mass victim or mass evacuation incident, and is activated
by DHS’ Secretary. No one we interviewed could definitively state whether
DHS activated the Catastrophic Incident Annex for Hurricane Katrina.
Irrespective, FEMA and the Homeland Security Operations Center (HSOC)
activated federal departments and the Red Cross. Federal resources that the
annex would have afforded were deployed before landfall.

A more detailed Catastrophic Incident Supplement supports the annex with a
time-phased deployment matrix of federal resources and assets, including
special teams, equipment, supplies, and transportation to provide critical life
saving support and incident containment. The Catastrophic Incident
Supplement was still in draft when Hurricane Katrina made landfall and was
not approved until September 2005. The supplement identifies 131 actions
that agencies must take within 96 hours after an incident for a natural hazard
event. Of these actions, DHS is responsible for or supports 79. Our analysis
demonstrated that all FEMA teams listed in the supplement had initiated
deployment actions as required by the “push” concept of operations for
natural hazards before landfall. In most instances, more FEMA teams and
resources than referenced in the supplement were deployed. Extra teams sent
included Urban Search and Rescue Teams, Deployable Mortuary Operational
Response Teams, and Disaster Medical Assistance Teams. During our
analysis, we also note apparent discrepancies between the Execution Schedule
(Annex 1) and the accompanying Transportation Support Schedule (Annex 2)
of the supplement. For example, as currently written, Annex 2 does not
provide for the transportation support of Disaster Medical Assistance Teams
for natural hazard and biological events, but for chemical, radiological,
nuclear, and high yield explosive events, the annex provides transportation
support for 14 such teams.

Overlap Between the Interagency Incident Management Group and the
Homeland Security Operations Center

Hurricane Katrina reinforced the lesson from Top Officials 3 exercise that the
role of the IIMG needs better definition. According to the NRP, the IIMG is a
federal, headquarters-level, multiagency coordination entity that assembles on
an as-needed basis to provide strategic incident management planning,
coordination, and decision-making support for the DHS Secretary and White
House. However, during Top Officials 3 exercise, IIMG members adopted a
less strategic role and, although not formally, we recommended:


     A Performance Review of FEMA’s Disaster Management Activities
                   In Response to Hurricane Katrina

                               Page 25
                                    “The roles and responsibilities of the HSOC and the IIMG should be
                                    clarified. …Under the NRP, a key role of the IIMG is to provide
                                    decision-making support to top and senior officials during an incident.
                                    However, rather than provide policy advice to top officials during the
                                    exercise, the IIMG was under pressure from senior federal officials to
                                    provide situational information and address lower level coordination
                                    issues that should have been part of HSOC’s role.” 16

                            Co-located with the HSOC, during Hurricane Katrina the IIMG established
                            operational hours, fulfilled requests for situational information, and created
                            routine reports. IIMG members we interviewed said that the senior officials
                            on the IIMG served as a reporting cell to DHS leadership and the White
                            House, running parallel functions with the HSOC. Doubling the headquarters-
                            level information collection effort to include both the HSOC and the IIMG
                            burdened response operations at the JFO and the NRCC, which began hiring
                            contractors to manage information requests.

                            DHS needs to consider revising the respective roles of the IIMG and HSOC.
                            The disaster response role of the IIMG is not new; it replaces the Catastrophic
                            Disaster Response Group that served as the policy-level interagency
                            coordination entity under the Federal Response Plan. The NRCC and JFO
                            also fulfill roles that previously existed under that plan. DHS should clarify
                            how it intends to integrate these entities with the HSOC, which has the
                            primary role of collecting operational and situational information for DHS
                            headquarters.

                            Recommendation #1: We recommend that the Director of the Federal
                            Emergency Management Agency, in coordination with the Director of the
                            Office of Operations Coordination, clarify the National Response Plan
                            guidelines for federal, headquarters-level collection and synthesis of
                            situational and operational information, with the intent of eliminating
                            duplication of effort between the Interagency Incident Management Group
                            and Homeland Security Operations Center.

                            Role of the Principal Federal Official Requires Clarification

                            The NRP describes several key leadership positions during a disaster
                            response. In addition to the role of DHS’ Secretary, positions include:


16
     A Review of the Top Officials 3 Exercise, Report Number OIG-06-07, November 2005, page 15.

                                  A Performance Review of FEMA’s Disaster Management Activities
                                                In Response to Hurricane Katrina

                                                             Page 26
                              •    Federal Coordinating Officer: The President designates an FCO as the
                                   lead federal official to coordinate federal resource support for each
                                   emergency or major disaster declared under the Stafford Act. 17 FEMA
                                   maintains a standing roster, or cadre, of FCOs who have undergone a
                                   rigorous agency-wide certification program with preparation for all-
                                   hazard events including terrorism and weapons of mass destruction.
                                   Additionally, FCOs must participate in actual disasters or full-scale
                                   exercises as part of the certification program.

                              •    Principal Federal Official: The DHS Secretary serves as or formally
                                   appoints a PFO as needed. 18 According to the NRP, the PFO
                                   facilitates federal support to the established incident command
                                   structure and coordinates overall federal incident management and
                                   assistance to officials such as the FCO acting under their disaster
                                   response authorities. The PFO does not direct or replace the incident
                                   command structure. The PFO provides a primary point of contact and
                                   local situational awareness for DHS’ Secretary, a channel for media
                                   and public communications, and an interface with state, local, and
                                   other federal officials. DHS’ roster of PFO designees includes senior
                                   officials from several DHS components, the Environmental Protection
                                   Agency, and the Departments of Treasury, Health and Human
                                   Services, and Justice. As of July 2005, over 100 candidates had
                                   received DHS’ one-day PFO orientation training. However, neither
                                   PFO designated by DHS’ Secretary had attended the training.

                              •    Federal Resource Coordinator: DHS appoints the Federal Resource
                                   Coordinator to perform a function similar to the FCO in disasters not
                                   declared under the Stafford Act. In those situations, the Federal
                                   Resource Coordinator coordinates support through interagency
                                   agreements and memorandums of understanding. The Federal
                                   Resource Coordinator is responsible for coordinating the timely
                                   delivery of resources to the requesting agency. Members of the FCO
                                   cadre generally serve as Federal Resource Coordinators.



17
  42 U.S.C. §5143, Coordinating Officers.
18
  For certain scenarios, DHS’ Secretary may pre-designate a PFO to facilitate federal domestic incident planning and
coordination at the local level outside the context of a specific threat or incident. When the Secretary of Homeland
Security activates the Catastrophic Incident Annex and Supplement, the Secretary designates the PFO within an hour of
the incident, and the FEMA Regional Director serves as the interim PFO until the designated PFO arrives on the scene.

                                  A Performance Review of FEMA’s Disaster Management Activities
                                                In Response to Hurricane Katrina

                                                             Page 27
                               •    Disaster Recovery Manager: When the President issues an emergency
                                    or major disaster declaration under the Stafford Act, FEMA Regional
                                    Directors serve as or designate Disaster Recovery Managers to
                                    exercise all the authority of the Regional Director in administering the
                                    financial aspects of assistance authorized under the Stafford Act.
                                    Disaster Recovery Managers oversee the delivery of Stafford Act
                                    programs, determine funding requirements, execute the FEMA/State
                                    Agreement, issue mission assignments, and obligate money from the
                                    Disaster Relief Fund. 19 In many cases, the FCO also serves as the
                                    Disaster Recovery Manager.

                          When both a PFO and an FCO are assigned to a specific incident, as was the
                          case during Hurricane Katrina, the FCO will coordinate with the PFO and
                          work closely with representatives of other federal agencies. For a side-by-side
                          comparison of duties of both the FCO and PFO, as outlined in the NRP, see
                          Appendix F. For natural disasters, DHS’ Secretary may not designate a PFO,
                          in which case the FCO designated by the President serves as the lead federal
                          official. Prior to Hurricane Katrina, the PFO element of the NRP was only
                          tested during terrorism-related events rather than natural disasters, in exercises
                          such as Top Officials 3, and National Special Security Events. The response
                          to Hurricane Katrina was the first operational use of the PFO.

                          On August 30, 2005, DHS’ Secretary designated the Under Secretary of
                          Emergency Preparedness and Response (EP&R) as the PFO for Hurricane
                          Katrina. The majority of state and federal officials we interviewed said that
                          the Under Secretary’s execution of the PFO role matched the non-directive,
                          coordination duties described in the NRP. However, when the Secretary
                          appointed Vice Admiral Allen as PFO on September 9, 2005, the PFO took a
                          greater role in directing the federal response, which was contrary to the PFO’s
                          role as outlined in the NRP. 20

                          As the PFO assumed a greater role in the response operations, the new lines of
                          command and authority created confusion. For example, a state official told
                          us the PFO was coordinating directly with local government officials without
                          the knowledge of the state. In addition, the PFO duplicated planning and
                          reporting activities in the JFO. In New Orleans, the Deputy PFO cell was

19
   The Regional Director is responsible for executing the FEMA/State Agreement even if not serving as the Disaster
Recovery Manager.
20
   We also observed a gravitation of the PFO towards a more operational rather than coordination role during the Top
Officials 3 exercise.

                                   A Performance Review of FEMA’s Disaster Management Activities
                                                 In Response to Hurricane Katrina

                                                             Page 28
                          established and FEMA had an Area Field Office; it was unclear who was
                          responsible for federal operations in New Orleans. Further, the Louisiana JFO
                          operations section identified instances where the PFO submitted action
                          request forms to the JFO operations section on behalf of the state while at the
                          same time the state was submitting the same action request form. Also, the
                          PFO cell issued action request forms directly to emergency support function
                          leads, in conflict with the JFO operations section. In Louisiana, the JFO staff
                          and PFO cell spent a significant amount of energy establishing and clarifying
                          respective roles and responsibilities.

                          Effective September 21, 2005, the Acting Under Secretary for EP&R
                          designated the PFO as FCO for the states of Alabama, Mississippi, and
                          Louisiana. 21 This action sanctioned the shift toward a greater directive role
                          for the PFO in the response. Several officials commented that the eventual
                          blending of PFO and FCO authorities suggests an unnecessary division within
                          the NRP. Others added that the FCO’s statutory authorities as the
                          representative of the President fully encompass the PFO role. Further, if one
                          justification for a PFO is to reduce the non-operational burden of the FCO,
                          such as public and media relations, combining the roles defeats the purpose.
                          Moreover, inconsistent use of PFOs for some affected states and not others
                          added to the confusion. 22 For example, one FEMA region delegated Disaster
                          Recovery Manager authority to the PFO/FCO while another region did not,
                          which provided different financial authorities and responsibilities in Louisiana
                          than in Mississippi and Alabama.

                          Many senior FEMA officials viewed consolidating roles as necessary in
                          Louisiana, but were neutral on the subject in Alabama. Both state and FEMA
                          officials said it had a less than positive effect in Mississippi. They disagreed
                          with the change because the consolidation created regional leadership for the
                          response when many issues were state-specific, such as the type of damage
                          and long-term housing. State officials said that a single federal official should
                          not hold responsibilities for more than one state and that consolidation
                          delayed the approval of Mississippi requests to add additional counties and
                          types of disaster assistance for weeks.



21
  70 Fed. Reg. 57308 and 57309 (September 30, 2005).
22
  Although Hurricane Katrina affected the state of Florida, the PFO designation did not extend to Florida. Additionally,
a PFO was designated for Hurricane Ophelia (North Carolina) and Hurricane Rita (Texas and Louisiana) but not for
Hurricane Wilma (Florida).

                                 A Performance Review of FEMA’s Disaster Management Activities
                                               In Response to Hurricane Katrina

                                                              Page 29
Recommendation #2: We recommend that the Director of the Federal
Emergency Management Agency, in coordination with the Assistant Secretary
for Policy, clarify the roles of the Principal Federal Official, the Federal
Coordinating Officer, the Federal Resource Coordinator, and the Disaster
Recovery Manager to provide a clear distinction for the types and levels of
response activities that warrant a combination or modification to those roles;
develop procedures for the timely activation of each role; and, ensure that
these officials be provided with the necessary training to complement their
qualifications for serving in these positions.

Structures and Procedures for Emergency Support Functions Were in
Development

Although the concept of emergency support functions is not new, the
structures of certain ESFs are. The following table lists the ESFs and agencies
responsible for their functions under the NRP. The NRP created new ESFs
for public safety and security (ESF-13), long-term community recovery and
mitigation (ESF-14), and external affairs (ESF-15). Also, it substantially
revised the scope of ESF-5 from information and planning to encompass all
emergency management and expanded ESF-6 to mass care, housing, and
human services. The following sections discuss FEMA’s role as a coordinator
or primary agency for ESF-5, ESF-6, ESF-9, and ESF-15.




     A Performance Review of FEMA’s Disaster Management Activities
                   In Response to Hurricane Katrina

                               Page 30
                     Emergency Support Functions Under the Federal and National Response Plans
      Federal           E                                              National
   Response Plan        S                                            Response Plan
  Then                  F   Now                   ESF Coordinator                             Primary Agency
  Transportation        1   Transportation        Department of Transportation       Department of Transportation
  Communications        2   Communications        DHS (National Communications       DHS (National Communications
                                                  System)                            System)
  Public Works &        3   Public Works &        Department of Defense (U.S.        Department of Defense (U.S. Army
  Engineering               Engineering           Army Corps of Engineers)           Corps of Engineers)
                                                                                     DHS (FEMA)
  Firefighting          4   Firefighting          Department of Agriculture          Department of Agriculture (Forest
                                                  (Forest Service)                   Service)
  Information &         5   Emergency             DHS (FEMA)                         DHS (FEMA)
  Planning                  Management
  Mass Care             6   Mass Care, Housing,   DHS (FEMA)                         DHS (FEMA)
                            & Human Services                                         American Red Cross
  Resource Support      7   Resource Support      General Services Administration    General Services Administration
  Health & Medical      8   Public Health &       Department of Health & Human       Department of Health & Human
  Services                  Medical Services      Services                           Services
  Urban Search &        9   Urban Search &        DHS (FEMA)                         DHS (FEMA)
  Rescue                    Rescue
  Hazardous            10   Oil & Hazardous       Environmental Protection          Environmental Protection Agency
  Materials                 Materials Response    Agency                            DHS (U.S. Coast Guard)
  Food                 11   Agriculture &         Department of Agriculture         Department of Agriculture
                            Natural Resources                                       Department of the Interior
  Energy               12   Energy                Department of Energy              Department of Energy
  No such function     13   Public Safety &       DHS                               DHS
                            Security              Department of Justice             Department of Justice
  No such function     14   Long-term             DHS (FEMA)                        Department of Agriculture
                            Community                                               Department of Commerce
                            Recovery &                                              DHS (FEMA)
                            Mitigation                                              Department of Health & Human
                                                                                    Services
                                                                                    Department of Housing & Urban
                                                                                    Development
                                                                                    Department of the Treasury
                                                                                    Small Business Administration
  No such function     15   External Affairs      DHS (Public Affairs)              DHS (FEMA)



Need to Solidify Role of ESF-5, Emergency Management
                  Hurricane Katrina highlighted issues as to whether there is a need for ESF-5,
                  Emergency Management. Unlike the other 14 functions, which have
                  established desks at the NRCC, RRCCs, and JFOs, ESF-5 did not staff a desk,
                  appoint coordinators, or organize below the incident commander and section
                  chiefs. FEMA and DHS staff performed ESF-5 activities as described by the
                  NRP, such as activating, staffing, and running the NRCC, RRCCs, JFOs, and
                  emergency response teams. However, FEMA had performed those roles

                        A Performance Review of FEMA’s Disaster Management Activities
                                      In Response to Hurricane Katrina

                                                   Page 31
without a specific emergency support function designation under the Federal
Response Plan.

Several FEMA managers questioned the need for ESF-5 as it is currently
written in the NRP. Under the Federal Response Plan, FEMA was the lead for
ESF-5 and performed information and planning activities such as collecting,
analyzing, processing, and disseminating information, and providing support
for planning and decision-making at all levels of government during a
disaster.

The NRP altered this structure by adding information-processing and
decision-making support roles for the HSOC, IIMG, and ESF-15. Further, by
folding in plans for response to terrorist events, the NRP envisioned responses
in which FEMA would not manage overall response efforts. NRP planners
told us this concerned state and local emergency managers, who believed
emergency management was not going to have a defined role within the new
plan. Therefore, DHS transformed ESF-5 to encompass all emergency
management, not just information and planning.

ESF-5’s responsibilities under the NRP involve “supporting overall activities
of the federal government for domestic incident management.” The NRP
provides a list of responsibilities under FEMA’s ESF-5 purview,
predominately coordination, management, staffing, and support functions.
During a response, ESF-5 activates federal emergency assets including the
other ESFs; coordinates operations with state, regional, local, and tribal
entities; coordinates use of remote sensing, reconnaissance, and Geographic
Information System support; and staffs the NRCC, RRCCs, JFOs, and other
components within the federal incident command structure. ESF-5 response
tasks also include incident action planning and situational reporting.

FEMA staff performed all these functions during Hurricane Katrina and
submitted daily situational reports with summaries of ESF-5 work. However,
we were unable to determine who within FEMA claimed responsibility for
ESF-5 coordination at its headquarters or field locations.

FEMA staff that created ESF-5 for the NRP said it was hastily designed, is
incomplete, and has not been fully implemented. A detailed standard
operating procedure is in development and should define emergency
management’s function, identify key participants, list the skills and assets they
provide, and clarify how these elements synthesize under the NRP. Once a
more comprehensive document has been released, FEMA must ensure all

     A Performance Review of FEMA’s Disaster Management Activities
                   In Response to Hurricane Katrina

                               Page 32
employees receive training to minimize confusion over the roles and
responsibilities of ESF-5.

Information and Reporting Problems

In redesigning ESF-5, the NRP changed the processes for collecting and
disseminating disaster information. Even though ESF-5 retains responsibility
for information and reporting, the HSOC and ESF-15, External Affairs, also
have roles. During Hurricane Katrina, physical difficulties with the
communications infrastructure were compounded by an inadequate structure
for collecting and disseminating disaster information. Staff in operations,
logistics, and ESF sections, such as mass care and external affairs, had
difficulty obtaining complete, timely, and accurate information on response
efforts.

According to the NRP, overall federal responsibility for disaster information
collection and sharing belongs to DHS’ HSOC. The NRCC, FEMA’s
operational and informational center and part of ESF-5, is an important
information resource for the HSOC. The NRP describes the NRCC as an
HSOC component. The NRCC activated staffing and contributed to DHS
situation reports, executive summaries, official briefings, the National
Situation Update, the National Situation Report, and HSOC spot reports.
Information requests from the HSOC and the IIMG consumed the NRCC’s
planning section, which decided to hire contractors after the second week of
the disaster to handle the sheer volume. Working with the NRCC, FEMA’s
Operations Center maintains an on-going situational watch, assists in report
distribution, and publishes incident reports.

The HSOC, NRCC, and FEMA Operations Center were part of a larger
network of responding entities that generated thousands of reports related to
Hurricane Katrina. Despite these multiple levels of reporting, critical, timely,
and accurate information did not consistently reach FEMA and DHS
leadership. For example, DHS’ Secretary and key FEMA officials said that
they did not learn of the first breach of the New Orleans levees until almost 24
hours after it occurred. FEMA staff learned of the breach the morning of
August 29, 2005, at the FEMA Operations Center and, separately, through
Public Affairs staff that afternoon. The HSOC also received the report
through the U.S. Army Corps of Engineers. However, the information was
not included in the DHS Situation Report until the morning of
August 30, 2005, and in the FEMA National Situation Update and National
Situation Report until August 31, 2005.

     A Performance Review of FEMA’s Disaster Management Activities
                   In Response to Hurricane Katrina

                               Page 33
          One change implemented by FEMA for its response to Hurricane Wilma in
          October 2005 was to pre-position staff as forward observers for information
          collection. Other changes are needed, and involve other DHS components
          such as the HSOC in addition to FEMA. First, DHS needs to standardize its
          format and methodology for collecting and reporting information. One
          possible explanation for why the FEMA Operations Center had no record of
          forwarding the reported levee breach is that the center follows a draft 2001
          notifications manual that has not been updated to describe its relationship with
          the HSOC or compliance with NIMS.

          Second, DHS should establish a common information management system to
          consolidate and publish disaster information including incident reports,
          contact information, duty logs, and resources. During Hurricane Katrina, this
          information was fragmented and dispersed among multiple systems. The
          HSOC’s Homeland Security Information Network published all DHS situation
          reports on its secure internet-based system but had an incomplete library of
          other reports, including HSOC Spot Reports. In addition, each state, the
          National Guard Bureau, and multiple Department of Defense groups,
          including Northern Command and Joint Task Force-Katrina, published
          incident reports. Duty logs, plans containing contact information, and
          resource information were not readily accessible. State incident, resource, and
          planning data, stored in commercially available software such as E-Team,
          were not compatible for exchange with FEMA information software.

          Recommendation #3: We recommend that the Director of the Office of
          Operations Coordination for the Department of Homeland Security, in
          coordination with the Chief Information Officer, design an information
          management system that allows users to track and share information more
          openly and efficiently; and, standardize the format and methodology for
          collecting and reporting information.


ESF-6, FEMA’s Coordination Efforts with Other Governmental and
Nongovernmental Partners
          FEMA made major efforts to coordinate with other agencies and improve its
          ability to provide housing resources in its response to Hurricane Katrina.
          Some of its efforts were more effective than others. For example, FEMA and
          the Red Cross experienced difficulty in identifying the number and location of

               A Performance Review of FEMA’s Disaster Management Activities
                             In Response to Hurricane Katrina

                                         Page 34
                          evacuees because both held different expectations for coordinating the mass
                          care function. FEMA was slow in identifying and establishing its direct
                          housing mission, so alternative housing resources, such as cruise ships, were
                          initially used. Also, it was hard for FEMA to staff its Disaster Recovery
                          Centers with experienced personnel. However, better coordination between
                          FEMA and voluntary organizations did exist and the use of the Coordinated
                          Assistance Network afforded more efficient and effective service coordination
                          among voluntary, as well as governmental, agencies during the disaster.

                          Initial Activation

                          Under the NRP, FEMA is designated as the coordinator for ESF-6. Both it
                          and the Red Cross are primary agencies – the Red Cross for mass care
                          functions and FEMA for housing and human services functions. 23 Both
                          support governmental and nongovernmental efforts to address non-medical
                          needs of individuals and families affected by an Incident of National
                          Significance or other disaster event. 24

                          ESF-6 was activated August 27, 2005, and its desk at the NRCC was staffed.
                          FEMA readied approximately 40 Community Relations staff for deployment
                          to Orlando, Florida on August 27, 2005, and placed an additional 40 on
                          alert. 25 The National Voluntary Organizations Active in Disaster (VOAD)
                          convened an interagency conference call and planning for Disaster Recovery
                          Centers began. 26 By August 28, 2005, FEMA’s housing taskforce was in
                          Louisiana and had started contingency planning for potential shortfalls in
                          sheltering.



23
   All other voluntary organizations are positioned under the National Voluntary Organizations Active in Disaster as
support agencies. Other ESF-6 support agencies include: the Departments of Agriculture, Defense, Health and Human
Services, Homeland Security, Housing and Urban Development, Interior, Justice, Labor, Transportation, Treasury,
Veterans Affairs, General Services Administration, Office of Personnel Management, Small Business Administration,
Social Security Administration, U.S. Postal Service, and Corporation for National and Community Service.
24
   Mass care includes activities to provide sheltering, feeding, and emergency first aid; housing addresses both shorter
and longer-term needs of displaced disaster victims; and human services covers a range of programs, such as crisis
counseling, benefit processing for FEMA’s Individuals and Households Program, disaster unemployment, and identifies
support for persons with special needs.
25
   The Community Relations function resides with ESF-15, External Affairs.
26
   The National VOAD is a membership organization composed of approximately 40 organizations that provide services
following disasters and is responsible for sharing information with its members regarding the severity of the disaster,
needs identified, and actions taken to address these needs. See Appendix G for a list of some of the VOADs that
provided assistance and services in response to the hurricanes that affected the Gulf Coast region.

                                 A Performance Review of FEMA’s Disaster Management Activities
                                               In Response to Hurricane Katrina

                                                              Page 35
                          By August 30, 2005, FEMA was planning to deploy 50 strike teams to address
                          interim and temporary housing solutions and another 50 teams to shelters to
                          register disaster victims. It worked with the U.S. Army Corps of Engineers to
                          develop a contingency plan for the construction of temporary shelters for up to
                          50,000 disaster victims. At FEMA headquarters, a consolidated management
                          cell was formed to ensure consistency in Individual Assistance program
                          implementation across current and anticipated JFO locations within the three
                          affected areas. In addition, FEMA activated four contracts, estimated at $400
                          million, for Individual Assistance Technical Assistance Contactors to support
                          its temporary housing assistance program and other resource implementation
                          such as establishing Disaster Recovery Centers and training sites. Pre-
                          deployment training of Individual Assistance personnel began in Orlando,
                          Florida, on August 31, 2005.

                          Red Cross Mass Care Activities

                          Prior to landfall and before ESF-6 activation, the Red Cross established 30
                          shelters, placed 15 shelters on standby, and sent 12 emergency response
                          vehicles as well as 3,000 clean up and comfort kits to Florida. In preparation
                          for the second landfall, the Red Cross identified sites in Louisiana and worked
                          with the Southern Baptist Convention to open 15 kitchens with a capacity to
                          serve 25,000 meals per day at each site, and identified 10 additional sites to
                          provide the same capability. Approximately 228,000 meals were sent to
                          Baton Rouge, Louisiana and 227,000 to Montgomery, Alabama. The Red
                          Cross assigned 100 emergency response vehicles, with an additional 100 to be
                          assigned depending on where landfall occurred.

                              Sheltering and Number of Evacuees

                          FEMA worked with the Red Cross and states to coordinate assistance and the
                          movement of evacuees as shelters became operational for both general and
                          special needs populations. The day before landfall, 13 shelters were open: 9
                          in Mississippi housing 15 people and 4 in Louisiana housing 830 people. The
                          number of shelters and evacuees surged significantly on August 29, 2005, to
                          204 Red Cross shelters and 30,046 evacuees in five states. 27 However, FEMA
                          estimated the total number of Red Cross and non-Red Cross-shelters was 240,
                          housing 51,852 evacuees.


27
  On August 29, 2005, 38 shelters were open in Alabama housing 2,134; 13 in Florida housing 711; 68 in Mississippi
housing 7,834; 11 in Texas housing 739; and 74 in Louisiana housing 18,628.

                                A Performance Review of FEMA’s Disaster Management Activities
                                              In Response to Hurricane Katrina

                                                            Page 36
                           On August 31, 2005, ESF-6 processed a request to the Department of Defense
                           to provide 800 personnel to assist with sheltering and feeding disaster victims
                           in Louisiana and Mississippi. Also, a request was made of FEMA Logistics to
                           source and acquire 700,000 additional MREs for delivery to the Red Cross to
                           support shelter operations, but FEMA had sourcing and logistical problems in
                           fulfilling that request. It took FEMA six days to fulfill all of the Red Cross’
                           requests for MREs.

                           FEMA worked with the Red Cross and with states to identify and open
                           multiple shelter locations throughout the United States but both had great
                           difficulty confirming the number of people in shelters and tracking the
                           number of evacuees and those being housed at unofficial shelter locations.
                           For example, by September 4, 2005, FEMA had identified 499 shelters
                           housing a population of 120,509 but later estimated the number of shelters to
                           be 419, with a population of 273,100 evacuees. See Appendix H for an
                           estimate of the number of shelters and shelter population by state from
                           August 26, 2005 to September 30, 2005. 28

                           FEMA continued to track evacuees to assure more reliable information was
                           available on the number and destination of evacuees so that it could notify the
                           Red Cross to arrange for sheltering. However, FEMA continued to have
                           difficulties in obtaining reliable information on where evacuees were located
                           and when they would arrive.

                           By September 12, 2005, FEMA was working to transition evacuees from
                           shelters into temporary or interim housing by an October 1, 2005, target date.
                           However, 853 shelters in 18 states were still housing an estimated 80,289
                           evacuees on September 26, 2005. Given the widespread evacuation of
                           residents to states throughout the nation, the target date was difficult for
                           FEMA and its governmental and nongovernmental partners to achieve, and
                           may have been an unrealistic expectation.




28
  FEMA used multiple sources of information and data to establish what it viewed as reliable numbers for shelters,
evacuees, and host states. We reviewed this information as reported by FEMA field offices, FEMA headquarters, and
ESF-6, to develop the chart listed in Appendix H. The data used in our report may not reflect the actual total number of
shelters, locations, evacuees, or host states on any given date.

                                 A Performance Review of FEMA’s Disaster Management Activities
                                               In Response to Hurricane Katrina

                                                              Page 37
                                                 ESF-6 Total Shelters & Shelter Population
                                                 Date            Shelters        Population
                                                 08/29/05           204            30,046
                                                 08/30/05           252            42,059
                                                 09/02/05           351           122,759
                                                 09/04/05 29        419           273,100
                                                 09/06/05           735           234,321
                                                 09/08/05           774           246,834
                                                 09/10/05           604           134,608
                                                 09/12/05 30        679           140,711
                                                 09/14/05          1,034          122,639
                                                 09/16/05           926            97,795
                                                 09/18/05           949            89,445
                                                 09/20/05           643            73,244
                                                 09/22/05           717            60,888
                                                 09/24/05           814            79,774
                                                 09/26/05           853            80,289


                            Identifying the number and location of evacuees, as well as the need for
                            shelters, was initially difficult for FEMA in its ESF-6 role. As Hurricane
                            Katrina was the first activation of ESF-6 under the NRP, the roles and
                            responsibilities that had been more defined under the Federal Response Plan
                            for the mass care function, were not yet clearly defined or established under
                            the NRP. Both FEMA and the Red Cross must work together, along with
                            other governmental and nongovernmental organizations within the ESF-6
                            structure, to define the expectations each has for its role and area of
                            responsibility. For example, a senior Red Cross official told us it is
                            responsible for the coordination and reporting only of Red Cross mass care
                            operations. FEMA, on the other hand, said it was relying heavily on the Red
                            Cross to coordinate mass care operations and reporting that was inclusive of
                            other ESF-6 support agencies. Establishing a working group, in coordination
                            and consultation with all ESF-6 primary and support agencies, to serve as a
                            forum to resolve coordination issues experienced during Hurricane Katrina is
                            prudent and would assist in defining roles and realizing expectations.

                            Recommendation #4: We recommend that the Director of the Federal
                            Emergency Management Agency establish an ESF-6 working group to define
                            the explicit roles and responsibilities for each agency, develop standard
                            operating procedures, and implement a concept of operations plan for
                            response activities that address all levels of disasters.



29
     FEMA estimate of number of shelters and shelter population, DHS Situation Report Number 19, September 4, 2005.
30
     FEMA verifying shelter totals, DHS Situation Report Number 35, September 12, 2005.

                                  A Performance Review of FEMA’s Disaster Management Activities
                                                In Response to Hurricane Katrina

                                                              Page 38
                             Hotels and Motels

                         The Red Cross expanded its financial assistance and hotel and motel housing
                         programs in response to Hurricane Katrina. To qualify for financial
                         assistance, clients must have had a pre-disaster address in an affected area that
                         was verified by the Red Cross. In addition, FEMA would make referrals to
                         the Red Cross. As of September 30, 2005, over 1,223,099 rooms had been
                         provided and the Red Cross had funded more than $65 million for this
                         program – all from funding donated to the organization.

                         The vast majority of evacuee stays in hotels and motels facilitated by the Red
                         Cross under the Hurricane Katrina Special Accommodations Program were
                         done through an agreement with Corporate Lodging Consultants, Inc. During
                         our review, FEMA and the Red Cross worked out a reimbursement contract as
                         the response created additional demands and longer-term housing needs than
                         what the Red Cross traditionally provides. FEMA may reimburse the Red
                         Cross for housing disaster victims in hotels, motels, or other housing
                         resources when extraordinary expenses outside of the Red Cross’ normal
                         programs occur. On October 20, 2005, the Red Cross and FEMA established
                         a contract, for approximately $250 million, for reimbursing the costs of shelter
                         and emergency pharmaceutical prescription assistance to evacuees.

                         As of October 24, 2005, Corporate Lodging Consultants, Inc. estimated that
                         approximately 200,000 evacuees were housed under this program in
                         approximately 65,000 rooms in nearly 10,000 hotels and motels nationwide. 31
                         The Hurricane Katrina Special Accommodations Program, which the Red
                         Cross carried out on behalf of the federal government, transitioned to FEMA
                         on October 25, 2005. FEMA established its own contract with Corporate
                         Lodging Consultants, Inc. and the program continued to cover the cost of
                         evacuee short-term stays in motels or hotels, where other accommodations
                         were not available. 32 FEMA was also working with evacuees to find safe and
                         affordable longer-term housing.




31
  Corporate Lodging Consultants, Inc. website, October 24, 2005.
32
  The DHS OIG Office of Gulf Coast Hurricane Oversight reviewed FEMA’s contract management processes for
awarding and administering a task order to provide emergency lodging to Hurricane Katrina evacuees. See DHS OIG,
Management Advisory Report on Invoices Submitted under Order HSFEHQ-06-F-0047 by Corporate Lodging
Consultants, Inc., Report Number GC-HQ-06-09, February 2006.

                               A Performance Review of FEMA’s Disaster Management Activities
                                             In Response to Hurricane Katrina

                                                          Page 39
   Disaster Welfare Information

The intent of the Disaster Welfare Information concept of operations for ESF-
6 is to collect and provide information on individuals who live in an affected
disaster area to family members and friends outside of the disaster area. The
Red Cross, in collaboration with Microsoft Corporation, established the
Family Links Website to provide this service. It includes records from the
previous Red Cross Family Links website and many other websites. Family
Links attempts to provide the most current and accurate information available.
However, due to the relocation and movement of Hurricane Katrina evacuees,
location information on the website was not always complete, current, or
correct. Evacuees were able to provide information on their location, and
concerned family members and friends could search the list of those already
registered. This website was available online for evacuee searches through
February 28, 2006. As of September 25, 2005, 276,439 evacuees had reported
their status and 28,237 concerned family members and friends had registered
on line. In addition, calls were made to the Red Cross’ 1-877-LOVED1s
number concerning the status of 167,682 names.

FEMA’s Efforts to Identify and Establish Housing Resources

FEMA’s overall housing strategy for Hurricane Katrina was to use shelters,
hotels, motels, cruise ships, tents, applicants staying with friends and relatives,
tarping of roofs so applicants could remain in place where possible, and other
available housing resources to address immediate housing needs of disaster
victims. It would then transition victims to travel trailers and mobile homes,
and finally to apartments to address longer-term housing needs. Some
components of FEMA’s housing strategy were not well planned or
coordinated, while other components to address and support the housing needs
of displaced disaster victims were not as effective or efficient as FEMA had
anticipated.

Because of Hurricane Katrina’s devastation, FEMA made immediate housing
decisions. For example, on August 31, 2005, it procured 20,000 manufactured
housing units, for approximately $1 billion, to address anticipated housing
needs and planned to purchase over 100,000 units. It also purchased 30
mobile Disaster Recovery Centers to compliment its existing inventory and 30
office trailers for use in implementing Individual Assistance field operations.
By September 4, 2005, FEMA continued to assess available housing resources
such as hotels, properties owned by federal agencies, and vacant lots at mobile
home parks as well as the potential use of recently closed nursing homes and

      A Performance Review of FEMA’s Disaster Management Activities
                    In Response to Hurricane Katrina

                                Page 40
commercial cruise ships as options for temporary housing resources. The
Individual Assistance Technical Assistance Contactors were en route to
Mississippi and two cruise ships, with a capacity to hold 5,200 passengers,
were to arrive the following day in Galveston, Texas for use as interim
housing for the elderly, persons with special needs, and families with small
children who were in shelters.

By September 5, 2005, FEMA’s Individual Assistance management cell had
developed a strategy to address the immediate needs of disaster victims that
included: deploying teams to register evacuees, activating expedited
assistance, facilitating relocation of evacuees, using alternative means to
verify program eligibility, and establishing a gradual transition to its standard
operating procedures and program implementation once immediate needs had
been addressed. By September 7, 2005, the U.S. Department of Agriculture
was working with the private sector to identify privately owned rental
resources nationwide that could be used to house displaced victims. In
addition, the department made 3,000 vacant housing units in the affected
region available and 30,000 housing units available nationwide. FEMA and
the department also coordinated with faith-based organizations to match
displaced residents with those housing resources. FEMA officials expressed
to us the integral role the Department of Agriculture played in identifying and
providing housing resources to displaced victims.

The Corporation for National and Community Service and FEMA worked to
develop a plan for the most effective use of national service resources in
assisting disaster victims. Also, FEMA made requests of the Corporation for
National and Community Service to help augment its Disaster Recovery
Centers staff by providing casework, outreach, and other administrative
services throughout the impacted area.

   Travel Trailers and Mobile Homes

By September 6, 2005, FEMA’s primary ESF-6 issues in Louisiana were to
stabilize shelter operations and food distribution; in Mississippi it was
supporting shelters and the relocation of evacuees as well as identifying
emergency group sites for travel trailers; and in Alabama it was coordinating
the installation of travel trailers on individual private sites and developing
group sites. FEMA’s Housing Area Command stated it had identified
sufficient sites to address the housing needs of displaced Alabama residents
and would redirect resources to address the more affected states of Mississippi
and Louisiana. In all states, 3,500 manufactured homes and 5,200 travel

     A Performance Review of FEMA’s Disaster Management Activities
                   In Response to Hurricane Katrina

                               Page 41
                            trailers, in various stages of production, were purchased from dealer lots.
                            FEMA also began moving approximately 5,000 units from its inventory to
                            staging areas, had 60,000 travel trailers being produced at the rate of
                            approximately 120 per day, and awarded a contract for 1,500 modular
                            structures.

                            By September 10, 2005, staff at FEMA registration call centers began
                            recording information for mobile and travel trailer pre-placement interviews.
                            The first family to be placed in a travel trailer occurred 12 days after the
                            disaster was declared. By September 12, 2005, construction started on a 500-
                            unit travel trailer site in Louisiana with an accelerated occupancy schedule of
                            one week. Within the three affected states, there were 903 travel trailers
                            occupied by September 15, 2005; an additional 1,306 (both travel trailers and
                            mobile homes) were ready for occupancy; and 4,798 were positioned in
                            various staging areas. The following day, only 910 units were occupied: 491
                            in Louisiana; 107 in Mississippi; and 312 in Alabama.

                            In Louisiana, the Housing Area Command was working to have 2,405 housing
                            units ready for occupancy by the week of September 17, 2005, and an
                            additional 3,408 units ready the following week. Construction began on a site
                            in Baton Rouge on September 19, 2005, to place 580 travel trailers. The
                            anticipated completion date for this project was September 29, 2005. As of
                            October 1, 2005, only 4,128 units were occupied: 667 in Louisiana, 2,929 in
                            Mississippi, and 532 in Alabama; and, an additional 5,446 units were ready
                            for occupancy. FEMA, in working with its contractors, experienced difficulty
                            in identifying acceptable sites to place units and was slow in identifying
                            applicants to occupy units. 33 For example, several sites initially identified by
                            FEMA in Louisiana to place multiple units were not well coordinated with
                            local officials, and local officials determined placement was not acceptable.
                            Also, in several states there were issues with leasing existing parks. FEMA
                            can pay only for minimum improvements and some parks required major
                            renovations before being considered suitable for unit placement.

                                Cruise Ships

                            In Alabama, FEMA’s use of a cruise ship was primarily focused on housing
                            evacuees from Mississippi who were 65 years and older and in good health,
                            single parents with children, and homeless individuals living in adverse


33
     The DHS OIG Office of Gulf Coast Hurricane Oversight is conducting ongoing work regarding housing issues.

                                  A Performance Review of FEMA’s Disaster Management Activities
                                                In Response to Hurricane Katrina

                                                             Page 42
                          conditions. 34 By September 5, 2005, the ship had a lower than anticipated
                          occupancy rate. The lower rate may have been caused by the availability of
                          shelters and tents in the area. Evacuees could commute more easily to work
                          and were closer to their damaged homes by residing in these facilities rather
                          than on the ship, as living on the ship meant a 45-minute commute for some.
                          By September 19, 2005, FEMA was working to move more displaced persons
                          on to the ship. In addition, it had been trying to move the ship from Mobile,
                          Alabama to Pascagoula, Mississippi, as this would place the evacuees closer
                          to home and work, but FEMA received resistance from Mobile’s port director
                          because a docking fee would be lost should the ship move. As of
                          September 30, 2005, the number of Mississippi residents aboard the cruise
                          ship was 1,111, although the ship was capable of accommodating 1,848
                          passengers. The ship moved to Pascagoula, Mississippi on October 29, 2005.

                          On September 10, 2005, two cruise ships arrived in New Orleans, Louisiana,
                          to provide housing to disaster victims, with a primary focus to house disaster
                          victims and first responders or personnel essential to the recovery effort. On
                          September 12, 2005, FEMA met with New Orleans and parish officials
                          regarding the use of the ships for evacuees but the most critical need
                          expressed to FEMA was to house essential city personnel, such as police and
                          firefighters. Boarding began that day. The two ships provided immediate
                          housing for essential emergency workers, created a base camp from which to
                          operate, and also housed disaster victims. An additional 262 boarded on
                          September 15, 2005, and pre-registration for an additional 866 began,
                          bringing the total cruise ship occupants registered to approximately 3,366,
                          with 1,430 on board. By September 18, 2005, a third cruise ship was in the
                          New Orleans area and the total boarded population was 2,105. By
                          October 1, 2005, 4,658 passengers were on all four ships in New Orleans and
                          Chalmette, Louisiana, and Mobile, Alabama.

                          During the first 30 days after the disaster, all four ships were only about 35
                          percent occupied. At that occupancy rate, the cost to FEMA was
                          approximately $3,363 per week, per evacuee, which was about three times
                          higher than the existing per diem rate for federal government workers for the
                          area. As of October 31, 2005, however, the occupancy increased
                          significantly. In New Orleans, one ship with a capacity of 2,634 passengers
                          had 2,118 on board (80 percent occupied); another ship with the same

34
  DHS OIG Office of Audits conducted an initial review of the decision to use cruise ships to provide housing for
victims and first responders. DHS OIG, Memorandum to AIG for Hurricane Katrina Oversight, Hurricane Katrina
Cruise Ships, November 4, 2005.

                                 A Performance Review of FEMA’s Disaster Management Activities
                                               In Response to Hurricane Katrina

                                                             Page 43
                            capacity had 2,374 passengers (90 percent occupied); and the additional ship
                            with a capacity of 1,020 had 862 passengers (85 percent occupied). The last
                            of the four ships, with a capacity of 1,848 had 1,367 passengers (74 percent
                            occupied).

                            The use of high occupancy ships as an alternative resource to provide housing
                            for disaster victims and personnel essential to the response and recovery effort
                            was effective, but not necessarily efficient. For example, in Alabama, because
                            other immediate housing resources were available in the affected area and
                            provided evacuees with better accessibility to their work and damaged
                            residences, the initial efficiency of the ships as an alternative housing resource
                            was diminished. Future planning for the use of this resource should be
                            focused more on accommodating the needs of disaster victims and should take
                            into account other available housing resources to avoid potential duplication.

                            Recommendation #5: We recommend that the Director of the Federal
                            Emergency Management Agency develop alternative housing resource plans
                            that include a review of all identified resources within an affected area,
                            determine whether potential duplication exists, and efficiently deliver services
                            that are accommodating to the disaster victim.

                            Coordination with Voluntary Organizations

                            Voluntary organizations are FEMA’s partners in the provision of many mass
                            care services for ESF-6, such as feeding and the bulk distribution of items to
                            victims of disaster, and offer assistance that FEMA is unable to provide. For
                            example, by September 23, 2005, both the Red Cross and the Salvation Army
                            had provided over 16 million meals, 12 million snacks, established over 780
                            fixed feeding sites, and used over 520 mobile feeding units in response to
                            Hurricane Katrina. 35 In addition, over 158,000 clean up kits and 287,000
                            comforts kits had been distributed. 36

                            FEMA worked with the Department of Agriculture and ESF-6 to keep
                            sufficient food supplied to shelters. In Louisiana, a mass feeding coordination
                            group was established that included: ESF-11, FEMA, VOAD, the Red Cross,
                            the Salvation Army, the Southern Baptist Convention, and the state. The
                            group reviewed and updated resources, parish feeding needs, and meal
                            capacity for hurricane victims and evacuees. By September 30, 2005, six

35
     ESF-6, data as of September 23, 2005.
36
     ESF-6, data as of September 26, 2005.

                                   A Performance Review of FEMA’s Disaster Management Activities
                                                 In Response to Hurricane Katrina

                                                             Page 44
                         kitchens were operational in Mississippi with a capacity to serve 100,000
                         meals per day, 38 in Texas with a capacity of 185,000 meals per day, and 24
                         in Louisiana with a capacity of 309,000 meals per day. As of
                         December 15, 2005, the Red Cross, in coordination with the Southern Baptist
                         Convention, had served more than 27 million hot meals and 25 million snacks
                         to hurricane survivors in the Gulf Coast region.

                         FEMA, working with National VOAD, was able to anticipate the proactive
                         role some nongovernmental organizations would have in disaster response and
                         recovery operations, and attempted to coordinate relationships with those
                         organizations to provide assistance and alleviate the potential for duplication.
                         Historically, volunteer and governmental agencies have sought to work
                         together on behalf of disaster victims and to ensure that the most effective and
                         efficient care is provided on their behalf. However, due to a wide-range of
                         legal and practical challenges, a shared service coordination system was only
                         developed last year.

                         Although FEMA and the voluntary organizations experienced coordination
                         issues, better VOAD communication and cooperation existed in response to
                         Hurricane Katrina than in other disaster recovery efforts. For example, the
                         use of the Coordinated Assistance Network was an improvement over the lack
                         of coordination that existed after the terrorist attacks of September 11, 2001.
                         The Coordinated Assistance Network was established through a memorandum
                         of understanding in 2003 and was first piloted during the 2004 hurricane
                         season in Florida. 37 The goal of the Coordinated Assistance Network is to
                         afford more efficient and effective service coordination among voluntary, as
                         well as governmental, agencies during disaster events. It was designed as a
                         communication mechanism for services providers and to identify any gaps or
                         redundancies in services. The network allowed registered organizations to
                         access information on available services and to share information on the levels
                         of services delivered to individuals, families, or households. It also allowed
                         disaster victims to explain their needs and register only once, as registration
                         afforded disaster victims a registration with all service providers on the
                         network. As of September 30, 2005, 5 organizations were using the network
                         and 81,817 clients records were in the system.




37
  The following organizations signed this document: American National Red Cross, Salvation Army, Alliance of
Information and Referral Systems, United Way of America, United Services Group, National VOAD, and Safe Horizon.

                               A Performance Review of FEMA’s Disaster Management Activities
                                             In Response to Hurricane Katrina

                                                          Page 45
Inspection Services

When applicants apply for assistance from FEMA, the information provided is
entered into the National Emergency Management Information System.
Should an inspection be required to process the application, the system will
generate an inspection request, which is then issued to one of FEMA’s
contract inspection service providers to verify the personal and real property
losses and damages of the applicant. Inspectors then visit the homes of
applicants to verify disaster-related damages. After the inspection is
completed, inspectors upload (or return) their findings to FEMA’s processing
system so that an eligibility determination can be made.

FEMA historically has attempted to complete this process within ten days
after an application is made. Because of the disaster’s magnitude, it was
difficult for FEMA to meet this performance standard. We were told
inspectors faced limited accessibility to homes and encountered fuel and
lodging shortages, which affected their ability to complete inspections in a
timely manner. Because of the inaccessibility issues, FEMA initially used
some inspectors to take applications from disaster evacuees in shelters.

By September 2, 2005, 1,200 inspectors were positioned in all three states,
and 47,698 inspections were issued, 37,000 of which were for homes in
Louisiana. By September 10, 2005, however, the number of inspections
issued had significantly increased to 406,730. There were 1,037 inspectors in
the field and only 20,535 (5 percent) of the inspections were completed.
Specifically, 293,132 inspections were issued in Louisiana and 7,517 (3
percent) were completed; in Mississippi, 86,712 were issued and 3,543 (4
percent) were completed; and in Alabama, 26,886 were issued and 9,475 (4
percent) were completed.

FEMA determined that the need for inspectors to register applicants in
shelters was decreasing and that some affected areas were becoming
accessible, so it deployed more inspectors to the field to conduct inspections.
By September 17, 2005, 791,735 inspections were issued and 48,593 (6
percent) had been uploaded; 1,591inspectors were in the field. As of
September 20, 2005, 877,706 inspections were issued and FEMA’s contract
inspectors had completed 94,949 inspections (11 percent); 2,016 inspectors
were in the field.




     A Performance Review of FEMA’s Disaster Management Activities
                   In Response to Hurricane Katrina

                               Page 46
                                        Date       Inspections       Inspections      Percentage     Inspectors in
                                                     Issued           Returned         Returned          Field
                                     09/04/05            47,698              1,625            3%             1,200
                                     09/10/05           406,730             20,535            5%             1,037
                                     09/17/05           791,735             48,593            6%             1,591
                                     09/20/05           877,706             94,949           11%             2,016
                                     09/23/05           943,506            142,680           15%             2,196
                                     09/28/05         1,011,087            201,112           20%             2,099


                           FEMA personnel expressed concern that the rate of returned inspections was
                           low and slowing the housing transition process within the affected states. The
                           slow return rate may have been attributed to several factors such as the initial
                           inaccessibility to homes and the lack of inspectors to address the disaster’s
                           sheer volume of homes requiring inspection. In addition, many disaster
                           victims were dispersed throughout the United States and some were unable, or
                           not easily available, to be present during the inspection of the damaged home.

                           To address this issue, FEMA developed a procedure that would allow an
                           inspection without the applicant’s presence. The applicant would sign
                           applicable documents, such as the 90-69B and Authorized Agent Release
                           forms. 38 The applicant could then make arrangements with the inspector for
                           someone else – either a relative or friend over 18 years of age – to accompany
                           the inspector during the inspection. A FEMA Community Relations
                           representative accompanied the inspector in cases where the applicant did not
                           have a family member or friend to act as an authorized agent. By
                           September 23, 2005, 943,506 inspections were issued, 142,680 inspections
                           were completed, and 2,196 inspectors were in the field. By
                           September 28, 2005, 1,011,087 inspections were issued, and 201,112 were
                           completed, with 2,099 inspectors.

                           Given the initial inaccessibility issues, FEMA was creative in using deployed
                           contract inspectors to register disaster victims in shelters. FEMA was also
                           resourceful in developing an alternative mechanism for inspection in cases
                           where the applicant was not available or able to be present. However, several
                           FEMA officials said once affected areas did become accessible, there were not
                           enough contract inspectors available to perform inspections.



38
  FEMA Form 60-69B, Declaration and Release, is signed by all applicants to declare that a member of the household is
a citizen, non-citizen national, or qualified alien of the United States, and other certifying statements from the applicant,
such as the information provided in their application for FEMA assistance is true and correct to the best of their
knowledge.

                                   A Performance Review of FEMA’s Disaster Management Activities
                                                 In Response to Hurricane Katrina

                                                                  Page 47
                             Disaster Recovery Centers

                             FEMA faced many challenges in establishing its Disaster Recovery Centers in
                             response to Hurricane Katrina. Traditionally, centers are established in
                             facilities near an affected area to serve the needs of disaster victims in that
                             area. The intent is to provide one-stop access to federal, state, local, and
                             voluntary organizations’ disaster assistance programs. By visiting a center,
                             applicants may discuss their disaster-related needs, register for FEMA
                             assistance, update any information initially provided during the registration
                             process, inquire on the status of their application, and seek information from
                             other disaster service providers. FEMA and the state work together to
                             establish and manage the centers.

                             Because of widespread damage and evacuation of the majority of disaster
                             victims, FEMA’s standard process for site selection required a different
                             approach. FEMA officials used the following assumptions in establishing the
                             location of Disaster Recovery Centers: areas will be inaccessible longer and
                             residents will not be able to return for an extended period of time. Centers
                             were initially established in areas less affected by the disaster, where larger
                             shelter populations existed or in areas where there was a significant influx of
                             evacuees. FEMA thought this approach was more efficient in addressing
                             disaster victim needs as accessibility was increased. 39

                             FEMA worked with the Red Cross and the states to identify multiple shelter
                             locations, but all were having difficulty confirming the number of people in
                             shelters and tracking the number of evacuees, and those housed at unofficial
                             shelter locations. FEMA relied upon reports generated by the affected states
                             and Red Cross to provide current information related to shelter populations.
                             Because the number and location of evacuees was often uncertain and fluid,
                             FEMA officials estimated the evacuated population by using previous New
                             Orleans census data to factor in an average family size of 2.5 persons.

                             Collectively, centers were operational seven days a week with slight
                             deviations between locations. 40 As additional centers were established,
                             FEMA began targeting the more affected areas and used both fixed and
                             mobile centers, as well as “sweep registration teams;” all of which assisted in



39
     See Appendix I for a map of FEMA’s Disaster Recovery Center locations.
40
     See Appendix J for a list of Fixed Disaster Recovery Center locations and hours of operation.

                                    A Performance Review of FEMA’s Disaster Management Activities
                                                  In Response to Hurricane Katrina

                                                                Page 48
                          registering applicants for FEMA assistance. 41 The use of sweep teams was an
                          innovative adjustment that assisted in addressing the needs of the most
                          affected populations.

                          Disaster Recovery Centers were located in a variety of facilities: abandoned
                          buildings, schools, churches, office buildings, and gymnasiums. Not all
                          facilities, however, were compliant with the Americans with Disabilities Act
                          of 1990, which made accommodating applicants more difficult, and other
                          centers were cramped and inhibited an applicant’s flow from one service
                          provider to another. Also, there was an effort to co-locate centers with
                          National Guard units in order to serve more affected areas. When co-location
                          was not possible, FEMA used mobile centers to reach those areas.

                          A total of 43 fixed and mobile centers were open and operational by
                          September 20, 2005: 16 in Louisiana; 7 in Mississippi; 7 in Alabama; 10 in
                          Texas; and 3 in Florida. 42 In Louisiana, 20,448 residents had been assisted at
                          the 13 operational fixed centers since opening. A total of 51 centers were
                          open and operational on September 21, 2005: 21 in Louisiana; 10 in
                          Mississippi; 7 in Alabama; 11 in Texas; and 2 in Florida. Between
                          August 24, 2005, and September 30, 2005, 50 fixed centers were operational.
                          The use of mobile centers was difficult to quantify because each became
                          operational based on need. FEMA was unable to provide us with an estimate
                          of the total population serviced at both fixed and mobile centers during this
                          period.

                          The Disaster Recovery Centers were staffed with representatives from federal,
                          state, and local government agencies, non-profit organizations, voluntary
                          agencies, and FEMA Disaster Assistance Employees (DAEs) and local hires.
                          However, FEMA officials told us they had inadequate numbers of trained
                          staff. They said the use of local hires had diminished over the years and
                          should be better developed to help augment staff resources. They also
                          expressed concern about a perceived limit on hiring DAEs, which hinders
                          FEMA’s ability to surge in staff during disasters.

                          To address the limitations, Disaster Recovery Center directors made important
                          and independent decisions, ranging from the maintenance and upkeep of
                          facilities to developing on-the-job training programs. During our fieldwork, a

41
   Sweep registration teams were comprised of FEMA personnel that visited shelters and special populations that could
not reach a Disaster Recovery Center.
42
   Hurricane Katrina DHS Situation Report Number 50, September 20, 2005.

                                 A Performance Review of FEMA’s Disaster Management Activities
                                               In Response to Hurricane Katrina

                                                             Page 49
center director explained how they developed a program to re-train new
personnel because new hires had not received adequate training during
FEMA’s accelerated orientation process. A number of Disaster Recovery
Center directors do not view the accelerated process as efficient or effective
because it did not facilitate or develop an ability to work independently. To
expedite the transition between when new workers arrived at a center and
when they were able to work independently, a shadowing system was used.
The system paired a new hire with a more experienced worker. The pair
worked together until the new hire was self-sufficient. The shadow system
was a resourceful method to address training deficiencies, but it also strained
limited staff resources, which decreased the number of staff available to assist
disaster victims.

Recommendation #6: We recommend that the Director of the Federal
Emergency Management Agency develop a more comprehensive training
program to prepare existing and new personnel for Disaster Recovery Center
assignments.

Recommendation #7: We recommend that the Director of the Federal
Emergency Management Agency develop a more comprehensive program to
recruit, train, and retain local hires for use in augmenting FEMA’s Disaster
Assistance Employees and permanent staff.

Additional FEMA Coordination with Governmental Organizations

   Health and Human Services

FEMA coordinated with the Department of Heath and Human Services, to
provide services from the Administration for Children and Families. This
agency is responsible for federal programs that promote the economic and
social well being of families, children, individuals, and communities. By
September 19, 2005, Heath and Human Services deployed 5 teams, with 35
staff each, to Louisiana, Mississippi, and Texas to assist with the recovery
effort and also provided information on service programs such as contacts for
welfare aid, emergency energy assistance, Head Start, and support for
displaced and foster children in all the affected areas.

   Housing and Urban Development

By September 26, 2005, FEMA was working with the Department of Housing
and Urban Development (HUD) on implementing an additional program to

     A Performance Review of FEMA’s Disaster Management Activities
                   In Response to Hurricane Katrina

                               Page 50
provide housing assistance vouchers to eligible disaster victims and
households. As not all applicants are eligible for FEMA’s housing assistance
programs, the Katrina Disaster Housing Assistance Program was developed as
a special voucher by HUD and FEMA for those displaced households who
previously lived in a HUD Section 8 property, held a Section 8 voucher, or
who were homeless.

Applicants would first register with FEMA. Should the applicant not be
eligible for FEMA’s housing assistance, FEMA would then transfer
appropriate applicant qualification data and funding to HUD. Under the
Katrina Disaster Housing Assistance Program, the family could relocate to an
area of their choice within the United States that was not affected by the
disaster. Once housing resources were rebuilt or repaired, families could then
return to their home state.

HUD’s program was to provide a temporary monthly rent subsidy to assist
eligible displaced households obtain decent, safe, and sanitary housing in the
privately owned rental market. The monthly rent subsidy would be based on
the area’s fair market rent and available for a term not to exceed 18 months.
Eligibility for the program was based on established criteria and the individual
or family must have: (1) been evacuated from a Hurricane Katrina federally-
declared disaster area within Louisiana, Mississippi, or Alabama; (2) had their
residence destroyed or made uninhabitable, as determined by FEMA; (3)
registered with FEMA by December 31, 2005; and, (4) been either homeless
or resided in a HUD-assisted dwelling unit immediately prior to evacuation.

Under the program, the local public housing agency would assume
responsibility to not only provide a monthly rent subsidy on behalf of the
family, but also to actively assist the family locate an eligible unit, including
coordinating both temporary shelter and transportation for the family, on an
as-needed basis. When a unit was selected by the family and approved by the
public housing agency, the owner and the public housing agencies would enter
into a rent subsidy contract and the family and the owner would execute a
lease. Under the program’s rent subsidy contract, the public housing agency
would pay the security deposit and a monthly rent subsidy directly to the
owner on behalf of the family. The public housing agency would also pay
assistance for deposits for utilities directly to the utility companies on behalf
of the family. However, by September 30, 2005, FEMA and HUD were still
in the process of negotiating a number of logistical and reimbursement issues
regarding how the program would be implemented.


     A Performance Review of FEMA’s Disaster Management Activities
                   In Response to Hurricane Katrina

                               Page 51
           ESF-6 Lead Was Change and Challenge for FEMA

           FEMA officials said being the coordinator and co-primary agency for ESF-6
           was a change and a challenge from its role and responsibilities under the
           Federal Response Plan. Under that plan, the Red Cross was the primary
           agency for the Mass Care Annex and FEMA was a support agency. Also,
           both FEMA and the Red Cross were support agencies for the Food Annex.
           Under the NRP, however, FEMA is responsible for coordinating the activities
           of ESF-6 designated support agencies, providing assistance with response
           activities and operations, and implementing its Individual Assistance
           programs and longer-term recovery assistance solutions. The mass care,
           housing, and human services functions performed within ESF-6 have both a
           response element, to address the urgent mass care needs of victims, and a
           recovery element, to support governmental and nongovernmental efforts in
           addressing longer-term needs of individuals and families affected by an event.

           FEMA officials stated repeatedly that it is not an emergency assistance
           provider. During the emergency response period of a disaster, FEMA relies
           upon organizations such as the Red Cross and National VOAD members to
           perform those activities. FEMA views its partnership with such organizations
           as invaluable as these organizations are the providers of emergency assistance
           to the most vulnerable and greatest need populations. As the NRP is a new
           construct, FEMA should better define its role and responsibilities for response
           activities as the coordinator and as a primary agency for ESF-6. It must also
           define and establish its expectations, and the expectations for other support
           agencies, so that they are clearly known and realized.


New Capabilities and Improved Coordination Necessary for ESF-9
           FEMA US&R task forces, in conjunction with the U.S. Coast Guard, state and
           local first responders, and volunteers, rescued an estimated 50,000 victims
           stranded as a result of Hurricane Katrina. However, FEMA lacks water rescue
           capabilities within its national US&R task forces, and many US&R resources
           and operations were not coordinated by or through FEMA’s ESF-9 role.
           Increased water rescue capabilities and improved ESF-9 coordination are
           needed for FEMA to be more responsive to future catastrophic events that
           involve large-scale flooding and the mass evacuation of stranded persons.




                A Performance Review of FEMA’s Disaster Management Activities
                              In Response to Hurricane Katrina

                                          Page 52
                           Urban Search and Rescue Mission Was Effective Despite Resource
                           Limitations

                           FEMA’s national US&R task forces worked under austere conditions to
                           perform thousands of successful rescue missions, many of them water-based,
                           even though FEMA has no existing capability for performing water rescues.
                           As of September 30, 2005, FEMA’s 28 national US&R teams had rescued
                           6,582 victims in Mississippi and Louisiana. 43

                           ESF-9 rapidly deploys national US&R task forces to provide specialized life-
                           saving assistance to state, local, and tribal governments for an Incident of
                           National Significance. FEMA is the ESF-9 coordinator and primary agency,
                           and its National US&R Response System consists of 28 US&R task forces
                           based throughout the United States and sponsored by state and local
                           government emergency response organizations. Each is staffed by local fire
                           department and emergency services personnel highly trained in collapsed
                           structure search and rescue operations; the NRP focuses on collapsed structure
                           operations. While FEMA US&R handled collapsed structure rescues with
                           success, the majority of disaster rescues during the Hurricane Katrina
                           response were water-based. None of FEMA’s US&R task forces has water
                           rescue capabilities.

                           To establish immediate water rescue capabilities in the affected areas, FEMA
                           relied on its support agencies, primarily the U.S. Coast Guard, to provide
                           personnel and boats and aircraft for water-based search and rescue activities.
                           In addition, state officials in Louisiana issued a request for volunteers to assist
                           search and rescue efforts using their personal boats. Hundreds of volunteers
                           responded.

                           In addition, FEMA requested the assistance of eight swift water rescue task
                           forces from California; however, getting these resources to Louisiana took
                           time. Because California was not an EMAC participant at the time of the
                           request, these task forces did not have the liability protections provided by


43
  A standard US&R task force complement consists of 70 specialists, plus search dogs, that are divided into six
functional specialties: search, rescue, medical, hazardous materials (hazmat), logistics, and planning. To ensure a full,
70-specialist complement can deploy to a disaster, the task forces generally roster 130 trained members. Once deployed
to a disaster site, specialists divide into two, 35-member teams to provide around the clock coverage. The task force also
deploys with a $1.4 million equipment cache that includes: listening devices and search cameras; heavy machinery such
as cranes, bulldozers, and concrete cutting saws; a fully stocked mobile emergency room; decontamination equipment;
and tents, cots, food, and water to sustain the task force for a 72-hour period.

                                  A Performance Review of FEMA’s Disaster Management Activities
                                                In Response to Hurricane Katrina

                                                              Page 53
                         EMAC. 44 FEMA’s Office of General Counsel assisted in ensuring the
                         California task forces were able to operate in Louisiana with requisite liability
                         coverage. In addition, the arrival of the task forces was further delayed due to
                         the approval process necessary for obtaining Department of Defense airlift
                         support. Once in Louisiana, the California task forces were able to begin
                         immediate water rescue missions. Water rescue operations using the
                         California task forces in Louisiana did not begin until August 31, 2005.

                         While the California task forces and U.S. Coast Guard resources provided
                         support for water-based search and rescue missions, FEMA US&R should
                         consider establishing more formal arrangements to access water rescue
                         capabilities, such as through the U.S. Coast Guard, additional DHS
                         components, or with other federal departments and agencies, to ensure that
                         resources will be available if needed in response to future Incidents of
                         National Significance. As an alternative, FEMA US&R should consider
                         developing its own water rescue capability.

                             FEMA Lacked Sufficient Personnel to Fully Staff ESF-9

                         FEMA’s US&R section was limited in its ability to fully staff the ESF-9
                         coordination function. FEMA headquarters US&R staff was over extended,
                         with most personnel performing multiple functions, and was unable to send
                         staff to the RRCCs or JFOs. Instead, seasoned task force members were
                         pulled away from US&R operational duties to staff the ESF-9 coordination
                         function at the RRCCs and JFOs.

                         Urban Search and Rescue Coordination Efforts Need Improvement

                         As ESF-9 coordinator, FEMA is responsible for activating and coordinating
                         national US&R assets. However, ESF-9 coordination activities were not
                         scaled for large, geographically dispersed catastrophic events such as
                         Hurricane Katrina. To improve its coordination of search and rescue efforts,
                         FEMA may need to redistribute ESF-9 responsibilities or develop a surge plan
                         to account for catastrophic situations requiring search and rescue capabilities
                         not inherent to FEMA.

                         As a result of the disaster’s magnitude, and subsequent levee breaches in New
                         Orleans, a large number of US&R resources were needed quickly within the

44
  After Hurricane Katrina made landfall, any state not already a member of EMAC signed on as a member, including
California. Due to its remote location, Hawaii does not participate in EMAC.

                                A Performance Review of FEMA’s Disaster Management Activities
                                              In Response to Hurricane Katrina

                                                           Page 54
area. Because US&R task forces came from locations across the United
States, ESF-9 phased in FEMA US&R deployments; full strength was reached
in Louisiana on August 31, 2005, and in Mississippi on September 1, 2005.
Also, the majority of search and rescue personnel were not provided through
ESF-9. In addition to state and local first responders and volunteers, U.S.
Coast Guard, Department of Defense, National Guard, and EMAC resources
augmented search and rescue efforts in the affected area. The U.S. Coast
Guard performed 32,967 rescues as of September 6, 2005.

Many US&R resources were not coordinated with or by FEMA in its role as
ESF-9 coordinator. When providing ESF-9 status reports for DHS situation
reports, FEMA reported only information concerning FEMA national US&R
task forces. In addition, the NRCC Operations Section Chief tasked the U.S.
Coast Guard with rescue missions directly, rather than going through ESF-9 to
coordinate rescue operations.

Lack of coordination resulted in duplicative searches. FEMA US&R task
forces conducting secondary building searches found symbols indicating
US&R resources in the area through EMAC had already searched the
buildings. US&R officials indicated they had very little coordination with the
EMAC resources in the field. EMAC was an extremely useful resource;
however, FEMA and EMAC resources need better coordination among search
and rescue task forces to avoid duplicative efforts.

In addition, FEMA headquarters US&R officials indicated they did not fully
understand the security support mission of ESF-13, Public Safety and
Security, prior to Hurricane Katrina. Civil unrest in Louisiana and threats of
civil unrest in Mississippi affected US&R operations as task forces had to
provide their own force protection or rely on available National Guard or local
law enforcement to protect task force members and equipment caches. A
better understanding of the ESF-13 function may have resulted in FEMA
coordinating with ESF-13 to provide security for US&R task forces rather
than diverting US&R resources away from the search and rescue mission.

In addition, FEMA US&R task forces experienced difficulty coordinating
with state and local officials to obtain probable cause authority to forcibly
enter a building to conduct secondary searches. In Louisiana, the Governor
and the Mayor of New Orleans each had different approaches for establishing
probable cause to search the 22,313 buildings in Orleans parish. Ultimately,
the Governor gave specific direction on forcible entry for US&R on
September 10, 2005. US&R task forces did not have a problem obtaining

     A Performance Review of FEMA’s Disaster Management Activities
                   In Response to Hurricane Katrina

                               Page 55
          proper authorities for forcible entry in Mississippi; this was not an issue in
          Alabama either.

          Some coordination of US&R efforts was achieved between the PFO and Joint
          Task Force-Katrina, but not until approximately a week after Hurricane
          Katrina’s landfall. As a result, Department of Defense and National Guard
          resources conducted a coordinated grid search of New Orleans. However, this
          coordination did not occur through FEMA’s ESF-9 coordination function.

          While the search and rescue mission was for the most part one of FEMA’s
          more effective resource implementation efforts, FEMA should review its
          current capabilities in coordination with other DHS components, such as the
          U.S. Coast Guard and Customs and Border Protection, and consider
          redistributing ESF-9 responsibilities. Or, it should consider developing its
          own water rescue capabilities and developing a surge plan for augmenting
          FEMA’s ESF-9 coordination capability during catastrophic events.

          Recommendation #8: We recommend that the Director of the Federal
          Emergency Management Agency, in coordination with the Assistant Secretary
          for Policy, review ESF-9 Annex capabilities for search and rescue and
          coordination within FEMA and other Department of Homeland Security
          components (such as U.S. Coast Guard and Customs and Border Protection)
          or with other federal departments and agencies, and either redistribute ESF-9
          responsibilities or develop greater water rescue capabilities within FEMA.

          Recommendation #9: We recommend that the Director of the Federal
          Emergency Management Agency, in coordination with the Assistant Secretary
          for Policy, develop a surge plan and standard operating procedures for
          augmenting FEMA’s ESF-9 coordination capability during catastrophic
          events with resources such as the U.S. Coast Guard and Customs and Border
          Protection personnel.


ESF-15 Structure and State Coordination Need Improvement
          ESF-15, External Affairs, serves as the primary means of sharing information
          and developing a unified message for the government, disaster victims, and
          the public. When Hurricane Katrina made landfall, problems with the
          communications infrastructure along the Gulf Coast region and staffing
          shortages hampered ESF-15 operations on the ground, as was true for many


                A Performance Review of FEMA’s Disaster Management Activities
                              In Response to Hurricane Katrina

                                          Page 56
                           FEMA, state, and local responders. Additional difficulties encountered by
                           ESF-15 were confusion over the function’s hierarchy and information flow,
                           and its difficulty establishing a coordinated message with the State of
                           Louisiana.

                           Refining the ESF-15 Organization

                           ESF-15 is a direct result of After Action Reports developed from Hurricane
                           Isabel in 2003 and combined FEMA components that informally coordinated
                           with each other during past incidents. ESF-15 serves to provide
                           “coordination, staff, and assets to carry out the external affairs mission of
                           providing accurate, coordinated, and timely information to affected audiences,
                           including governments, media, the private sector, and the local populace.” 45
                           ESF-15 components include Public Affairs (media relations, public
                           information), Community Relations (communications with victims and local
                           officials), Congressional Affairs, International Affairs, State and Local
                           Coordination/Intergovernmental Affairs, and Tribal Affairs. According to the
                           NRP, state and local officials determine the level of federal External Affairs
                           support required.

                           Although FEMA staff conducted External Affairs operations during previous
                           2005 disasters and exercises, Hurricane Katrina involved the first full use of
                           ESF-15 under DHS’ coordination. The DHS Assistant Secretary for Public
                           Affairs coordinates ESF-15 field operations to promote effective
                           communications with the public, and maintains contact with the White House
                           Office of Communications and the Homeland Security Council. The
                           Assistant Secretary named the lead External Affairs Officer for Hurricane
                           Katrina, who supported the JFO leadership in all external communications and
                           coordinated public information at the incident site through management of the
                           Joint Information Center components. 46 Joint Information Centers for
                           Hurricane Katrina were co-located with the JFOs, where public affairs
                           personnel from responding organizations could conduct emergency
                           communications, crisis communications, and public affairs functions. FEMA,
                           as the primary agency for ESF-15, has the responsibility of identifying and
                           deploying personnel and other resources to support the ESF and establishing
                           the Joint Information Centers. Joint Information Centers were established in


45
   National Response Plan, Emergency Support Function #15 External Affairs, Draft Standard Operating Procedures,
2005, p. 3.
46
   ICS allows multiple Joint Information Centers to be established during large incidents involving multiple jurisdictions.

                                  A Performance Review of FEMA’s Disaster Management Activities
                                                In Response to Hurricane Katrina

                                                               Page 57
Louisiana, Mississippi, and Alabama, and a forward Joint Information Center
was added in New Orleans on September 12, 2005.

For Hurricane Katrina, External Affairs personnel deployed to the state EOCs
prior to landfall, and the ESF-15 desks at the NRCC and RRCCs were
activated. DHS Public Affairs combined information from situation reports
and conference calls to create a daily messaging template, complete with “Key
Messages,” “Key Statistics,” media appearances by federal officials for that
day, and media clips of quotes from officials about FEMA from the prior day.
These tools helped the federal government to speak with one voice in the
weeks and months following Hurricane Katrina and provided common
operational awareness.

ESF-15 components report to their respective Joint Information Center, which
communicates issues and needs up to the DHS headquarters level. The Joint
Information Center’s leadership maintains constant contact with other ESFs at
the JFO, as well as headquarters. As inquiries flow up to the Joint
Information Center leadership, the resulting information flows back down to
all ESF-15 components, avoiding duplicative efforts and consolidating
research efforts.

Community Relations personnel, who have the most initial contact with
victims and local officials at the incident site, also serve as a form of
intelligence gathering, supplying the JFO and headquarters with information
from the affected areas. The Assistant Secretary works with the lead External
Affairs Officer and the PFO’s press secretary to coordinate key messages,
with the lead External Affairs Officer reporting to and providing external
affairs guidance to the on-site senior federal official.
In response to Hurricane Katrina, information flow within ESF-15 did not
function well during the initial weeks, but eventually improved with
enhancements to its organizational structure, developed through trial and
error. During a July 2005 summit, DHS Public Affairs and FEMA External
Affairs personnel attempted to formalize the NRP’s description of ESF-15
using a working draft of an ESF-15 standard operating procedures manual.
While no formal standard operating procedures manual was completed during
the summit, a resulting organizational chart helped to explain how ESF-15
should work. The organizational chart served as ESF-15’s initial framework
during Hurricane Katrina, but it still required additional revision during the
first month of the response.



     A Performance Review of FEMA’s Disaster Management Activities
                   In Response to Hurricane Katrina

                               Page 58
During the first days of the response, DHS Public Affairs decided to allow
FEMA Public Affairs to take the lead in establishing the ESF-15 operation,
but as the response progressed, DHS Public Affairs became more involved.
The Assistant Secretary chose a FEMA Region I Public Affairs member to be
the lead External Affairs Officer on September 4, 2005, and had this FEMA
official head the ESF-15 operation based out of Louisiana’s Joint Information
Center in Baton Rouge. Designating a FEMA official to represent the DHS
ESF-15 leadership led to confusion over the ESF-15 reporting structure and
whether FEMA field staff reported to DHS or FEMA Public Affairs
headquarters. Adding to the confusion, the ESF-15 organizational chart
developed in July 2005 excluded FEMA Public Affairs – a detail that had not
yet been resolved. One DHS official referred to the “fundamental
awkwardness” of having DHS in charge of something FEMA had historically
controlled during disasters. This had to be sorted out in the midst of the
largest response External Affairs had ever conducted.

The PFO cell and interaction between the five External Affairs components
added to the need for greater clarity in ESF-15 organization and information
flow. There was ambiguity about how these relationships should function.
FEMA Public Affairs, Community Relations, Congressional Affairs, and the
rest function as independent offices during non-response operations and
manage DAEs trained only for their specific cadres. ESF-15 had to resolve
issues of how the five components should support each other; for example, the
NRCC ESF-15 desk, staffed by Public Affairs, elected to limit support to
Congressional Affairs information requests in order to manage its workload.
External Affairs could benefit from reorganizing its components into a single
FEMA Office of External Affairs so daily operations more closely reflect
those experienced during an incident.

Ultimately, DHS Public Affairs gave the Joint Information Center leadership
the freedom to revise the organizational chart and clarify the appropriate
information flow and reporting structures. The new chart added a PFO ESF-
15 liaison position to work with the PFO’s press secretary. Adding a liaison
also helped the operations to improve their working relationship. The new
chart recognized each Joint Information Center component as being equal in
stature, with its own operations in each state. FEMA’s Office of Public
Affairs was still absent, but it was decided that the office could be best used in
a supporting capacity, providing services to free resources in the field for
other duties. The ESF-15 NRCC desk served as an extension of this support,
acting as a conduit for information, both coming in and going out, across
FEMA.

      A Performance Review of FEMA’s Disaster Management Activities
                    In Response to Hurricane Katrina

                                Page 59
Prior to Hurricane Katrina, the only NRP training for ESF-15 staff was a basic
overview of the plan that did not explain details of Joint Information Center
operations or the ESF-15 organization. Based on observations of the
Hurricane Katrina response, ESF-15 staff began to develop more detailed
training to orient participants from across the External Affairs disciplines.
The first session was at FEMA’s Emergency Management Institute in
February 2006.

Recommendation #10: We recommend that the Assistant Secretary for
Public Affairs, in coordination with the Director of the Federal Emergency
Management Agency, develop a definitive ESF-15 organizational chart that is
scalable to the size of an incident, with a clear hierarchical structure and
information flow.

Recommendation #11: We recommend that the Director of the Federal
Emergency Management Agency further develop and fully implement formal
ESF-15 training, so all full-time employees and Disaster Assistance
Employees have a comprehensive understanding of how to operate within its
structure during an incident.

State Coordination Needed to Establish a Unified Message

Alabama and Mississippi established joint operations with ESF-15. Federal
External Affairs staff co-located at the state EOCs prior to landfall. Together,
they worked continuously to maintain a unified message using joint federal-
state press briefings, and later joint press releases. Both states had processes
that facilitated an efficient information flow. The Mississippi state public
information officer indicated satisfaction with the level of coordination
between FEMA and the Mississippi Emergency Management Agency, as was
the case with all local public information officers working with FEMA with
whom she had contact.

In Louisiana, federal External Affairs staff and state public affairs staff began
the response with co-location and joint public information efforts. However,
after a verbal altercation on August 31, 2005, between the Under Secretary for
EP&R and a communications staff member from the Louisiana Governor’s
office, Louisiana elected not to conduct external affairs jointly with ESF-15.
The Governor held separate briefings and did not participate in the Louisiana
Joint Information Center through most of September 2005. ESF-15 did
establish a cooperative relationship with the public information officer for the

     A Performance Review of FEMA’s Disaster Management Activities
                   In Response to Hurricane Katrina

                               Page 60
                          Louisiana Office of Homeland Security and Emergency Preparedness, which
                          was secondary to the Governor’s office in coordinating Louisiana public
                          affairs. The Louisiana Governor’s office joined the Joint Information Center
                          at the end of September 2005, when the media moved from the state EOC to
                          the Joint Information Center to cover federal briefings. Both federal and
                          Louisiana officials felt they could have provided a more positive, unified
                          image to the press and the public had they combined their efforts from the
                          beginning. In particular, FEMA officials noted that the visible lack of
                          cooperation helped to undermine public confidence in FEMA operations and
                          diverted media attention from FEMA’s victim assistance efforts.

                          The situation with Louisiana occurred despite ongoing efforts by FEMA’s
                          Region VI to build its relationship with the state. An External Affairs official
                          from that office participated in the Hurricane Pam planning exercise and
                          assisted Louisiana in developing a media plan for inclusion in the Southeast
                          Louisiana Catastrophic Hurricane Plan. 47 Because the full plan had not yet
                          been finalized, the state chose not to use the media portion, against the advice
                          of a FEMA Region VI official to Louisiana’s Governor. One federal official
                          pointed to that incident as an example of how FEMA’s training with state
                          officials does not necessarily guarantee a smooth, joint operation during an
                          actual incident.

                          DHS Public Affairs is now completing the development of an outreach
                          program to each state, as part of an effort to encourage state participation and
                          leadership in ESF-15. It consists of a multi-day conference bringing together
                          state and local public information officers with FEMA and DHS Public
                          Affairs officials for discussions on the NRP and ESF-15, with a focus on state
                          and local roles in External Affairs. The hope is that the program will build
                          better working relationships between federal and state officials, give federal
                          officials a better understanding of the available emergency management
                          resources in each state, and give state officials a better understanding of how
                          they fit into and can use ESF-15 during an incident. DHS staff said the first
                          outreach session, held in July 2005 in Wisconsin, was well received, and

47
  In 2004, FEMA and Louisiana began a series of meetings to develop a detailed response plan for a catastrophic
hurricane. Participating federal, state, and local staff responded to a simulated Category 3 hurricane named Pam in order
to develop strategies for pre-deployment; search and rescue; shelter and temporary housing; commodity distribution; and
public information, among other functions. A FEMA contractor produced the Southeast Louisiana Catastrophic
Hurricane Plan in January 2005. Subsequent meetings to address additional functions were postponed in 2005; they
would have included strategies for external affairs, transportation, communications, feeding, security, and missing
persons/family reunification.


                                 A Performance Review of FEMA’s Disaster Management Activities
                                               In Response to Hurricane Katrina

                                                              Page 61
           participants’ input is being used to refine the program for eventual use across
           the country.

           Recommendation #12: We recommend that the Assistant Secretary of Public
           Affairs for the Department of Homeland Security, in coordination with the
           Director of the Federal Emergency Management Agency, complete the
           development of and fully implement the DHS Public Affairs state outreach
           program.


National Guard and Active Duty Troops Provide Valuable Support but
Improved Coordination with FEMA is Needed
           National Guard and active duty military troops deployed in record numbers to
           support the Hurricane Katrina response, including assisting with search and
           rescue efforts, commodity distribution, communications, evacuations,
           security, and medical care in the affected areas. However, the Department of
           Defense approval process at times delayed the arrival of assistance and
           coordination with FEMA seemed to be lacking in some instances.

           National Guard and Active Duty Troops Deploy in Record Numbers to
           Support Hurricane Katrina Response Efforts

           National Guard and active duty military troops provided support at
           unprecedented levels. Troops assisted with search and rescue efforts;
           distributed water, food, and ice to save and sustain the lives of victims and
           responders; provided fuel distribution in the affected area to allow for
           continued movement of personnel and commodities; reestablished basic
           communications; evacuated thousands of victims from the affected area to
           shelters in other states; provided medical care to victims; supported local law
           enforcement personnel to reestablish and maintain security in the affected
           areas; worked to rebuild damaged infrastructure; and assisted with debris
           clearance. Mission assignments accepted by the Department of Defense
           through September 30, 2005, total over $2.1 billion in assistance to
           Mississippi and Louisiana.

           At its peak, approximately 50,000 National Guard troops from 49 states, the
           District of Columbia, Puerto Rico, and the U.S. Virgin Islands, and more than
           22,000 active duty military troops, were supporting response efforts in
           Mississippi and Louisiana. In comparison, 7,700 National Guard and 22,800

                A Performance Review of FEMA’s Disaster Management Activities
                              In Response to Hurricane Katrina

                                          Page 62
                          active duty military troops deployed to support the Hurricane Andrew
                          response in 1992. Prior to Hurricane Katrina, the largest domestic
                          deployment of National Guard troops was 32,700 in support of the San
                          Francisco (Loma Prieta), California earthquake response in 1989.

                          State governors call their respective National Guard troops to state active
                          duty. 48 The state or FEMA requests assistance from National Guard troops
                          through action requests or mission assignments. The Defense Coordinating
                          Officer at the state EOC or at the JFO typically forwards requests for
                          assistance to the National Guard. If a state’s National Guard assets are not
                          sufficient to meet a required need, the state can request assistance from
                          National Guard troops in other states through EMAC. Through EMAC,
                          National Guard troops came from across the United States to support efforts in
                          Mississippi and Louisiana. To equalize the pay and benefits of National
                          Guard troops from multiple states, the Deputy Secretary of Defense approved
                          the use of Title 32 federal funds for National Guard personnel retroactive to
                          August 29, 2005. 49

                          Through action requests or mission assignments initiated by the state or
                          FEMA, or at the direction of the President, active duty military troops and
                          Department of Defense assets can be requested to assist and support the
                          response to a domestic incident. 50 Action requests and mission assignments
                          normally travel through the Defense Coordinating Officer at the state EOC or
                          at the JFO to the Department of Defense for approval, assignment, and action.

                          The Posse Comitatus Act of 1878 prohibits active duty military troops from
                          performing law enforcement activities within the United States. 51 However, it
                          does not prohibit them from providing aid after domestic incidents, including
                          search and rescue, medical care, and food distribution. Nor does it prohibit
                          federal troops from providing support to civil authorities as required by
                          Homeland Security Presidential Directive-5. Defense support to civil
                          authorities can include providing intelligence, equipment, and training, as long
                          as federal troops do not personally enforce the law. 52 Federal troops deployed

48
   Initially, National Guard troops were operationally under the control of the governor and under the command of the
adjutant general of Louisiana or Mississippi, but received pay and benefits according to their home state’s laws.
49
   Under Title 32 status, National Guard troops remain under the control of the state’s governor and under the command
of the state’s adjutant general, but are paid with federal funds. Because they remain under the control of the state,
National Guard troops under Title 32 can participate in law enforcement activities.
50
   The action request and mission assignment process will be discussed in detail later in the report.
51
   18 U.S.C. §1385.
52
   10 U.S.C. §§371-382.

                                 A Performance Review of FEMA’s Disaster Management Activities
                                               In Response to Hurricane Katrina

                                                             Page 63
to support a state government remain under the control and command of the
Department of Defense. Currently, the Secretary of Defense must approve
requests for the use of Department of Defense assets and active duty troops
for domestic incident response support.

National Guard and Active Duty Troops Provide Critical Resources, but
Improved Coordination with FEMA is Needed to Ensure Adequate
Support

Within the Department of Defense, Northern Command has responsibility for
military operations within the United States in the event of a domestic
incident. For domestic incident response, the Department of Defense is set up
to be largely independent in its operations. However, Department of Defense
resources still need to be coordinated within the overall federal response to a
domestic incident under the NRP.

National Guard and active duty troops provided critical assistance with
evacuation efforts from the Superdome and other areas of New Orleans. As
the number of victims arriving at the Superdome in New Orleans increased
following several levee breaches, various levels of civil unrest ensued within
the Superdome. Several response teams were removed from the Superdome
because their safety could not be guaranteed. National Guard troops
supplemented local law enforcement personnel and played a key role in
reestablishing order and maintaining security in the Superdome, thus allowing
response teams to return and continue providing life-sustaining assistance.
According to FEMA officials, the National Guard was the primary source of
intelligence and situational awareness information for the Superdome.

On August 30, 2005, Northern Command activated Joint Task Force-Katrina
to coordinate the federal military response in support of the Hurricane Katrina
response in Mississippi and Louisiana. Active duty troops with Joint Task
Force-Katrina arrived in New Orleans on September 1, 2005, to support
evacuation efforts from the Superdome. Coordination between FEMA and
Joint Task Force-Katrina appeared to be lacking as several FEMA officials
indicated they had no knowledge of Joint Task Force-Katrina’s presence in
the affected area until federal troops began arriving. Initially, troops appeared
to act independently, sometimes resulting in duplication of efforts, as when
different search and rescue task forces searched the same area multiple times.

However, the PFO actively engaged the Joint Task Force-Katrina Commander
and the Adjutant General of Louisiana’s National Guard, and coordination

     A Performance Review of FEMA’s Disaster Management Activities
                   In Response to Hurricane Katrina

                               Page 64
            appeared to improve. Coordination among FEMA, Joint Task Force-Katrina,
            the National Guard, the Department of Transportation, and others resulted in
            the evacuation of more than 22,000 people from the Superdome in New
            Orleans to multiple locations in Texas and other states in approximately four
            days. In addition, Joint Task Force-Katrina and National Guard troops
            conducted a coordinated grid search of the City of New Orleans. Through
            coordination with the PFO, the Joint Task Force-Katrina Commander and the
            Adjutant General of Louisiana, New Orleans was divided into three sections,
            which were searched by members of the 5th Army, 82nd Airborne, and
            National Guard respectively.

            Some FEMA officials expressed frustration at the requirement for approval by
            the Secretary of Defense before Department of Defense resources could be
            used in support of a domestic incident response. In contrast, on-scene agency
            representatives from other federal agencies can approve mission assignments
            issued to them immediately. Officials indicated the Department of Defense
            approval process sometimes required 24 to 48 hours, creating delays for life
            saving and life sustaining missions. For example, on the evening of
            August 28, 2005, FEMA requested Department of Defense assistance to airlift
            eight California swift water rescue task forces to Louisiana. Because the
            Secretary of Defense must approve such requests, the order approving the
            airlift was not signed until August 30, 2005, and the task forces did not begin
            water rescue operations in Louisiana until August 31, 2005.

            Recommendation #13: We recommend that the Director of the Federal
            Emergency Management Agency address levels of coordination and
            expectations with Department of Defense entities under the NRP, including
            Northern Command and the Military Liaison, to facilitate coordination during
            responses to future domestic incidents.


FEMA Provided Record Levels of Support but Delivery Structure
Needs Improvement
            During the response to Hurricane Katrina, FEMA provided record levels of
            support to victims and emergency responders. Life saving and life sustaining
            commodities and equipment were delivered to the affected areas; personnel
            increased significantly in a short period of time to support response efforts and
            provide assistance to victims; and assistance was provided quickly in record
            amounts, sometime through innovative means. However, a lack of asset

                 A Performance Review of FEMA’s Disaster Management Activities
                               In Response to Hurricane Katrina

                                           Page 65
           visibility in the resource ordering process, inexperienced and untrained
           personnel, unreliable communications, and insufficient internal management
           controls demonstrate a continued need for improvement in how FEMA
           supports its response activities and delivery of assistance.


Visibility and Improvements to Resource Ordering and Delivery Process
Required
           FEMA supplies commodities, equipment, personnel, and other resources to
           support emergency or disaster response efforts. In supporting requests for
           assistance and carrying out its logistics mission, FEMA is heavily dependent
           on factors outside of its control, such as other federal agencies, transportation
           contractors, accessibility to the affected area, and the receiving state’s
           capabilities. As a result, FEMA’s ability to track and source needed resources
           is key to fulfilling its mission. To ensure adequate support is available,
           FEMA should establish logistics performance measures and incorporate asset
           visibility, automation, and standardization into the resource ordering process.

           Logistics Readiness

           FEMA’s ability to recognize that certain types of resources will be required
           immediately before and after a disaster is key to supplementing state and local
           response efforts. These resources include commodities such as food, water,
           ice, and baby formula; medical, veterinary, and search and rescue teams;
           supplies such as pharmaceuticals; and equipment such as generators. In order
           for FEMA to immediately provide some of these resources, it must maintain
           certain levels of these resources at all times. This allows FEMA to provide
           immediate assistance while standby contracts are activated, supply chains are
           established, and coordination with other logistics support agencies can be
           completed to address specific requirements. FEMA must strike a balance
           between a reasonable level of preparedness given varying state capabilities
           and the unpredictability, frequency, type, and magnitude of events requiring a
           federal response. In addition, FEMA must strike a balance between
           maintaining a reasonable level of preparedness and determining the prudent
           use of tax dollars to purchase, warehouse, and rotate commodities; purchase,
           warehouse, and maintain equipment; and, train and equip emergency teams in
           anticipation of major disasters or emergencies regardless of cause, size, or
           complexity.



                A Performance Review of FEMA’s Disaster Management Activities
                              In Response to Hurricane Katrina

                                          Page 66
On a day-to-day basis, FEMA headquarters operates seven logistics centers
nationwide and one Disaster Information Systems Clearinghouse facility.
These logistics centers are used to warehouse equipment and supplies
purchased with Disaster Relief Funds and issued to support responders and
field facilities during emergencies or major disasters declared by the
President.

Also located at FEMA’s logistics centers are essential supplies and equipment
needed by disaster victims and emergency responders during the initial
response period. These resources include supplies, such as baby formula,
diapers, blankets, cots, MREs, plastic sheeting, tents, and water; and
equipment such as emergency generators, industrial ice making machines,
mobile kitchen kits, portable toilets and showers, and refrigerated vans. After
each disaster deployment, logistics center personnel refurbish and repackage
equipment and supplies for reuse, and replenish commodity levels. An
inventory of accountable property at each logistics center is maintained in
FEMA’s Logistics Information Management System. Information systems
and communication devices purchased with Disaster Relief Funds are returned
to the Disaster Information Systems Clearinghouse located in Virginia after
each disaster deployment to be refurbished and repackaged for reuse in other
disaster operations.

When events occur that may involve a federal response, FEMA logistics
personnel begin operational logistics management activities at both the NRCC
and the RRCC. After an initial situational assessment, a decision is made as
to whether to move response supplies, equipment, and teams to a location
closer to the incident area in order to decrease the response time to a validated
request for federal assistance from the state. If the decision is made to move
resources forward, a mobilization center is established near but not necessarily
within the affected area. This mobilization center serves as a forward logistics
center to house and maintain federal resources in anticipation of a validated
request for federal assistance. All federal assets at mobilization centers
remain under the NRCC Logistics Section’s control when the NRCC is
activated and involved in brokering resources for the affected area. When the
NRCC is not activated, mobilization centers operate under the oversight of the
Logistics Response Center, which is an extension of the NRCC Logistics
Section. The Logistics Response Center is tasked with processing logistics
requests and arranging for transportation of the requested equipment, supplies,




     A Performance Review of FEMA’s Disaster Management Activities
                   In Response to Hurricane Katrina

                               Page 67
                           or commodities to mobilization centers, large warehouses, and, at times,
                           forward operational staging areas. 53

                           In order to perform the logistics mission, the NRCC or RRCC Logistics
                           Section may request the support of the following ESFs:

                                •    ESF–1, Transportation: The Department of Transportation maintains a
                                     national transportation contract capable of providing ground, rail,
                                     marine, or aviation assets. If necessary, the Department of
                                     Transportation has the capability to contract for additional
                                     transportation resources. If commercial transportation is not available,
                                     the Department of Transportation may request Department of Defense
                                     support through the Defense Coordinating Officer or the Department
                                     of Defense liaison at the NRCC or RRCC.

                                •    ESF–3, Public Works and Engineering: The U.S. Army Corps of
                                     Engineers maintains commodity contracts for ice and drinking water.

                                •    ESF–7, Resources Support: The General Services Administration, as
                                     the central procurement authority for the federal government, provides
                                     additional contracting support.

                           FEMA activated the ESFs by issuing mission assignments to these federal
                           agencies that were initially funded through a surge account.

                           In addition to relying on other federal agencies to support its logistics mission,
                           other factors outside of FEMA’s control significantly impact the overall
                           logistics process to include accessibility to the affected area and state
                           capabilities. High winds, flooded roadways, damaged infrastructure,
                           primarily on the U.S. roadway system, and widespread debris hamper on-time
                           deliveries of resources. Therefore, FEMA is exploring greater use of
                           containerization for possible transportation via other means such as by rail and
                           sea. Even so, the effectiveness of a response is dependent upon FEMA’s


53
   The Logistics Response Center was created after Hurricane Isabel (September 2003). Once requests reach the
Logistics Response Center from the NRCC, the Logistics Response Center works closely with transportation staff to
ensure that transportation taskers are issued to transport the requested resources. The Logistics Response Center is
responsible for providing situational awareness of where requested resource quantities are in the supply chain. This
status is based primarily on reports from the field (e.g. federal operational staging areas or mobilization centers) not an
analysis of Logistics Response Center records.

                                    A Performance Review of FEMA’s Disaster Management Activities
                                                  In Response to Hurricane Katrina

                                                                Page 68
                              ability to anticipate and address potential shortfalls through adequate
                              contingency planning with other federal and state entities.

                              In addition, states must be prepared to receive and distribute requested
                              commodities and supplies once they arrive. Otherwise, commodities may sit
                              unused for extended periods of time and take valuable and costly
                              transportation resources out of service. Louisiana initially requested that
                              FEMA transport commodities to the points of distribution until the state was
                              able to take over this responsibility.

                              Asset Visibility

                              In 2004, FEMA Logistics received approval from its headquarters to pilot an
                              asset visibility system, which involved tracking equipment being placed on
                              selected trucks to monitor its movement. 54 Once surge funds became
                              available in anticipation of Hurricane Katrina making landfall, it was
                              estimated that 25 to 33 percent of the trucks were equipped with tracking
                              units. FEMA logistics officials said that budgeted funds were simply not
                              available to purchase the number of tracking units needed to equip all of the
                              trucks used. However, due to software limitations of the tracking equipment,
                              FEMA was unable to determine whether a truck had been offloaded or had
                              changed cargo once it left its point of origin. Additionally, FEMA had to
                              retrieve the tracking device from trailers that were not FEMA-owned. Once
                              testing of the asset visibility system is complete, a decision will be made as to
                              whether the system will be pursued.

                              FEMA Direction and Expectations Are Needed to Establish Logistics
                              Performance Measures

                              Historically, FEMA has established a 72-hour time period as the maximum
                              amount of time for emergency response teams to arrive on scene. However, it
                              is unclear whether this is responsive to the needs of a state and the needs of
                              disaster victims. What is clear is that a 72-hour response time does not meet
                              public expectations, as was vividly demonstrated by media accounts within 24
                              hours after landfall. Shorter time periods, such as 60-hours, 48-hours, or even
                              12-hours, have been mentioned; however, to meet this level of expectation,




54
     Stratix is the contractor supporting the Total Asset Visibility system.

                                     A Performance Review of FEMA’s Disaster Management Activities
                                                   In Response to Hurricane Katrina

                                                                   Page 69
                           several factors must be addressed. 55 Once strategic performance measures
                           and realistic expectations are established, other actions can be taken to support
                           these response goals.

                           In order to meet aggressive timelines, a FEMA logistics official said they need
                           more control over logistic transportation resources, citing a study performed
                           by the Logistics Management Institute following Hurricane Dennis. 56 This
                           would include the need for more FEMA-owned transportation resources.
                           FEMA officials were repeatedly critical of contract transportation support,
                           stating that contractors were frequently unresponsive and unreliable both in
                           past disasters as well as during the response to Hurricane Katrina. For
                           example, some truck drivers were slow and unresponsive to initiate deliveries,
                           particularly over weekends and holidays. 57 Some drivers were quick to turn
                           back due to poor road or weather conditions; some claimed roads were closed
                           when in actuality they were open. In one instance, a driver claimed to be en
                           route but a tracking device indicated he was still in a parking lot where he was
                           found asleep. One solution FEMA has explored has been to lease trailers so
                           that an independent driver can just separate from a leased trailer.

                           Another solution that might allow FEMA to meet more aggressive delivery
                           timeframes would be to secure additional, strategically located warehouses to
                           preposition or stockpile resources that exceed the capacity of existing logistics
                           centers. Within the past two years, FEMA Logistics officials requested
                           $500,000 to fund the cost of warehousing, stockpiling, and rotating perishable
                           emergency commodities such as meals, water, and ice that is stored at cold
                           storage facilities. 58 Also, FEMA has been authorized to fund pre-identified
                           warehouse facilities along the U.S. Gulf and Atlantic coasts. 59 Following
                           Hurricane Isabel, FEMA secured additional warehouse space in Georgia to
                           store excess MREs (3 million) and water (2.7 million gallons).

                           A third major consideration to be addressed is quantities of on-hand
                           equipment, supplies, and commodities that should be immediately available.
                           For example, quantity levels set by FEMA logistics officials in 1990 required

55
   The only reference we identified regarding essential commodities was in a 2001 FEMA annual performance goal that
referenced to a 12-hour goal (after a Presidential disaster declaration) for FEMA to meet the needs of disaster victims for
water, food, and shelter.
56
   Logistics Management Institute, FEMA’s Logistics Response to Hurricane Dennis: Annotated Briefing, October 2005.
57
   This was particularly true over Labor Day weekend, September 3-5, 2005, which was the first weekend after landfall.
58
   According to a senior FEMA Logistics official, a decision was made in conjunction with the U.S. Army Corps of
Engineers to store ice at cold storage facilities instead of discarding it.
59
   Five major locations and ten additional sites were identified.

                                  A Performance Review of FEMA’s Disaster Management Activities
                                                In Response to Hurricane Katrina

                                                               Page 70
                          enough commodities to support 30,000 people for 72 hours. FEMA logistics
                          officials told us they maintain 10 million meals at two logistic centers;
                          however, no one could tell us whether this quantity level was deemed
                          sufficient or what period of time and population this quantity covers.

                          Historical data and planning assumptions have also been used to gauge
                          whether an adequate supply of commodities were on-hand. For example,
                          based on 4 catastrophic events and 12 lower-level events, FEMA estimated
                          that approximately 1 million meals a day would be required. Similarly, field
                          estimates can be used to gauge potential need. However, in previous
                          disasters, this has resulted in a surplus of commodities because according to
                          FEMA logistics officials, the field places excessive or “uncontrolled” orders.

                          Hurricane Katrina was no different. Ironically, some FEMA and state field
                          personnel suggested they had to order twice as much to get half of what they
                          needed primarily because they had no confidence in a system that had no asset
                          visibility. One JFO published a commodity status report as of
                          September 5, 2005, which indicated that between August 27, 2005, and
                          September 5, 2005, they had received less than half of what they requested for
                          ice, water, and MREs at all three of their commodity staging areas. 60 In
                          Louisiana, there was an excess of ice during Hurricane Katrina because
                          planning assumptions were based on concern raised by New Orleans officials
                          that the fatality count could reach 10,000 people, suggesting a significant
                          number of disaster victims would still be in the impacted area.

                          U.S. Army Corps of Engineers modeling is another way of predicting possible
                          requirements, however this process is imprecise. During the Hurricane
                          Katrina response, these models consistently indicated that significantly fewer
                          commodities were needed. No analysis was performed to establish which
                          ordering methodology was more precise.

                          An alternative for not funding additional warehouse facilities has been to
                          make greater use of surge account funds to move more commodities forward.
                          However, as noted by FEMA’s Chief Operating Officer, the surge account is
                          used to fund all of FEMA’s preparatory activities, not just logistics activities.

60
 An additional report on the ice and water deliveries indicate that only 37 percent of ice requests were filled and 34
percent of water requests were filled. The average daily request for ice during this time was 287 trucks and the average
amount delivered was 106 trucks. Similarly, the average daily request for water during this time was 287 trucks and the
average amount delivered was 97 trucks. One truck of ice is approximately 40,000 one-pound bags of ice. One truck of
water equals 4,500 one-gallon bottles of water.

                                 A Performance Review of FEMA’s Disaster Management Activities
                                               In Response to Hurricane Katrina

                                                              Page 71
                           FEMA’s dilemma during each response is whether this approach is a prudent
                           use of limited funding.

                           Recommendation #14: We recommend that the Director of the Federal
                           Emergency Management Agency, in coordination with the Assistant Secretary
                           for Policy, establish measurable response expectations and provide the
                           necessary financial, technical, and staff support to meet those expectations.

                           Resource Ordering Process

                           FEMA’s process for requesting, sourcing, and transporting resources is as
                           follows:

                                1. Resource requirements (commodities, equipment, or services) are
                                   identified at the lowest governmental level.

                                2. The local jurisdiction attempts to fill the need from existing resources.
                                   If it does not have the resource, it will pass the requirement to the
                                   county or to the state.

                                3. The state attempts to fill the requirement through existing resources,
                                   commercial sources, or through EMAC or mutual aid agreements. If
                                   the state cannot fill the need, it submits a request for federal assistance
                                   to FEMA.

                                4. Once FEMA’s Operations Section receives a state request for federal
                                   assistance, it validates the request by ensuring that it is appropriate,
                                   reasonable, and submitted by the appropriate state officials, and
                                   determines if the request can be filled with on-hand resources. If the
                                   resource is not available, the requirement is passed to the Logistics
                                   Section or is tasked to a federal agency via the mission assignment
                                   process. 61

                                5. If passed to the Logistics Section, the Logistics Section Chief will:

61
  A mission assignment is a work order issued by FEMA to another federal agency directing completion of a specific
task. Mission assignments may be given in anticipation of, or response to, a Presidential declaration of a major disaster
or emergency; the process as outlined applies in either case. Mission assignments may result from either a state request
for federal assistance, or from another federal request to support the overall federal response and recovery operation.
Mission assignments address funding levels, the requirements of the task(s) to be performed, completion dates, and state
cost-share requirements, if applicable. Generally, mission assignments are considered the action of last resort if a request
cannot be addressed by FEMA with available resources or through some other contracting instrument.

                                  A Performance Review of FEMA’s Disaster Management Activities
                                                In Response to Hurricane Katrina

                                                               Page 72
                                           a. Fill the requirement from on-hand or in-stock resources located
                                              at a mobilization center, logistics center, or the Disaster
                                              Information Systems Clearinghouse;
                                           b. Prepare a requisition and recommend commercial sources for
                                              goods and services to the Finance/Administration Section as
                                              applicable;
                                           c. Address smaller requirements through a credit care purchase;
                                              or
                                           d. If the resource is still not readily available, the Logistics
                                              Section passes the requirement back to the Operations Section
                                              to issue as a possible mission assignment.

                                  6. Once a requirement is sourced, the Logistics Section arranges for the
                                     delivery of that resource to the specified location.

                             Closer examination of steps 4 and 5 above highlight the effort involved in
                             ordering resources. Requests for federal assistance are submitted to the
                             FEMA Operations Section on an action request form. Action request forms
                             were cataloged into a locally generated tracking log, evaluated by Operations
                             Section personnel, and assigned a unique tracking number. If forwarded to
                             the Logistics Section, another locally generated spreadsheet was used to
                             catalog and track requests received from the operations sections. 62

                             In two JFOs we visited, when an action request form was received, a FEMA
                             Form 60-1, Request for Supplies and Services, was prepared and attached to
                             the action request form. In most cases, both documents were cross-referenced
                             with each other for tracking purposes. The action request form and
                             accompanying FEMA Form 60-1 were routed to the Logistics Section for
                             disposition. If a resource purchase action was required, both forms were
                             routed to the Comptroller for review and approval before a FEMA Form 40-1,
                             Requisition and Commitment for Services and Supplies, was prepared. If a
                             purchase action was approved, a FEMA Form 40-1 was prepared in the
                             National Emergency Management Information System and routed through the
                             various approval queues for funding obligation.

                             During Hurricane Katrina, FEMA headquarters decided to centralize the
                             ordering process for ice and water. Therefore, the JFO’s Operations or
                             Logistics Section immediately forwarded action requests for these
                             commodities to the Logistics Response Center.

62
     At one JFO, this tracking activity was paper-based.

                                    A Performance Review of FEMA’s Disaster Management Activities
                                                  In Response to Hurricane Katrina

                                                              Page 73
                            Resource Ordering System Needs Improvement, Standardization, and
                            Automation

                            We tested FEMA’s resource ordering process for ice, water, as well as food
                            commodities referenced in action request forms for all three affected states.
                            We anticipated being able to follow requests from intake through processing
                            to delivery of the commodity to the mobilization center, staging area, or other
                            designated location. We sampled 57 requests: 7 from Alabama, and 25 from
                            both Mississippi and Louisiana. Of the 57 actions we sampled, only 3
                            requests could be tracked through the entire process.

                            There were various reasons why so few requests could be tracked through the
                            established process. For example, in one field operation, the requests tracked
                            by the operations section did not correspond to any of the requests for
                            commodities to the Logistics Response Center. Rather, the logistics staff used
                            a separate time-phased force deployment list process to project requirements
                            for a three-day period. 63 Otherwise, requirements were discussed during daily
                            logistics conference calls. Requests processed by the other two JFOs
                            demonstrate some commodities were purchased locally and not forwarded to
                            the Logistics Response Center. Both situations, however, illustrate
                            inconsistencies with FEMA’s processes for requesting commodities and an
                            inability to determine where a requested item was within the resource ordering
                            process.

                            At FEMA headquarters, the Logistics Response Center received action request
                            forms by varying means and sources such as facsimile, email, telephone, or
                            through the NRCC or other FEMA logistics personnel. As a result, incoming
                            requests for critical commodities could have been lost, mishandled,
                            miscommunicated, or processed multiple times. For example, our efforts to
                            manually search request forms and electronically sort data yielded few
                            matches to requests from the JFOs. Based on our initial sample of 57 actions,
                            only 17 appear to have reached the Logistics Response Center. Deficiencies
                            in FEMA’s tracking system were also identified in the Special Remedial
                            Action Management Program (RAMP) report from the 2004 hurricane
                            season. 64 An electronic taskers system is being developed to assist the
63
   The time-phased force deployment list is a logistics management and operational tool routinely used by federal
response agencies in disasters to facilitate the orderly flow of critical response resources into a disaster area. It is a
prioritized list of the most critical resource requirements developed in advance of an event. However, local officials
must identify requirements for each event, survey resource availability within their jurisdiction, and then develop a
priority list.
64
   See Special RAMP report dated November 29, 2004 issue LG-2 and LG-4.

                                   A Performance Review of FEMA’s Disaster Management Activities
                                                 In Response to Hurricane Katrina

                                                                 Page 74
                          Logistics Response Center catalog and track all requests. However, FEMA
                          views this effort only as an interim solution.

                          Logistics Response Center records identified transportation taskers for these
                          requests but documents only account for three requests reaching the requested
                          destination. In one instance, the delivery date was one day after the requested
                          delivery date and two days after the request date. In the other two instances
                          the delivery dates were 8 and 12 days respectively after the requested delivery
                          date. When an action completes the request process, it may have over six
                          unique tracking numbers, few of which are crossed referenced. 65 FEMA lacks
                          standardization in resource ordering, has an inefficient and ineffective system
                          for tracking a request, and the same information is entered into at least three
                          tracking systems that are not linked.

                          Standard operating procedures are still in development due to a lack of firm
                          direction from FEMA leadership and the restructuring of FEMA’s Logistics
                          Section pursuant to NIMS and NRP. According to FEMA records, the lack of
                          logistics procedures were identified in After Action Reports as far back as
                          Hurricane Georges in 1998, and, more recently, after the terrorist attacks of
                          September 11, 2001. Based on interviews and a review of FEMA tracking
                          logs, steps taken to ensure that an action request was completed or resolved
                          were either performed as time permitted or not performed at all.

                          Without performing this critical step, there is no assurance that a requested
                          activity was completed or resources were provided, and no data exists to
                          measure the efficiency with which actions were taken or performed. Key
                          factors within FEMA’s control for resource ordering and delivery were not
                          well performed. FEMA needs a resource tracking system that is capable of
                          documenting whether requested resources were delivered and the efficiency
                          with which the resource was provided. This would allow FEMA to monitor
                          both operational and contractor performance.

                          Recommendation #15: We recommend that the Director of the Federal
                          Emergency Management Agency, in coordination with the Assistant Secretary


65
   Tracking numbers might include, a state tracking number (e.g. ETEAM or Web EOC tracking number), an internal
RRCC tracking number (handwritten on the action request form because there is no field on the form for this), a
Logistics Section 60-1 tracking number, an internal JFO tracking number (handwritten on the action request form
because there is no field on the form for this), an internal Logistics Response Center number, and a transportation
tracking number.

                                 A Performance Review of FEMA’s Disaster Management Activities
                                               In Response to Hurricane Katrina

                                                             Page 75
                          for Policy, develop a means to standardize and streamline the resource
                          ordering and tracking process.

                          Recommendation #16: We recommend that the Director of the Federal
                          Emergency Management Agency develop and implement a resource tracking
                          system that is capable of documenting whether resources were delivered and
                          the efficiency with which the resource was provided.

                          Mission Assignment and Emergency Management Assistance Compact
                          Activity

                          FEMA initiated over 68 actions before landfall to activate federal agencies
                          and pre-position teams, commodities, and equipment in an effort to establish a
                          readiness posture in anticipation of Hurricane Katrina’s landfall in the Gulf
                          Coast region. FEMA records demonstrate these activities continued after
                          emergency declarations were issued for all three states as 26 additional actions
                          with federal agencies continued. 66 In all, 438 separate mission assignments
                          were issued involving 57 different federal departments, agencies and other
                          organizations. 67

                          The peak mission assignment activity in Louisiana took place between
                          August 29, 2005, and September 6, 2005; 72 percent of the mission
                          assignments were written during this period. Louisiana submitted 47 requests
                          for assistance through FEMA and 520 requests for assistance through EMAC.

                          The peak activity in Mississippi took place between August 28, 2005, and
                          September 10, 2005; 77 percent of the mission assignments were written.
                          Mississippi submitted 44 requests for assistance through FEMA and 541
                          requests for assistance through EMAC.

                          The only significant mission assignment activity in Alabama took place on
                          August 30, 2005, when 40 percent of the mission assignments were written.
                          Alabama submitted six requests for assistance through FEMA and five
                          requests for assistance through EMAC. Because FEMA did not consistently

66
   This count includes similar actions taken during the surge period after the emergency declaration was declared.
Financial accounting requires that once a declaration is approved, activity must be charged to the declared event. This
requires similar missions to those written during the surge period to be reissued under an approved declaration. For
example, if the Environmental Protection Agency is activated under the surge account, once the emergency declaration is
approved, FEMA is required to reactivate the Environmental Protection Agency under an emergency declaration fund
code.
67
   See Appendix K for a comprehensive list of the 57 different federal departments, agencies, and other organizations.

                                 A Performance Review of FEMA’s Disaster Management Activities
                                               In Response to Hurricane Katrina

                                                             Page 76
                          track mission assignments, we were unable to determine the status of these
                          mission assignments.

                          The following chart summarizes the mission assignment activity during our
                          review period. 68

                                                                   Louisiana          Mississippi            Alabama
                          Date of State’s Initial Request       August 29, 2005     August 30, 2005    September 1, 2005
                          Total Missions Assignments                    156                237                 45
                          Written 69
                          Mission Assignments Written in          109         70%    193         81%     39         87%
                          Support of the Federal Operation 70
                          Mission Assignments Written at the      47          30%    44          19%     6          13%
                          Request of the State



        Unreliable Disaster Communications During the Initial Response
                          Hurricane Katrina caused significant damages and outages in the
                          telecommunications infrastructure. This impeded reporting and coordination,
                          and significantly affected the efficiency and effectiveness of disaster response
                          efforts. Responsibility for the restoration of the communications
                          infrastructure resides with the National Communications System, a
                          component within DHS that coordinates ESF-2, Communications, which is
                          separate from FEMA. However, FEMA plays a key role in communications
                          by providing interim communications support to emergency managers and
                          responders when the infrastructure cannot support the needs for operational
                          capability and when field sites are established. FEMA needs to strengthen its
                          capabilities to provide communications support during the initial disaster
                          response when the infrastructure is most weakened and emergency responder
                          teams are still establishing operations.

                          The National Communications System, a component of DHS’ new
                          Preparedness Directorate, administers programs that provide priority

68
   See Appendix L for a description of the types of missions assigned and the tasked agency for each affected state.
69
   We did not include mission assignments or mission assignment requests that were denied, cancelled, or otherwise not
fully processed during our review period, missions assignments that were obligated and subsequently fully deobligated
during our review period, and mission assignments that were written to adjust the original funding level, extend the
performance period or modify the scope of work of the initial task during our review period.
70
   An in-depth examination of federal operation support mission assignments was not performed due to the focus and
time limitations of this review.

                                 A Performance Review of FEMA’s Disaster Management Activities
                                               In Response to Hurricane Katrina

                                                                Page 77
                         restoration of telecommunications services and priority access to services for
                         emergency responders. These services include the Telecommunications
                         Service Priority Program, Government Emergency Telecommunications
                         Service, Wireless Priority Service, and Shared Resources High-Frequency
                         Radio Program. For example, when wireless call channels become congested
                         during emergencies, designated personnel may use the Wireless Priority
                         Service to obtain the next available open call line. The National
                         Communications System was activated as ESF-2 on August 27, 2005. Other
                         DHS components with a role in disaster communications include DHS’
                         Science and Technology Directorate, which is responsible for adopting
                         standards for improved, interoperable communications equipment. 71 The
                         Office of Science and Technology Policy maintains the National Plan for
                         Telecommunications Support in Non-Wartime Emergencies, used in
                         conjunction with the NRP. The operation of these elements during Hurricane
                         Katrina is outside the scope of our review.

                         The NRP designates FEMA as one of seven supporting agencies for ESF-2.
                         FEMA’s role in ESF-2 includes supporting its own responders; supporting the
                         JFO and video teleconferences; coordinating on-site use of federal radio
                         frequencies; disseminating warnings; and coordinating with ESF-2 on the use
                         of DHS telecommunications assets. FEMA provides this support primarily
                         through its five MERS detachments. The MERS detachments support FEMA
                         responders and the JFO with telecommunications assets and staffing, and also
                         provide fuel, power, life support, and site setup. The NRP indicates that
                         MERS units will provide communications support to augment federal, state,
                         and local capability.

                         For Hurricane Katrina, all five regional MERS detachments responded,
                         supporting over 25 sites in Alabama, Mississippi, and Louisiana. Four of the
                         five detachments began deploying prior to landfall, while one had to withdraw
                         from support of a Wyoming disaster before deploying. On August 27, 2005,
                         the Denton, Texas MERS detachment arrived at Barksdale Air Force Base in
                         Louisiana, and the Thomasville, Georgia MERS arrived in Jackson,
                         Mississippi. A MERS team was already in New Orleans, Louisiana,
                         dismantling the JFO supporting operations for Tropical Storm Cindy. As the
                         response continued, MERS mobile emergency operations vehicles provided
                         temporary workspace for FEMA responders. MERS also set up the JFOs,
                         provided satellite and radio communications, and enabled approximately 1200

71
  See DHS OIG report, A Review of DHS’ Progress in Adopting and Enforcing Equipment Standards for First
Responders, Report Number OIG-06-30, March 2006.

                               A Performance Review of FEMA’s Disaster Management Activities
                                             In Response to Hurricane Katrina

                                                          Page 78
video teleconferences. The MERS detachments provided support to FEMA
responders, the PFO cell, state EOCs, and the city of New Orleans.

Despite these efforts, emergency responders at some sites did not have
sufficient communications during the first critical days after the storm.
Officials in the two most southern counties in Alabama had difficulty
communicating their needs to the JFO for the first two days after landfall.
The state sent a communications vehicle, and FEMA sent a MERS unit to the
area to provide communications support and other response assistance.
Communications were also an issue in Mississippi. A MERS detachment was
deployed to the Gulfport area with a mobile emergency operations vehicle
containing satellite equipment and a satellite link. Officials said there would
have been no communications in the area without MERS. FEMA US&R
teams had difficulty maintaining communication with their task forces in the
affected areas of Louisiana and Mississippi because their satellite
communications equipment had to compete with the media and other first
responders for satellite bandwidth. In Louisiana, the US&R team augmented
their radio equipment with a repeater from the Jefferson Parish Sheriff’s
Department until MERS units began providing support on September 2, 2005.

At the conclusion of our fieldwork, MERS detachments had not completed
collection of customer satisfaction surveys from the FCOs, but the PFO and
FCO comments we obtained on MERS performance during Hurricane Katrina
were unequivocally positive. The primary criticism made in prior surveys was
that more MERS staff and equipment would help FEMA responders. FEMA
staff needed additional capability. For example, the ESF-15 desk could not
regularly communicate with staff in the Gulf Coast region, so FEMA staff
acted as couriers when traveling between the state EOCs and affected
localities during the initial days. Additionally, lack of communications
capability prevented FEMA Public Affairs and “embedded” reporters from
releasing search and rescue stories for days.

In 2004 and 2005, FEMA’s MERS program and Chief Information Officer
created a Disaster Support Initiative for communications that contains 14
projects to enhance FEMA’s communications capability. The Office of
Management and Budget provided partial funding for nine projects in
December 2005. However, these projects provide a limited upgrade to
existing capabilities. None of the project justifications provides analysis
regarding what communications equipment or staffing FEMA needs to
support a catastrophic disaster mission, but FEMA should undertake this
effort.

     A Performance Review of FEMA’s Disaster Management Activities
                   In Response to Hurricane Katrina

                               Page 79
In terms of equipment, MERS projects in the initiative include replacing
deteriorating 1980s-era communications support equipment; funding
communications aspects of three incomplete projects; and acquiring the
narrowband radios required to comply with 47 Code of Federal Regulations
Part 300. A project in the initiative creates a backup facility to support
FEMA’s use of Ku-band satellite communications. Ku-band satellite
communications were clogged with commercial and first responder traffic
during Hurricane Katrina, plus they are vulnerable to weather interference.
The initiative projects do not discuss how FEMA will ensure that satellite or
other communications are available during the first critical days of a response.
Further, the projects do not discuss whether or how to augment the equipment
deployed by other FEMA staff, such as US&R, NDMS, or External Affairs
teams.

In terms of staffing, FEMA should review the MERS allocation and add staff
as needed. The most complete study of MERS staffing strength is from the
1980s and sets the MERS allocation at 318 staff. After authorization cuts in
the late 1990s, the MERS program has not been able to increase staff above
the low 200s. While staff told us MERS supports federal responders, the NRP
assigns an additional role to MERS to support state and local responders.
MERS allocations have not changed to reflect this expectation. FEMA is
currently revising a Disaster Support Initiative for workforce management,
and as part of that effort, FEMA should assess its staffing needs for disaster
communications.

Recommendation #17: We recommend that the Director of the Federal
Emergency Management Agency, in coordination with the Manager of the
National Communications System, determine and fill requirements to provide
emergency responders with communications equipment capable of performing
in austere conditions.

Recommendation #18: We recommend that the Director of the Federal
Emergency Management Agency define the Mobile Emergency Response
Support authorizations for equipment and staffing, including requirements for
mission support during a catastrophic disaster, and fund and staff the
detachments to meet requirements.




     A Performance Review of FEMA’s Disaster Management Activities
                   In Response to Hurricane Katrina

                               Page 80
FEMA Does Not Have Staff or Plans Adequate to Meet Its Human Capital
Needs during Catastrophic Disasters
           FEMA has attempted to set baseline staffing levels for disasters of various
           size but these attempts have not resulted in a disaster workforce plan. Instead,
           FEMA maintains a reactive posture and responds to field requests for
           response and recovery staffing by organizing full-time personnel and by
           maintaining a cadre of temporary personnel available to deploy in a surge
           capacity. FEMA struggled to provide staff in response to Hurricane Katrina,
           lacking sufficient reserve staff and the automated support needed to deploy
           over 5,000 disaster personnel on short notice. It implemented several creative
           solutions and conducted rapid hiring to provide over 8,000 disaster response
           staff in support of state and local efforts. However, throughout the response
           FEMA had difficulty tracking and training its augmentation staff.

           The Stafford Act authorizes FEMA to draw upon temporary personnel for
           disaster operations. FEMA’s staffing model includes four categories of
           temporary employees: (1) DAE reservists; (2) local hires; (3) Disaster
           Temporary Employees; and, (4) Cadre of On-Call Response Employees
           (COREs). FEMA policies designate DAE reservists as short-term temporary
           employees, activated and charged with responding to a specific disaster.
           Experienced DAE reservists are deployed more frequently to disasters, while
           less experienced DAEs and local hires are added for a specific disaster
           response, and COREs have a four-year appointment to support disaster
           response activities.

           FEMA was not able to dedicate its full staffing strength to Hurricane Katrina
           for several reasons. First, it had to maintain response operations for disasters
           other than Hurricane Katrina. On August 31, 2005, FEMA had personnel
           assigned to the Hurricane Katrina response and 38 other disasters not related
           to Hurricane Katrina. It attempted to closeout previously declared disasters
           more quickly to make additional personnel available. However, FEMA was
           not able to dedicate all staff to Hurricane Katrina as during this response,
           Hurricane Ophelia in the Carolinas, Hurricane Rita in the Gulf Coast region,
           and flooding in the Northeast were declared disasters and required FEMA
           resources. FEMA had to divert personnel from Hurricane Katrina to respond
           to those other disasters.

           Second, an average of 30 percent of FEMA DAEs reported they were
           unavailable to respond to Hurricane Katrina or any other disaster during the

                A Performance Review of FEMA’s Disaster Management Activities
                              In Response to Hurricane Katrina

                                          Page 81
August 24, 2005, to September 30, 2005, timeframe. Disaster Workforce
Management Section staff explained there are various reasons why DAEs may
be unavailable, such as issues with health or family concerns. Third, some
FEMA cadres were not at full strength or fully equipped. With only enough
volunteer headquarters staff to fill the rosters of one and a quarter teams, the
NRCC was short-staffed during Hurricane Katrina. The NRCC depended
heavily on key managers to work shifts for two teams without relief. One
NRCC manager said he had to release people during critical periods to avoid
burnout. US&R and MERS teams were also short-staffed, as were many
NDMS teams, which deployed smaller “strike teams” instead of full-sized
teams.

Several FEMA officials and mid-level managers told us that FEMA deployed
more personnel in advance of Hurricane Katrina than ever before and more
than what states requested. On August 29, 2005, FEMA had deployed almost
1,700 DAEs plus permanent staff. By September 30, 2005, FEMA had 5,767
DAEs on the rolls, having hired 1,778 DAEs in six weeks – an increase of 31
percent. FEMA ultimately surged to approximately 7,333 DAEs deployed to
the Gulf Coast. In addition, over 1,000 permanent full-time FEMA employees
deployed, along with approximately 200 COREs.

FEMA’s roster of reserve personnel, however, is not sufficient to address the
staffing need presented by a catastrophic disaster of Hurricane Katrina’s scale.
Immediately after the disaster, 46 percent of FEMA’s DAEs were listed as
unavailable to deploy. FEMA deployed all available personnel in the
immediate aftermath to assist with the disaster response, including personnel
with Community Relations and Individual Assistance program skill sets.
When these programs became operational, the experienced DAEs were
already engaged in response activities and FEMA had to ask for assistance. In
addition, ESF-15 needed more staff. Too few experienced External Affairs
DAEs slowed operations at the Mississippi and Louisiana Joint Information
Centers and FEMA headquarters; ESF-15 was unable to staff fully the New
Orleans forward Joint Information Center for weeks.

FEMA employed several methods to supplement field staff. For example, on
August 30, 2005, FEMA circulated a memo throughout DHS requesting
personnel to fill critical roles in Community Relations and Individual
Assistance. Over 1,000 DHS employees deployed to support the response.
The U.S. Fire Administration requested assistance for Community Relations
in Mississippi and Louisiana, and over 4,000 firefighters responded. The
deployed teams of firefighters complemented trained Community Relations

     A Performance Review of FEMA’s Disaster Management Activities
                   In Response to Hurricane Katrina

                               Page 82
personnel and served as a force multiplier with their ability to reach victims in
disaster areas that might have otherwise been inaccessible.

FEMA wrote mission assignments to request additional staff from other
federal agencies, such as SBA and the U.S. Postal Service. EMACs were
used to assist in obtaining incident management teams from other states.
Unlike the 2004 disasters, FEMA did not rely heavily on Citizen Corps
volunteers, though some of those volunteers did assist in the response. FEMA
administered the Citizen Corps program, which was subsequently transferred
to DHS’ Office of Domestic Preparedness (ODP). The use of other non-
FEMA personnel, including from other DHS components and other federal
agency employees, as well as fire fighters and other volunteers, was an ad hoc
response to the magnitude of the event, rather than based on any previously
developed disaster workforce augmentation plan by FEMA, DHS
headquarters, or other DHS components.

Individuals who deployed as FEMA employees and augmentation staff were
placed and tracked by FEMA’s Automated Deployment Database (ADD)
system, a database that summarizes the availability and basic capabilities of
reservists. The system is outdated and required significant manual
intervention to deploy personnel and produce somewhat accurate reports. The
ADD database only identifies reservists and is not capable of automatically
deploying personnel as the name suggests. FEMA staff at its Mount Weather
Deployment Support Office search the database listings, choose personnel to
deploy, and make activation calls. This manual process occurs even though
FEMA possesses a more modern system that uses automatic notifications.
Once deployed by ADD, personnel are to travel to designated locations and
check in for tracking purposes.

The ADD tracking process is cumbersome. For Hurricane Katrina, FEMA
added 17 staff at Mount Weather and at its headquarters to activate personnel
under ADD. Activation calls were also set up in FEMA’s Human Resources
Section and at facilities in Atlanta, Georgia, Chicago, Illinois, and Orlando,
Florida, to log arrival calls of DAEs. This process was labor intensive and
diverted personnel from other disaster response duties.

During Hurricane Katrina, FEMA deployed strike teams to the Gulf Coast
region to process disaster personnel as they arrived on site. Often employees
would begin work and forget to check in with the Mount Weather Deployment
Support Office. The strike teams were able to check in disaster personnel as
they arrived and maintained records. Although these strike teams were

     A Performance Review of FEMA’s Disaster Management Activities
                   In Response to Hurricane Katrina

                               Page 83
                         deployed to address weaknesses in ADD, it meant staff were unable to fulfill
                         other duties during the disaster response.

                         Despite deploying strike teams, there were still problems in tracking disaster
                         employees when they transferred to different duty stations within the affected
                         area. Network connectivity in the field was another problem due to the large
                         number of users on the satellite bandwidth.

                         During the 2004 hurricanes, FEMA recognized that the ADD database did not
                         accurately reflect proficiency levels and training of many employees. The
                         system also lacks a method for prioritizing or coordinating requests for staff
                         among multiple field locations, which can lead to deploying and redeploying
                         staff. We were told reservists place low priority on maintaining accurate
                         ADD records of their deployment, and often manual and ad hoc methods are
                         employed to manage deployment. An audit we issued in September 2005
                         noted that the lack of integration among the ADD system, the Logistics
                         Information Management System III, and the National Emergency
                         Management Information System required significant personnel to
                         coordinate. 72 FEMA noted its ADD system is cumbersome, not user friendly,
                         and not compatible with current technology. ADD also does not provide a
                         consolidated view that determines whether an employee: (1) was deployed to
                         a disaster location; (2) was en route but not yet arrived; (3) was sent by FEMA
                         headquarters but not entered into ADD; or, (4) had arrived at the disaster
                         location, and whether they had checked in with the region. 73

                         Ultimately, FEMA’s additional efforts to identify and track deployments only
                         resulted in 85 to 90 percent visibility of its disaster workforce during
                         Hurricane Katrina. An automated system to track all disaster personnel would
                         improve FEMA’s resource visibility.

                         Problems with Surge Capacity Training During Hurricane Katrina

                         FEMA needs to strengthen its ability to provide training for surge reservists
                         activated during large-scale disasters. During the 2004 hurricanes, FEMA
                         created a human resources center in Atlanta, Georgia, to centralize its hiring
                         and training activities near field sites. However, the centralized process did

72
   “Emergency Preparedness and Response Could Better Integrate Information Technology with Incident Response and
Recovery.” OIG-05-36, p. 21-22.
73
   For example, NDMS and US&R are usually activated by their respective program managers, and the managers are
responsible for updating ADD.

                               A Performance Review of FEMA’s Disaster Management Activities
                                             In Response to Hurricane Katrina

                                                          Page 84
not sufficiently screen employees to ensure suitability for assigned tasks, did
not provide clear job expectations, and did not provide adequate
administrative support for the new staff. During Hurricane Katrina, these
concerns resurfaced.

Following the 2004 hurricane season, FEMA’s Disaster Field Training
Operations updated its guidebook and incorporated changes to its standard
operating procedures, including a surge-training checklist. However, the
checklist is very general, and staff expressed concerns that there is still not an
adequate plan for a catastrophic surge. Further, communication and
coordination issues remained unresolved between FEMA’s Emergency
Management Institute and the regional training manager, both of which are
responsible for providing instructors and classes during a disaster. The new
protocols were to be tested during Hurricane Dennis in early July 2005.
However, this event did not serve as a sufficient test, as surge capacity was
not required. Hurricane Katrina was the first opportunity to test the new
protocols.

Regional managers told us there were delays in surge training for Community
Relations and Individual Assistance, with some newly hired personnel not
receiving training until two weeks after Hurricane Katrina made landfall.
There was confusion over how many people would be at the training sessions,
when they would arrive, and what they would be doing once training was
completed. To compound the situation, there were too many people in the
classes; hundreds attended classes rather than the usual 50, curtailing the
ability of the new hires to ask questions or obtain additional information
regarding assignment, expectation, and role and responsibilities. FEMA’s
surge training plans were inadequate to prevent training delays – the large
number of trainees within classes did not create an environment conducive to
learning. In addition, FEMA had too few of its training staff deployed to
support needs – 24 of 47 staff deployed.

Disaster Support Initiatives Could Enhance Temporary Disaster Work
Force System

Since 1992, FEMA amassed 12 studies on disaster workforce management
without developing a final plan. Prior to Hurricane Katrina, FEMA
recognized deficiencies in its reserve cadre size, automated deployment and
tracking systems, and surge training, and began two projects to remediate the
deficiencies.


      A Performance Review of FEMA’s Disaster Management Activities
                    In Response to Hurricane Katrina

                                Page 85
                          First, from April to July 2005, FEMA halted hiring DAEs in an effort to
                          remove inactive personnel from its roster and establish a baseline level for its
                          DAEs. However, the temporary hiring freeze was grossly ill-timed because
                          FEMA’s traditional hiring for the hurricane season was delayed, resulting in a
                          lower number of DAEs available for deployment than there had been a year
                          prior. 74

                          Second, FEMA staff proposed a Disaster Support Initiative to enhance the
                          temporary disaster workforce system that includes disaster workforce
                          planning and modernizing the automated workforce management system.
                          Establishing the disaster workforce plans and staffing baselines has been
                          difficult for FEMA. FEMA does not have a clear understanding of the size or
                          number of disasters to which it should prepare to respond. Further, setting a
                          baseline according to disaster history does not necessarily provide the surge
                          capability that future catastrophic events may require. Maintaining excess
                          reservists solely for catastrophic disasters involves significant administrative
                          costs, and infrequently used reservists are more likely to seek permanent
                          positions elsewhere. The Disaster Support Initiative would also be used for
                          training, updating related policy manuals, and replacing the ADD database.
                          FEMA is currently revising the initiative for resubmission to the Office of
                          Management and Budget for funding approval.

                          Recommendation #19: We recommend that the Director of the Federal
                          Emergency Management Agency develop a disaster workforce plan that
                          accounts for standing capability for permanent, temporary, and reserve staff
                          that is responsive to the needs demonstrated in response to previous disasters,
                          and also develop a plan that is scalable to other events irrespective of cause,
                          size, or complexity.

                          Recommendation #20: We recommend that the Director of the Federal
                          Emergency Management Agency develop and implement a system that
                          automates and tracks the selection, deployment, training, and demobilization
                          of responders.




74
  While DAE levels in 2005 were significantly lower than in 2004, they were in line with DAE levels in 2001, 2002, and
2003. Due to a severe hurricane season, 2004 DAE levels were significantly higher than in prior years. Given forecasts
of a severe 2005 hurricane season, it is reasonable to compare 2004 and 2005 DAE levels.

                                A Performance Review of FEMA’s Disaster Management Activities
                                              In Response to Hurricane Katrina

                                                            Page 86
        Individual Assistance
                         In April 2003, FEMA’s Recovery Division prepared a narrative justification
                         for what it termed “over-target” requests for additional funding in FY 2005. 75
                         The funding would allow FEMA to enhance its base capability, which FEMA
                         stated was deficient and not in keeping with standard business practices to
                         effectively provide assistance to disaster victims. In the narrative FEMA
                         foreshadowed, “The failure to provide funding to ensure scalable recovery
                         capability will result in a crisis of unimaginable proportions not only for
                         individual victims and their communities and States, but also for the country
                         as a whole.” No additional funding was provided to FEMA in FY 2005 or
                         FY 2006 to enhance its Recovery Division’s existing capability.

                         Recognizing deficiencies in its business practices, processing systems, and
                         ability to provide assistance to disaster victims in an efficient and effective
                         manner, FEMA attempted to address these issues using existing resources. Its
                         performance in response to Hurricane Katrina, however, highlighted those
                         deficiencies and its ability to provide Individual Assistance to address the
                         needs of disaster victims was not as effective or efficient as it had envisioned.


        FEMA’s Efforts to Augment Staff and Call Center Capacity
                         Prior to Hurricane Katrina, FEMA could activate four internal centers, or
                         NPSCs, to register disaster victims for individual assistance and make
                         referrals to other assistance providers. These facilities were staffed with
                         approximately 700 personnel to field applicant calls (registration intake),
                         provide information on the status of applications (helpline), and process and
                         perform case management activities on applications for assistance.

                         In response to Hurricanes Charley, Frances, Ivan, and Jeanne, which affected
                         Florida during the 2004 hurricane season, FEMA faced challenges in
                         augmenting its ability to handle the volume of applicant calls for assistance. It
                         worked with the other governmental entities, such as the Internal Revenue
                         Service, to establish additional registration intake capability, but maintained
                         helpline and casework activities. In addition, FEMA began a major training
                         effort the week of August 24, 2005, at each NPSC, to enhance capability for

75
  Over-target requests are funds FEMA requested of DHS to achieve additional capability over its existing baseline
funding. Over-target funding for FY2005 was to provide a foundation for its program and process improvements to meet
milestones it had set for FY2006–FY2009 to be more responsive to large-scale disasters; $3.9 million was requested.

                                A Performance Review of FEMA’s Disaster Management Activities
                                              In Response to Hurricane Katrina

                                                           Page 87
                           the 2005 hurricane season. Among all 4 NPSCs, approximately 426 agents
                           were in training.

                           Prior to landfall, FEMA contacted the Internal Revenue Service to activate
                           four call centers, as outlined in an interagency agreement developed between
                           the two agencies. In response to Hurricane Katrina, all FEMA internal NPSCs
                           were operational on August 29, 2005, staffed with approximately 1,170
                           personnel. One NPSC assumed around-the-clock operations. 76 By
                           September 1, 2005, all NPSCs were providing 24-hour services and the
                           Internal Revenue Service call centers were also operational. Total registration
                           intake staff was 1,613.

                           On September 3, 2005, FEMA opened 2 additional call centers, and another
                           on September 10, 2005; total staff increased to 3,375. 77 Further, FEMA
                           worked with the private sector to establish 7 additional call centers that
                           became operational on September 14, 2005; total staff levels were
                           approximately 8,199. Within 19 days, FEMA’s call center capability surged
                           from a base capability of 4 call centers and 700 staff pre-landfall, to 19 sites
                           and registration intake agent capability of over 10,000. By
                           September 29, 2005, 12,185 were on staff to answer registration intake calls78
                           but FEMA maintained the majority of helpline and casework activities. 79

                           From August 24, 2005, to September 30, 2005, approximately 5,320,578
                           registration intake and helpline calls reached FEMA’s call centers. Of those
                           calls, 1,524,423 (29 percent) were deflected; 672,043 (12 percent) hung up;
                           and FEMA answered 3,124,112 (59 percent) of the calls. 80 During the same
                           period, of the 3,097,888 registration intake calls that reached a call center,
                           595,942 (19 percent) were deflected; 482,855 (16 percent) hung up; and
                           2,019,091 (65 percent) were answered. The following demonstrates
                           registration intake call activity that reached a call center, the calls answered,
                           and the percent of those calls answered by the call center from
                           August 24, 2005, to September 30, 2005.



76
   NPSC agents in training are not represented in the staff totals as the data we used only demonstrates staff scheduled to
work registration intake, helpline, and casework.
77
   Also, one additional call center was established by FEMA in Virginia.
78
   See Appendix M for detailed information on registration intake and helpline volume, staffing levels, and call centers in
operation from August 24, 2005, to September 30, 2005.
79
   One of the contractors, Cendera, performed helpline activities in addition to FEMA call centers.
80
   Deflected calls are calls that reach a call center, but are not answered because the waiting queue is full.

                                  A Performance Review of FEMA’s Disaster Management Activities
                                                In Response to Hurricane Katrina

                                                               Page 88
                                                  Registration Intake Calls Made and Answered
                                   Call Center            Calls Made       Calls Answered   Percent Answered
                              FEMA MD NPSC                     421,756              203,375              48%
                              FEMA TX NPSC                     349,949              187,967              54%
                              FEMA VA NPSCs                    482,981              119,208              25%
                              FEMA PR NPSC                     266,209              112,858              42%
                              FEMA IL                          119,548              101,588              85%
                              FEMA CA                          113,980               89,475              79%
                              FEMA FL                           70,066               59,824              85%
                              Contractor - Teletech            362,207              354,308              98%
                              Contractor - Cendera             113,815              107,374              94%
                              Contractor – IRS                 797,377              683,114              86%


                          Even with its internal efforts to augment call center sites and staff, a large
                          number of calls continued to be deflected and not answered. For example, of
                          the 134,919 registration calls made on September 11, 2005, 21,661 (16
                          percent) were deflected; 32,875 (24 percent) hung up; and 80,383 (60 percent)
                          were answered. By the following week, however, progress was being made as
                          the call volume had significantly decreased and contractor support was
                          operational. For example, of the 32,441 calls that reached a call center on
                          September 18, 2005, 36 (0.11 percent) were deflected; 571 (1.76 percent)
                          hung up; and 31,834 (98.13 percent) were answered.

                          Initial Delays in Speaking with Agents

                          Many applicants experienced initial delays as their calls waited in queue
                          before speaking with an agent. For example, from August 29, 2005, to
                          September 11, 2005, applicants waited an average of ten minutes before
                          speaking with an agent. 81 After reaching an agent, the average call lasted 19
                          minutes. From September 12, 2005, to September 25, 2005, applicants waited
                          an average of 5 minutes to speak with an agent and the average call took 11
                          minutes. By September 14, 2005, in an effort to reduce Helpline calls
                          regarding document status, FEMA established an auto-dialer service to
                          generate automated calls to provide applicants notification that their
                          application was received.

                          Registration Intake Versus Helpline

                          Registration intake call volume is higher immediately following a major
                          disaster declaration and begins to taper off after several weeks. Applicants

81
  See Appendix N for detailed information on the average minutes applicants waited in queue and the length of call with
agents.

                                 A Performance Review of FEMA’s Disaster Management Activities
                                               In Response to Hurricane Katrina

                                                             Page 89
then begin calling FEMA’s helpline to change information initially provided
or to seek information on the status of an application. By augmenting its staff
with contractors, FEMA intended to use its more experienced staff to handle
helpline calls and to process and manage applicant cases. However, due to the
enormous call volume, excessive wait times, and deflection of calls initially
experienced, FEMA temporarily used all call center resources to support
registration intake. From September 2, 2005, to September 11, 2005,
applicants calling FEMA’s helpline were provided answers to frequently
asked questions and directed to FEMA’s website for more information, but no
helpline calls were answered by agents.

By September 12, 2005, agents resumed answering helpline calls, however the
overwhelming majority of agents were only trained to register applicants for
assistance and did not have the training and skills necessary to perform
helpline or case management duties – only 1,200 NPSC staff had been trained
to perform these duties. When helpline activities resumed, applicants
continued to experience delays. For example, of 767,595 helpline calls that
reached a call center from September 12, 1005, to September 18, 2005,
476,016 (62 percent) were deflected; 57,497 (7.5 percent) hung up; and
234,082 (30.5 percent) were answered. Of the 791,291 calls to helpline the
following week, FEMA was only able to answer 507,417 (64 percent).

By September 17, 2005, FEMA was in the process of training additional
agents to handle helpline calls. FEMA’s progress in fielding applicant calls
for assistance may have been affected by the additional calls it received in
response to the September 24, 2005 disaster declaration for Hurricane Rita.
FEMA’s enhanced resources quickly became finite given the second surge of
calls for assistance.

By focusing on enhancing registration intake capabilities, augmentation
efforts for helpline and case management activities were not realized.
FEMA’s overall performance in assisting applicants with helpline and
management activities cannot be considered favorable or responsive;
irrespective of the progress it had made registering applicants for assistance.

Given the scale of this disaster and the sheer number of applicants seeking
assistance from FEMA, initial efforts to augment call center sites and
registration intake agents were admirable. But FEMA staff and resources
need to be positioned to succeed. Additional investment is necessary to
establish basic case management capabilities that are responsive to applicant
needs. More resources must be afforded to FEMA and its efforts focused on

     A Performance Review of FEMA’s Disaster Management Activities
                   In Response to Hurricane Katrina

                               Page 90
                            attaining subject matter expertise in all levels of applicant assistance and case
                            management activities.

                            Recommendation #21: We recommend that the Director of the Federal
                            Emergency Management Agency provide training to additional National
                            Processing Service Center staff and contractors to enhance FEMA’s capability
                            to perform applicant assistance and case management activities responsive to
                            the needs of applicants.

                            On-Line Registrations

                            In addition to calling, applicants can apply for assistance on-line via
                            FEMA.gov. 82 According to FEMA, internet registrations accounted for over
                            40 percent of initial registrations received as of September 19, 2005. By
                            September 30, 2005, 704,086 on-line registrations were made, compared to
                            853,851 through registration intake.

                                          Total Registrations Taken for FEMA’s Individuals and Households
                                                      Program and Housing 08/28/05 to 09/30/05
                                                        Total Internet    Total FEMA
                                            State       Registrations    Registrations 83 Total Registrations
                                         Louisiana             491,647           499,270             990,917
                                         Mississippi           185,095           279,367             464,462
                                         Alabama                27,344            75,214             102,558
                                         Total                 704,086           853,851          1,557,937


                            For several weeks after the major disaster was declared, however, many
                            applicants experienced difficulty applying on-line. The system would “lock
                            up” or “time out” during the application process and applicants could not tell
                            whether the application was completed, sent, or received by FEMA. Some
                            registered again and again, creating duplicate applications. For example, as of
                            October 18, 2005, there were 1,645,784 total registrations made, 736,108 of
                            them on-line. Of those, 96,866 (13 percent) were cancelled by FEMA as
                            exact duplicate registrations and another 145,613 (20 percent) were flagged as
                            potential exact duplicates.

                            FEMA realized its information technology infrastructure was unable to
                            support the number of applicants applying on-line, and on
                            September 15, 2005, it doubled the on-line user capacity. At the same time, to
                            lessen the number of potential duplicate applications, FEMA developed a
82
     Internet application via the FEMA.gov website was first made available by FEMA on October 5, 2004.
83
     These are registrations taken by FEMA from calls made to its toll-free number.

                                   A Performance Review of FEMA’s Disaster Management Activities
                                                 In Response to Hurricane Katrina

                                                               Page 91
                           script to acknowledge a unique social security number. After completing an
                           application through a certain point, the National Emergency Management
                           Information System would acknowledge the application. In addition, if an
                           applicant attempted another registration using the same social security
                           number, a message indicating an existing application would appear.
                           However, even with these adjustments, duplicate applications occurred.

                           Using the internet as an additional resource to register assistance was
                           innovative and enhanced FEMA’s ability to register disaster victims for
                           assistance. However, the system was not adequately tested before its release
                           and lacked sufficient infrastructure to avoid duplicate efforts on the part of
                           applicants and additional work for NPSC staff. Problems with the system
                           should be resolved before FEMA uses this capability during future disaster
                           response efforts.

                           Recommendation #22: We recommend that the Director of the Federal
                           Emergency Management Agency establish and test the information
                           technology infrastructure of the system to ensure support of user demands and
                           develop internal controls to decrease the potential for duplicate applications.

                           Significance of Call Volume and Registrations Taken

                           To place Hurricane Katrina registration activity into perspective, the following
                           reflects the largest number of registrations taken by FEMA in one day over
                           the last five calendar years. For example, after Hurricanes Charley, Frances,
                           Ivan, and Jeanne in 2004, the highest daily registrations ever taken by FEMA
                           were 44,800 as compared to 101,363 in response to Katrina. 84 Total
                           registrations taken in the past five calendars years demonstrate a significant
                           increase in registrations taken by FEMA.




84
     FEMA Recovery Division, data as of September 16, 2005.




                                  A Performance Review of FEMA’s Disaster Management Activities
                                                In Response to Hurricane Katrina

                                                              Page 92
                                            Registrations Taken in          Total Yearly
                                                   One Day                 Registrations
                                             Year      Registrations    Year      Registrations
                                            2000               5,475    2000           215,707
                                            2001               9,355    2001           490,805
                                            2002              14,989    2002           609,884
                                            2003              13,636    2003           608,082
                                            2004            44,800 85   2004         1,959,192
                                            2005           101,363 86   2005       1,323,742 87


                         We also compared registration totals six weeks after each declaration for
                         Hurricanes Charley, Frances, Ivan, and Jeanne, and determined the volume
                         experienced in response to Hurricane Katrina was significant. Even with
                         combining the four 2004 Florida hurricanes, FEMA registered 1,052,284
                         applicants compared to 1,621,284 for Hurricane Katrina. Other significant
                         disasters and total registrations taken by FEMA include: 1999 Hurricane
                         Floyd – 161,027; 1998 Hurricane Georges – 406,441; and 1992 Hurricane
                         Andrew – 151,134.

                                                Registrations Six Weeks After Declaration
                                  2004 Hurricanes Declaration Registrations        Total Registrations 88
                                      Charley        08/13/04           222,949                  273,033
                                      Frances        09/04/04           396,174                  459,420
                                        Ivan         09/16/04           131,783                  151,387
                                       Jeanne        09/26/04           301,378                  363,979
                                  Total                               1,052,284                1,247,819
                                  2005 Hurricanes Declaration      Registrations   Total Registrations 89
                                      Katrina        09/29/05         1,621,266                1,692,024
                                        Rita         09/29/05           818,082                  836,563
                                  Total                               2,439,348                2,528,587


                         FEMA Referrals to Other Assistance Providers

                         In addition to registration intake for its individual assistance programs, FEMA
                         makes referrals to other governmental and nongovernmental departments,
                         agencies, and organizations to assist applicants in addressing needs. As of



85
   On September 28, 2004, FEMA established a record of 44,800 registrations taken over a 24-hour period. Audit of
FEMA’s Individuals and Households Program in Miami-Dade County, Florida, for Hurricane Frances, DHS OIG-05-
20, May 2005, page 45.
86
   FEMA Recovery Division, data as of September 16, 2005.
87
   Ibid.
88
   FEMA NPSC, data as of December 13, 2005.
89
   Ibid.

                                A Performance Review of FEMA’s Disaster Management Activities
                                              In Response to Hurricane Katrina

                                                            Page 93
                            November 16, 2005, FEMA had made over four million referrals to other
                            assistance providers. 90


           Housing Area Command Concept
                            The introduction of a contractor, and lessons learned from the 2004 hurricane
                            season, led to a concept of operations to more effectively coordinate and
                            manage housing operations. A Housing Area Command concept was
                            established in 2005 to respond to large-scale disasters where housing needs
                            were significant and spread over multiple states. The Housing Area
                            Command would coordinate and oversee housing solutions throughout the
                            affected area where several JFOs had been established. However, the
                            Housing Area Command would not be an operational element as the housing
                            operation functions remain within the JFO. 91 The Technical Assistance
                            Contractor would be involved in staffing housing operations and
                            implementing housing solutions such as emergency group shelters,
                            manufactured housing, travel trailers, and modular construction.

                            In response to the Hurricane Dennis disasters declared on July 10, 2005,
                            FEMA used a Technical Assistance Contractor to implement its direct housing
                            assistance mission for the first time. The contractor would be responsible for
                            mobile home and travel trailer site assessment, transportation, installation, and
                            group site coordination. However, Hurricane Dennis’ predicted devastation
                            was not realized and the contractor did not become fully operational.

                            On August 22, 2005, a disaster was declared in Wyoming as a result of
                            damages sustained from a tornado. This event provided FEMA with an
                            opportunity to implement contractor support in a controlled disaster
                            environment, as the needs and damage were specific and defined within a
                            determined geographic area. For example, 278 individuals had applied for
                            disaster assistance, approximately $413,689 in assistance was approved, and
                            52 families were housed in mobile homes as of October 17, 2005.

                            One week after the Wyoming declaration, Hurricane Katrina made landfall.
                            Because a contractor was already engaged, FEMA was able to mobilize it and
                            make preparations for direct housing needs in the Gulf Coast region. Prior to
                            Hurricane Katrina, however, FEMA had only used a Technical Assistance

90
     See Appendix O for FEMA’s referrals to other assistance providers.
91
     Housing Area Command, draft Concept of Operations Plan, July 29, 2005.

                                  A Performance Review of FEMA’s Disaster Management Activities
                                                In Response to Hurricane Katrina

                                                             Page 94
Contractor once, and its tasking for the provision of direct housing assistance
was minimal.

Initial Implementation Lacked Coordination with Oversight and
Operational Elements

Prior to landfall, FEMA’s Housing Area Command was activated and began
planning contingencies for potential shortfalls in sheltering and housing.
FEMA activated four technical assistance contactors to support its temporary
housing mission, procured 20,000 manufactured housing units, and planned to
purchase over 100,000 units. All contractors reported directly to the Housing
Area Command. Eighteen days after landfall, only 910 units were occupied
by disaster victims, 1,306 additional units were ready for occupancy, and
4,798 additional units were positioned in various staging areas. As of
October 1, 2005, 4,128 units were occupied: 667 in Louisiana, 2,929 in
Mississippi, and 532 in Alabama.

FEMA field and headquarters staff told us the use of the Technical Assistance
Contractors provides FEMA with new resources to enhance its housing
mission and the use of contractors should continue in response to future
disasters. FEMA staff also told us they experienced great difficulty in
obtaining information on the contractors’ progress to establish direct housing
resources. Significant communication impediments resulted from having all
technical assistance contactors report only to and obtain tasking only from the
Housing Area Command, without appropriate coordination and input from
field operational elements, such as the JFOs.

A week before landfall, FEMA was in the process of conducting briefings and
soliciting proposals from contractors to perform its direct housing mission.
However, FEMA had not adequately defined the roles, responsibilities,
expectation for deliverables, or performance measures for contractors. In
response to Hurricane Katrina, the Housing Area Command awarded several
contracts; however the terms, conditions, and deliverables of the contracts
were unknown and not appropriately coordinated with FEMA personnel
responsible for contract oversight. For example, FEMA officials said the
Housing Area Command tasked the Technical Assistance Contractors without
the knowledge of the Contracting Officer’s Technical Representative or the
JFO, creating a tasking for work without proper documentation.

A lack of coordination and communication also existed between the Housing
Area Command and operational elements in all affected areas. Some FEMA

     A Performance Review of FEMA’s Disaster Management Activities
                   In Response to Hurricane Katrina

                               Page 95
officials viewed the Housing Area Command as becoming an operational
element working parallel to JFO operations, while others viewed it as working
in disregard of housing resource needs and identified requirements set or
requested by other FEMA components.

For example, the Housing Area Command identified the need for a 1,400
housing unit site in Alabama; however, the FCO and JFO housing operations
element had not identified or requested such a group site. Instead, the FCO
had asked for and received permission from FEMA headquarters to use the
U.S. Army Corps of Engineers’ Planning Response Team for the placement of
travel trailers on private sites and the development and placement of one
smaller group site. FEMA field officials told us that they were instructed by
FEMA headquarters to only use the Housing Area Command and its tasked
Technical Assistance Contractors to establish housing resources.

Further, FEMA has specific requirements for determining whether a travel
trailer or mobile home is “ready for occupancy.” One essential requirement is
that the unit has a reliable source of power. When FEMA conducted quality
assurance checks on a select number of trailers in Louisiana, which the
contractors had certified as units ready for occupancy, a reliable source of
power had not been established and FEMA was not able to approve the units
for occupancy. In addition, no mobile homes may be placed in a Special
Flood Hazard Area; only travel trailers are allowable in these areas and only
on a very limited basis when establishing emergency sites. In these cases, the
Housing Area Command, and its use of Technical Assistance Contractors, had
allowed the potential establishment of housing resources under conditions
contrary to FEMA standards. Collectively, these examples demonstrate a lack
of coordination within FEMA to effectively implement its direct housing
mission and a basic lack of understanding for the regulations that govern the
placement and functional requirements for direct housing resources.

Recommendation #23: We recommend that the Director of the Federal
Emergency Management Agency develop a contract mechanism for its direct
federal resources that clearly defines the expected roles, responsibilities,
deliverables, and performance measures for contractors implementing
FEMA’s direct housing operations mission.

Recommendation #24: We recommend that the Director of the Federal
Emergency Management Agency discontinue the practice of tasking any
contractor without the appropriate coordination and approval of the
Contracting Officer or Contracting Officer’s Technical Representative.

     A Performance Review of FEMA’s Disaster Management Activities
                   In Response to Hurricane Katrina

                               Page 96
                           Recommendation #25: We recommend that the Director of the Federal
                           Emergency Management Agency establish clear roles and responsibilities for
                           the Housing Area Command and define its reporting requirements and chain
                           of command relationship with the FEMA headquarters, Joint Field Offices,
                           and Technical Assistance Contractors.


           Delivery of FEMA’s Individuals and Households Program
                           FEMA realized that implementing the IHP in its traditional manner was
                           unrealistic given the widespread relocation of many disaster victims
                           throughout the United States, the total destruction of significant numbers of
                           homes, and inaccessibility issues in performing home inspections to determine
                           damage and verify need. Many disaster victims would be unable to return to
                           their homes for an extended period of time. In an effort to assist those
                           victims, FEMA attempted to devise new methods to expedite financial
                           assistance and technology to verify need. However, it was difficult for FEMA
                           to maintain internal controls as modifications were made to eligibility criteria
                           and the use of technology to verify damage, occupancy, and ownership were
                           less reliable than initially anticipated.

                           For example, FEMA realized that a large number of registrations for IHP
                           assistance were potentially duplicate applications. As of October 18, 2005,
                           there were 1,645,784 total registrations made. Of those, 120,489 (7 percent)
                           were cancelled by FEMA as exact duplicate registrations, and another 189,437
                           (12 percent) were flagged as potential exact duplicates.92 Because other
                           federal agencies, such as the Social Security Administration, the Internal
                           Revenue Service, and the SBA, maintain basic identification information on
                           individuals, information sharing agreements between FEMA and other federal
                           agencies could provide FEMA with more accurate means to verify applicant
                           identity and eligibility for assistance.

                           Expedited Assistance

                           On September 6, 2005, FEMA authorized the use of expedited assistance
                           within the housing assistance component of the IHP. Expedited assistance is
                           initiated rarely and used only during extraordinary disaster events. FEMA
                           made the determination to award this form of assistance based upon the
92
     FEMA NPSC, data as of October 18, 2005.

                                 A Performance Review of FEMA’s Disaster Management Activities
                                               In Response to Hurricane Katrina

                                                           Page 97
                          severity of damage and nationwide relocation of disaster victims. Unlike
                          other forms of FEMA housing assistance, on-site inspections to verify
                          damages are not performed as expedited assistance allows for a pre-inspection
                          disbursement of funds based on specific criteria.

                          FEMA provided an equal amount of assistance, $2,000, to all eligible
                          households that met the following criteria: (1) the registration must be for the
                          primary residence only; (2) the registrant must be displaced due to the
                          disaster; and, (3) the registrant is in need of shelter. These eligibility
                          questions were not directly asked of the applicant during the registration
                          intake process, but questions included within the registration script were used
                          to meet the criteria. If the criteria were met, assistance was provided without
                          any other verification. Funds could be used for any needs an applicant may
                          have had, such as food, shelter, clothing, and personal necessities. There was
                          also no requirement of applicants to account for how funding was spent, in
                          consideration for additional FEMA IHP assistance. 93

                               Debit Cards Used as Delivery Mechanism

                          By September 7, 2005, FEMA had developed an additional mechanism for
                          providing expedited assistance to applicants who did not have electronic
                          access to an existing bank account, did not have an existing bank account, or
                          who did not have access to a mailing address. In these instances, FEMA’s
                          pilot program would provide a debit card once the registration process was
                          completed and eligibility criteria for expedited assistance were met.
                          Individuals without electronic funds transfer would receive a card with a
                          personal identification number and the assistance would be loaded onto it after
                          one business day. The debit card’s associated banking information (routing
                          and account number) would be used by FEMA to electronically deposit the
                          disaster assistance. This would allow for verification that the applicant’s
                          name and social security number matched before funds would be released.
                          Accounts would then be established, where electronic funds could be
                          transferred, for those applicants who did not have bank accounts.

                          On September 8, 2005, FEMA’s Director authorized the distribution of debit
                          cards which began the following morning at three shelters in Texas: Reliant
                          Arena (Astrodome) in Houston, Kelly Air Force Base in San Antonio, and
                          Reunion Arena in Dallas. However, FEMA’s Director made the decision to
93
  In instances where an applicant was provided expedited assistance in error, the applicant was required to demonstrate
the exhaustion of funds before a recertification of additional IHP assistance was made.

                                 A Performance Review of FEMA’s Disaster Management Activities
                                               In Response to Hurricane Katrina

                                                              Page 98
                           issue the cards as active with the $2,000 and with a personal identification
                           number. Basically, this meant FEMA was providing funds without any
                           assurance of need and with no way to verify that people who received the
                           cards were actually eligible for the assistance. Cards were distributed for two
                           days before this delivery mechanism for expedited assistance was abruptly
                           discontinued.

                                                            Total Debit Card Distribution
                                                Location         Cards Issued      Total Card Value
                                              Houston               6,701                 $ 13,402,000
                                              Dallas                2,479                  $ 4,958,000
                                              San Antonio           2,194                  $ 4,388,000
                                              Total                11, 374                $ 22,748,000


                           Without the internal controls established by FEMA’s program officials, the
                           pilot program as implemented, greatly increased the potential for
                           mismanagement and the likelihood of fraud and abuse. Greater attention must
                           be made by FEMA in establishing and maintaining eligibility criteria for the
                           distribution of any federal funds, especially for a pilot-program that was never
                           before tested. In two days, over $22 million was provided to persons who
                           may, or may not, have been eligible for assistance.

                                  Eligibility Modifications

                           One condition that must have been met to qualify for assistance was that the
                           primary residence sustained damage. However, some people had evacuated
                           their homes not knowing whether damages were sustained. When applicants
                           registered for assistance and answered “no” or “did not know” to that
                           particular question, they were determined ineligible. FEMA made a decision
                           to change the processing script and allowed those applicants to be eligible.

                           FEMA also determined the fixed amount of $2,000 in expedited assistance
                           would not be considered a duplication of benefits with its housing assistance
                           program and therefore was not subject to recoupment. In addition, expedited
                           assistance was provided to applicants with insurance, with the understanding
                           it was to be treated as an advance on the applicant’s insurance settlement.
                           This decision would be retroactive on applicants who were previously denied.
                           Federal regulation, however, prohibits FEMA from funding applicants who
                           are able to meet their needs through other means and prohibits duplication of
                           benefits. 94 For those applicants with insurance coverage, temporary housing

94
     44 CFR §206.110(a) and (h)

                                    A Performance Review of FEMA’s Disaster Management Activities
                                                  In Response to Hurricane Katrina

                                                                 Page 99
                         assistance shall be provided only when payment of insurance benefits have
                         been significantly delayed, benefits are not sufficient to cover housing needs,
                         or when housing is not available in the private market. 95

                         FEMA began fielding reports that members of a number of households had
                         been separated during the evacuation process and were residing in different
                         geographic locations. Initially, FEMA determined that only one expedited
                         assistance award would be provided per household, pursuant to federal
                         regulation, but it has the authority to provide assistance to more than one
                         residence and, eventually it did so, making expedited assistance available to
                         separated household members, including minor children housed with extended
                         family or guardians. 96

                         FEMA awarded over $1.6 billion to 803,088 applicants in the three affected
                         states. The Hurricane Katrina authorization for expedited assistance was
                         discontinued on September 26, 2005. In comparison, FEMA provided
                         approximately $51 million to 94,993 applicants during the four hurricanes that
                         affected Florida in 2004. 97

                                               Total Expedited Assistance 30 Days After Declaration
                                                             for Hurricane Katrina 98
                                      State          EA Applications        EA Eligible       EA Approved
                                      Louisiana         618,692              618,692          $1,249,112,299
                                      Mississippi       161,540              161,540           $323,148,354
                                      Alabama            22,856               22,856             $45,707,416
                                      Total             803,088              803,088          $1,617,968,069


                         Great liberty, within its limited authority, was taken by FEMA to modify the
                         delivery of expedited assistance to afford assistance to as many applicants as
                         possible. However, any semblance of internal control that initially existed to
                         ensure basic eligibility criteria were met was significantly diminished, if not
                         entirely removed. Program controls should not be removed in response to
                         catastrophic events. Modifications, while maintaining internal control, should
                         be anticipated and planned for by FEMA.

                         Recommendation #26: We recommend that the Director of the Federal
                         Emergency Management Agency establish eligibility criteria, internal


95
   44 CFR §206.101(d)
96
   44 CFR §206.117(b) (A)
97
   FEMA NPSC, provided December 19, 2005, from data complied as of six weeks after the declaration of each disaster.
98
   FEMA NPSC, data as of September 30, 2005.

                                A Performance Review of FEMA’s Disaster Management Activities
                                              In Response to Hurricane Katrina

                                                           Page 100
                          program controls, and a basis for testing a program before implementation to
                          ensure the program meets disaster assistance provisions of the Stafford Act.

                          Implementation of the IHP Housing Assistance Component

                          In less affected areas, FEMA implemented its traditional housing assistance
                          and other needs assistance components of the IHP and performed home
                          inspections to verify damage and assess need. A home inspection is generally
                          required as a condition of eligibility for IHP assistance. Once inspections
                          were completed, FEMA determined eligibility for both components.

                          Under the housing assistance component, if needs could not be addressed
                          through insurance or loans from the SBA, depending on the degree of damage,
                          FEMA provided renters and homeowners temporary housing in the form of
                          rental assistance or provided housing units (such as travel trailers or mobile
                          homes) when rental resources were not available within the affected area. It
                          also provided homeowners with funds for home repair when a damaged home
                          could be made safe, sanitary, and functional, or funds for replacement when
                          homes were destroyed.

                                      Total Registrations for FEMA’s IHP and Housing Assistance Awards
                                                               08/28/05 to 09/30/05
                                  State       Registrations     HA Referrals      Average Grant 99 Total Grants
                               Louisiana             990,917          897,280             $1,699 $1,947,569,186
                               Mississippi           464,462          395,939             $2,330   $390,682,308
                               Alabama               102,558           87,345             $1,825    $63,483,992
                               Total               1,557,937        1,380,564             $1,951 $2,401,735,486


                               Other Needs Assistance

                          Under the other needs assistance component, if needs could not be addressed
                          through insurance or loans from the SBA, depending on the degree of damage,
                          grants were provided to repair damaged personal property or to pay for
                          disaster-related necessary expenses and serious needs, which were limited to
                          items or services that help prevent or overcome a disaster-related hardship,
                          injury, or adverse condition. Such items included: reimbursement for
                          medical and dental costs; funeral and burial costs; clothing; household items
                          (room furnishings, appliances); tools required for employment (specialized or
                          protective clothing and equipment); necessary educational materials (school

99
  The average grant reflects the average award amount per registration. A single registration may receive multiple
categories of housing assistance.

                                 A Performance Review of FEMA’s Disaster Management Activities
                                               In Response to Hurricane Katrina

                                                             Page 101
                           books, computers, supplies); generators; cleaning items (wet/dry vacuum, air
                           purifier, dehumidifier); and damages to vehicles. The majority of other needs
                           assistance provided was for items listed in the other category, such as
                           generators and cleaning equipment, personal property, and transportation
                           needs.

                                   Total Registrations for FEMA’s IHP and Other Needs Assistance Awards
                                                             08/28/05 to 09/30/05
                                  State       Registrations   ONA Referrals       Average        Total Grants
                                                                                  Grant 100
                               Louisiana             990,917         469,608            $1,114    $18,043,483
                               Mississippi           464,462         251,477            $2,433    $30,005,548
                               Alabama               102,558           63,802           $1,110    $20,744,939
                               Total               1,557,937         784,887            $1,552    $68,793,970


                           The maximum amount of assistance for both components combined, however,
                           could not exceed the IHP cap of $26,200. In all affected states, as of
                           September 30, 2005, over $2.4 billion in housing assistance was awarded, and
                           over $68 million for other needs assistance. The majority of applicants
                           determined ineligible for housing assistance and other needs assistance were
                           due to duplicate applications, insufficient damage, and insurance.

                               Efforts to Determine Eligibility Without Inspection

                           In the most affected areas, however, FEMA determined the conduct of
                           inspections within a reasonable and responsive timeframe was not feasible and
                           attempted to verify damage using new methods and technology. Homes with
                           major damage or completely destroyed homes were identified through rapid
                           assessment, the use of satellite imagery, and geospatial maps to indicate water
                           levels of one foot or higher. Residents in those dwellings would have their
                           pre-disaster occupancy and ownership verified through external databases, so
                           that a physical inspection was not necessary to provide more expedient
                           assistance for real and personal property.

                               Transitional Housing Assistance

                           FEMA awarded transitional housing assistance to eligible homeowners and
                           renters by providing an initial payment of $2,358 to cover three months
                           rent. 101 An equal amount of transitional housing assistance was awarded only

100
    The average grant reflects the average award amount per registration. A single registration may receive multiple
categories of other needs assistance.
101
    FEMA determined the amount by using a national average of fair market rent for a two-bedroom unit.

                                  A Performance Review of FEMA’s Disaster Management Activities
                                                In Response to Hurricane Katrina

                                                              Page 102
                            to eligible households in the most affected counties and parishes of
                            Mississippi and Louisiana. It was provided without inspection to applicants in
                            Orleans, Jefferson, St. Bernard, St. Tammany, and Plaquemines parishes in
                            Louisiana; and Jackson, Harrison, and Hancock counties in Mississippi.
                            Applicants in all other counties and parishes in the affected states would
                            receive rental assistance and other forms of IHP assistance if found eligible
                            after inspections were conducted. As of October 2, 2005, 332,992 applicants
                            were approved for transitional housing assistance totaling over $788
                            million. 102

                            With satellite imagery and geospatial maps, in combination with information
                            supplied by a FEMA contractor on consumer information to verify occupancy,
                            FEMA thought it would be able to “auto-determine” assistance for the
                            majority of applicants that resided within these areas. The contractor used tax
                            records, census data, public utilities, and other public records to verify the
                            occupants of individual homes and their residency status as an owner or
                            renter. However, the contractor was not able to provide FEMA with
                            verification data as early as anticipated. Also, FEMA had not explored or
                            developed contingencies should the information be untimely or incomplete.
                            For applicants with occupancy that could not be verified by the contractor or
                            through documents submitted by the applicant, FEMA attempted to verify
                            occupancy by using the internet to match the phone number, name, and
                            address with additional sources of information. When verification could not
                            be established using these methods, applicants would be referred to HUD for
                            assistance under the Hurricane Katrina Housing Assistance Program.

                            To avoid possible duplication of assistance, FEMA continued its policy of
                            providing housing assistance to only one member of a household, and
                            attempted to determine the primary lease or mortgage holder as “head of
                            household,” and provided transitional housing assistance only to that
                            individual. Other household members were determined ineligible for
                            transitional housing assistance, but could qualify for other needs assistance,
                            for personal property, transportation, or medical, dental, and funeral expenses,
                            when the need for such assistance was verified.

                                Delay in Providing Additional Housing Assistance to Most Affected Areas

                            The initial method FEMA developed to provide expedited transitional housing
                            assistance was thought to be an unreliable method for use in awarding

102
      DHS Situation Report Number 73, October 2, 2005.

                                  A Performance Review of FEMA’s Disaster Management Activities
                                                In Response to Hurricane Katrina

                                                            Page 103
additional IHP housing assistance. Concerns were raised within FEMA and
elsewhere in DHS that additional analysis and data would be required to
validate the method before additional housing assistance could be provided.
The implication of this decision was that eligible applicants in the most
affected areas were only provided expedited assistance ($2,000) and
transitional housing assistance ($2,358) to address their housing needs, while
applicants in other areas where inspections were conducted were potentially
eligible for up to $26,200 in IHP assistance. Applicants who resided outside
of the most affected areas were not eligible for transitional housing assistance.

By October 28, 2005, FEMA program officials had completed additional
analysis and provided data to support the extent of damage caused by different
water levels (four to six feet) in a variety of homes that ranged in size, style,
and foundation type. It believed this data demonstrated that any home with
two feet or more of water in it for a week or longer had sustained damages
beyond the housing assistance maximum replacement award amount of
$10,500, and that water levels two feet or below would often result in damage
that could be repaired to a habitable condition within the replacement award.
Further, maps it had used on water depth in particular areas, could be
enhanced with zip code overlays to the extent where individual homes were
visible to view the physical condition of the home. It had also conducted on-
site visual inspections in more than 200 locations within the defined areas of
the maps and the physical inspection results supported the reported water
levels.

FEMA proposed that homes that had two feet or more of standing water be
deemed destroyed, and uninsured homeowners be eligible for the maximum
real property replacement grant of $10,500. Homes with standing water levels
between one and two feet were deemed as having major damage, and
uninsured homeowners were eligible for the maximum real property repair
grant of $5,200. Homes with one foot or less would be deemed as having
sustained moderate damage, and uninsured homeowners were eligible for a
real property repair grant of $2,600.

In addition, both renters and homeowners in these designated areas were
eligible for personal property other needs assistance awards if the following
criteria were met: (1) an applicant was uninsured; (2) failed the SBA income
test and had been denied a loan; and (3) had damage levels of two feet or more
for 100 percent replacement award, damage level one to two feet for 50



     A Performance Review of FEMA’s Disaster Management Activities
                   In Response to Hurricane Katrina

                               Page 104
                         percent replacement award, and damage of one foot or less for 25 percent
                         replacement award. 103

                         Finally, FEMA placed additional requirements on the provision of IHP
                         assistance. All homes with less than six inches of water would be inspected
                         and IHP assistance provided through traditional means. Applicants with flood
                         insurance would not be eligible for IHP real or personal property grants,
                         unless the applicant was able to demonstrate that insurance was insufficient to
                         address need. For any personal property awards made to applicants residing
                         in a Special Flood Hazard Area-Zone A, FEMA would initiate a Group Flood
                         Insurance Purchase Requirement ($600), which would be calculated towards
                         the maximum IHP awards.

                         Given the degree of damage, inaccessibility issues for conducting traditional
                         inspections, and the widespread relocation of the majority of residents within
                         these areas, FEMA’s initial efforts to verify damages and determine
                         occupancy through alternative means were creative and demonstrated an
                         effort to provide assistance as expeditiously as possible. However, initial
                         assumptions FEMA made on the data’s accuracy, reliability, and timeliness
                         were not realized, which cast doubt upon its effectiveness for use as a basis
                         for awarding additional assistance. FEMA should place priority on its efforts
                         to use new methods and technology to verify damage, occupancy, and
                         ownership, when traditional methods of inspection are not responsive in the
                         timely provision of assistance. FEMA must ensure the method used has been
                         tested, is based on supportable data, and provides the highest assurance that
                         assistance is provided only to applicants meeting established program
                         eligibility criteria.

                         Recommendation #27: We recommend that the Director of the Federal
                         Emergency Management Agency place priority on analysis of new methods
                         and technology to verify damage, occupancy, and ownership, when traditional
                         methods of inspection are not responsive in the timely provision of assistance.
                         Methods and applicable technology must be tested, based on supportable data,
                         and provide the highest assurance of meeting program eligibility
                         requirements.

                         In general, we determined the authorities of the Stafford Act are adequate to
                         deliver the necessary assistance required in response to a catastrophic event.

103
   The other needs assistance personal property replacement awards were based on a two-bedroom home with complete
furnishings.

                               A Performance Review of FEMA’s Disaster Management Activities
                                             In Response to Hurricane Katrina

                                                          Page 105
                          However, Individual Assistance programs are cumbersome, not easily
                          administered, confusing to applicants, subject to funding caps, cost share
                          requirements, and time limitations. FEMA should consider revising its
                          program delivery process to more efficiently and effectively address the needs
                          of victims.


        Delivery of FEMA’s Public Assistance Program
                          The Public Assistance program was an integral part of FEMA’s ability to
                          assist states with funding to shelter evacuees throughout the United States.
                          Program modifications were made to expedite the processing of project
                          worksheets, removing debris from private property, and funding 100 percent
                          of eligible costs for emergency protective measures and debris removal for 60
                          days. 104 Some practices demonstrated a unique interpretation of statutory
                          authority, while others provided an unprecedented level of federal assistance.

                          Request for Federal Assistance

                          Given the amount of debris and immediate threats to life and health, the
                          decision to reimburse 100 percent of eligible costs for emergency protective
                          measures and debris removal for an initial 60-day period, seemed prudent yet,
                          with the exception of the World Trade Center recovery after
                          September 11, 2001, was unprecedented. Historically, these costs are shared
                          between the federal government, the state, and the applicant, and the time
                          period allowed for reimbursement of emergency activities is more closely
                          aligned with the initial response period of a disaster, for activities within a
                          72-hour period.

                          Emergency protective measures and debris removal accounted for the vast
                          majority of work requested under the Public Assistance program by the
                          affected states as of October 1, 2005. 105 In addition, Mississippi submitted
                          one project under the buildings and equipment category. Alabama submitted
                          nine projects for buildings and equipment, six for utilities, and five for parks,
                          recreational facilities, and other items. As of October 1, 2005, FEMA had


104
    A project worksheet initiates the process for receipt of federal funds under the Public Assistance program, and
includes information on the project’s location, damage description and dimensions, scope of work, and an estimate or
actual costs of the project depending on its size.
105
    See Appendix C for a detailed list of eligible work categories under FEMA’s Public Assistance program.

                                 A Performance Review of FEMA’s Disaster Management Activities
                                               In Response to Hurricane Katrina

                                                             Page 106
                         received a total of 430 project worksheets requesting Public Assistance
                         program funds and obligated more than $962 million.

                                            Public Assistance Projects Obligated as of October 1, 2005
                         Category                               Louisiana      Mississippi     Alabama         Total
                         A – Debris Removal                      $1,425,334 $128,567,943 $5,286,941         $135,280,218
                         B – Emergency Protective Measures $777,861,116        $43,847,142 $4,623,733       $826,331,991
                         C – Roads and Bridges                            0               0         $914           $914
                         E – Buildings and Equipment                      0       $330,572        $21,622      $352,194
                         F – Utilities                                    0               0       $29,930        $29,930
                         G – Parks, Recreational Facilities,              0               0       $14,221        $14,221
                         and Other Items
                         Total                                $779,286,450 $172,745,657 $9,977,361          $962,009,468


                         Program Implementation

                         FEMA must notify Congress of any project estimated at $1 million or more
                         before funds may be obligated. Of the 430 projects, 48 were over $1 million.
                         FEMA made conscious decisions to expedite its processing of these projects
                         so funds could be available to support applicant needs. Once a project
                         worksheet was entered into FEMA’s National Emergency Management
                         Information System, a fact sheet and press release were prepared and
                         distribution coordinated for official notification. FEMA processed project
                         worksheets for the debris removal and emergency protective measures
                         categories within one day, and for all other categories within three days.

                         In addition to debris on public property caused by Hurricane Katrina, FEMA
                         determined that debris on private property also created a threat to life, public
                         health, and the safety of the general public. 106 FEMA identified eight parishes
                         in Louisiana, six counties in Mississippi, and two counties in Alabama where
                         FEMA would reimburse eligible costs for removing debris from private
                         property. As a standard practice, debris located on private property is not
                         reimbursed under the Public Assistance program.

                         Use of Stafford Act Section 403

                         Prior to and soon after landfall evacuees began arriving in states through
                         coordinated and uncoordinated means. With the potential of thousands of
                         evacuees arriving with and without notice, the efforts of the Red Cross,
                         VOADs, states, and other organizations to shelter evacuees would likely

106
  FEMA based its determination on the declaration of a Public Health Emergency in Alabama, Mississippi, and
Louisiana by the Secretary of the Department of Health and Human Services on August 31, 2005.

                                A Performance Review of FEMA’s Disaster Management Activities
                                              In Response to Hurricane Katrina

                                                             Page 107
                             become overwhelmed, requiring state and local governments to provide both
                             short and long term sheltering needs beyond existing capabilities. In an effort
                             to assist state and local governments to supplement their efforts to shelter and
                             care for Hurricane Katrina evacuees, FEMA used Section 403, Essential
                             Assistance, of the Stafford Act. 107 On September 2, 2005, the President began
                             issuing emergency declarations authorizing reimbursement of 100 percent of
                             eligible costs incurred by states providing shelter and care to evacuees. Prior
                             to Hurricane Katrina, such authority had not been used to reimburse states for
                             the costs associated with sheltering disaster victims from other states. By
                             September 30, 2005, 45 emergency declarations had been made and over $72
                             million obligated to five states.

                             FEMA planned to use Section 403 funding until it could develop a longer-
                             term strategy for implementing its Individual Assistance programs, which
                             have statutory assistance limitations of 18 months and a maximum of $26,200.
                             On September 9, 2005, FEMA provided guidance on eligible costs for
                             emergency sheltering and determined states could be reimbursed for such
                             costs under Section 403 for up to 12 months. In response to the guidance,
                             several states engaged in contracts to support their short-term and interim
                             sheltering operations. Further, the subsequent announcement to move all
                             evacuees out of shelters and into longer term housing by October 1, 2005, left
                             states uncertain as to what costs FEMA would reimburse, and for how long.

                             The use of authorities under Section 403 of the Stafford Act should be viewed
                             as resourceful and innovative given the unprecedented evacuation of
                             thousands of people to locations throughout the United States as well as the
                             loss of significant housing resources within the affected areas. However,
                             FEMA should evaluate the policy implications of its continued use as a means
                             to provide emergency shelter when the assistance provided is not closely
                             aligned with the initial response period of a disaster.

                             As a condition of reimbursement to states, FEMA did not require evacuees to
                             have registered with FEMA, which is not a requirement for the provision of
                             assistance under Section 403 of the Stafford Act. This decreased FEMA’s
                             ability to know whether people were actually eligible for assistance as a direct
                             result of the disaster. Also, FEMA increased the potential for duplication with
                             its other assistance programs, as there was no internal mechanism to check
                             whether an evacuee had received assistance from the IHP and when interim
                             housing may have been provided. Only when FEMA was able to identify that

107
      Stafford Act, P.L. 93-288, as amended, Section 403, 42 U.S.C. §5170b

                                    A Performance Review of FEMA’s Disaster Management Activities
                                                  In Response to Hurricane Katrina

                                                               Page 108
           an evacuee had received IHP funds was the interim housing assistance funded
           under Section 403 phased out.

           We believe the decision to use Section 403 to address longer-term housing
           needs of disaster victims demonstrates a fundamental lack of planning by
           FEMA and other federal and nongovernmental partners to address
           contingencies for the loss of housing resources presented by catastrophic
           disasters.

           FEMA should also reevaluate using emergency declarations as a delivery
           mechanism for Section 403 assistance, as each declaration required staff
           intensive resources to process and administer this assistance by individual
           state. Centralizing the administration and funding of this assistance under the
           major declarations for Louisiana, Mississippi, and Alabama could have served
           the same purpose, without having placed additional demands on limited
           resources and could have enhanced the communication and consistency by
           which this assistance was provided. However, FEMA officials believed that
           the decision was prudent as its regional offices continue to maintain
           responsibility for states within their jurisdiction, as would be the case in any
           emergency or major disaster declaration.

           Recommendation #28: We recommend the Director of the Federal
           Emergency Management Agency, in coordination with federal, state, and
           nongovernmental partners, develop more effective and efficient plans for the
           delivery of assistance to address long-term housing issues, and test these plans
           in a simulated environment before application in actual disasters.


FEMA Needs to Improve Readiness
           The response to Hurricane Katrina showed that FEMA was not adequately
           prepared for a catastrophic event in terms of staffing, training, planning,
           exercises, and the remediation of “lessons learned” during previous events.
           We surveyed FEMA’s efforts in these areas from 1995-2005, including grants
           to improve state readiness, in order to evaluate FEMA’s overall posture for
           catastrophic events. FEMA’s poor workforce management and frequent
           reorganizations have not provided sufficient trained staff for catastrophic
           surges or day-to-day operations. FEMA’s involvement in state efforts through
           federal emergency management grants has diminished significantly, reducing
           opportunities to build relationships between federal and state responders.

                A Performance Review of FEMA’s Disaster Management Activities
                              In Response to Hurricane Katrina

                                          Page 109
                        Finally, FEMA needs a stronger mechanism for redressing issues identified in
                        previous disasters and exercises.


        FEMA’s Organization and Capacity to Respond to Disasters
                        Including its alignment within DHS, FEMA has undergone more than five
                        reorganizations in the past decade. 108 At the onset of Hurricane Katrina, these
                        were the operational divisions at FEMA headquarters:

                             •    Response Division: The Response Division includes 2 emergency
                                  operations centers; 8 logistics centers that stock initial response
                                  resources and accountable property including meals, generators, and
                                  computers; 5 MERS detachments to provide communications and life
                                  support for emergency responders; 28 US&R teams in 19 states; and
                                  the NDMS teams that staff hospitals, veterinary clinics, and morgues.
                                  Response Division staff participate in catastrophic planning and
                                  exercises and coordinate ESF-5 and ESF-9.

                             •    Recovery Division: The Recovery Division administers Individual
                                  and Public Assistance programs, processes all gubernatorial requests
                                  for major disasters and emergencies, supplies the cadre of FCOs,
                                  administers the Emergency Food and Shelter Program, and coordinates
                                  ESF-6. Its resources include four NPSCs that manage telephone
                                  registration and process disaster victim applications for assistance.

                             •    Mitigation Division: The Mitigation Division manages programs
                                  intended to lessen the risk and effect of disasters, including the
                                  National Flood Insurance Program and pre-disaster mitigation grants.

                             •    Preparedness Division: The Preparedness Division conducts
                                  capability assessments, resolves remediation issues, and participates in
                                  some state-run exercises. In previous years, this division had
                                  additional responsibilities in conducting exercises, administering
                                  grants, and preparing for chemical and radiological incidents.



108
  Appendix P contains two DHS organizational charts highlighting DHS components with a role in the phases of
emergency management. The August 2005 chart represents DHS’ organization when Hurricane Katrina occurred; the
October 2005 chart represents organizational changes following the DHS Secretary’s Second Stage Review.

                                 A Performance Review of FEMA’s Disaster Management Activities
                                               In Response to Hurricane Katrina

                                                           Page 110
FEMA also houses the U.S. Fire Administration and training centers such as
the Emergency Management Institute. Further, FEMA has ten regional
offices across the country to assist states in disaster management. The
regional offices staff the RRCCs and JFOs.

                    FEMA Regional Office Structure




In FY 2005, FEMA was authorized 4,905 employees divided between
permanent full-time and temporary staff. In addition, FEMA maintains a
roster of several thousand DAEs trained for different cadres such as disaster
logistics, individual assistance, or public affairs. When response and recovery
demands increase, FEMA obtains surge staffing for particular disasters by
activating DAEs and by shifting some permanent employees to disaster-
specific positions.

FEMA expenditures in a given year are funded through annual appropriations,
previous appropriations authorizing funds to be spent over multiple years, and
no-year funds, such as the Disaster Relief Fund. Most of FEMA’s salaries
and expenses and some programs are funded through the annual
appropriation. FEMA assistance for specific disasters, such as individual
assistance payments or preparations in the days immediately before a disaster,
is paid for with the Disaster Relief Fund. FEMA’s enacted FY 2005 budget,
excluding supplemental appropriations, was $3.1 billion. FEMA’s non-
Disaster Relief Fund appropriations have consistently decreased since

     A Performance Review of FEMA’s Disaster Management Activities
                   In Response to Hurricane Katrina

                               Page 111
          FY 2002, but Disaster Relief Fund appropriations increased.


                                         FEMA Enacted Budget Appropriations, FY 1995 – FY 2005
                                    $3,500

            Dollars (in millions)   $3,000

                                    $2,500

                                    $2,000

                                    $1,500

                                    $1,000

                                     $500

                                       $0
                                             1995 1996 1997 1998 1999 2000 2001 2002 2003 2004 2005
                                                                             Fiscal Year
                                                    Disaster Relief Fund (not including supplemental appropriations)
                                                    Other budgeted funds (such as most salaries and expenses)



          While FEMA receives an appropriation each year for the Disaster Relief
          Fund, in eight of the past ten fiscal years Congress passed supplemental
          appropriations bills to augment the fund. After Hurricane Katrina, Congress
          passed two emergency supplemental appropriations totaling $62.3 billion for
          relief and recovery, $60 billion of which went to FEMA to administer. As of
          November 30, 2005, FEMA had obligated or expended funds worth $19
          billion in response to Hurricane Katrina. During December 2005, Congress
          passed a hurricane relief bill that redirected $29 billion from the first
          appropriations to economic development, federal facility restoration, and
          efforts to strengthen the New Orleans levee system.


Grant Program Changes Contributed to Weakened Relationship with
States
          Over the past ten years, a number of changes to the administration of grants
          for natural hazards preparedness diminished FEMA’s involvement in how
          states conduct emergency training, planning, exercises, and other functions.

                                    A Performance Review of FEMA’s Disaster Management Activities
                                                  In Response to Hurricane Katrina

                                                                Page 112
                          In 1995, FEMA had strict oversight of how states and territories spent
                          emergency management grants, which provided FEMA with a degree of
                          influence over state emergency preparedness. Several program changes
                          increased state discretion for how grants could be spent and decreased FEMA
                          direction and involvement. Changes in recent years have also diverted
                          attention from natural hazards preparedness to terrorism preparedness. In
                          2005, FEMA no longer administered natural hazards preparedness grants, 109
                          as this program was transferred to DHS’ Office of Domestic Preparedness
                          (ODP), now part of the new Preparedness Directorate. 110

                          Over the last decade, FEMA used three different mechanisms for providing
                          funds and technical assistance to state and local governments to enhance all-
                          hazards preparedness:

                               •    1983-1995 – Comprehensive Cooperative Agreement: The
                                    Comprehensive Cooperative Agreement combined the requirements
                                    from many preparedness programs into a single document for each
                                    state, enabling FEMA to consolidate the administration and funding of
                                    its grant programs. The Comprehensive Cooperative Agreement
                                    involved between 9 and 27 programs that prescribed very specific uses
                                    for funds. In 1995, these programs included state and local assistance;
                                    training; hurricane preparedness; earthquake preparedness; the
                                    Community Assistance Program; the Disaster Preparedness
                                    Improvement Grant, a counter-terrorism program; hazardous
                                    materials; Superfund Amendment and Reauthorization Act Title III;
                                    and the Chemical Stockpile Emergency Preparedness Program. Under
                                    the Comprehensive Cooperative Agreement, states submitted quarterly
                                    reports to FEMA on the use of program funds.



109
    In addition to the natural hazards preparedness grant programs discussed in this section, FEMA continues to
administer grants for the National Flood Insurance Program, the Map Modernization Management Support and
Cooperating Technical Partners programs (mitigation), Flood Mitigation Assistance, the Pre-Disaster Mitigation
program, Hazardous Materials Assistance, Superfund Amendment and Reauthorization Act Title III, the Chemical
Stockpile Emergency Preparedness Program, the Radiological Emergency Preparedness Program, the National Dam
Safety program, US&R, and a few smaller miscellaneous grants such as research consortiums. Although the
responsibility for the Assistance to Firefighters Grants program shifted to ODP in 2004, FEMA still administers these
programs and is reimbursed by ODP.
110
    On July 13, 2005, DHS’ Secretary reorganized the department. The Office of Domestic Preparedness was realigned
under the Assistant Secretary for Grants and Training, reporting to the Under Secretary for Preparedness. ODP’s parent
office, State and Local Government Coordination and Preparedness, was realigned under the Assistant Secretary for
Congressional and Intergovernmental Affairs.

                                   A Performance Review of FEMA’s Disaster Management Activities
                                                 In Response to Hurricane Katrina

                                                             Page 113
                               •    1996-1999 – Cooperative Agreement Under the Performance
                                    Partnership Agreement: In 1996, FEMA began using Performance
                                    Partnership Agreements for emergency preparedness grants to states.
                                    These agreements consolidated the previous, specific grant programs
                                    to give states more flexibility in allocating preparedness grant funding
                                    and to reduce FEMA’s administrative management burden. In return,
                                    states were to develop the new, strategic agreements with FEMA and
                                    achieve measurable results each year. The Cooperative Agreement
                                    under the Performance Partnership Agreement shifted FEMA’s focus
                                    from grant oversight to technical assistance; removed “one size fits
                                    all” grant prescriptions; deregulated the Civil Preparedness Guide; and
                                    reduced state reporting to a semi-annual basis. This agreement
                                    contained most of the same programs as the Comprehensive
                                    Cooperative Agreement, such as state and local assistance, but it added
                                    a 50 percent state matching requirement for some programs. 111 The
                                    Performance Partnership Agreement five-year plans were never fully
                                    implemented because the program was replaced after four years.

                               •    2000-2004 – Emergency Management Performance Grants (EMPGs):
                                    In 2000, EMPGs replaced the Cooperative Agreements and combined
                                    separate funding streams to states into a single grant. 112 The EMPG
                                    was less prescriptive than its predecessor. FEMA required states to
                                    develop a tailored preparedness baseline that matched the Capability
                                    Assessment for Readiness, and to resume quarterly financial reporting.
                                    As long as expenditures addressed state needs identified in the
                                    assessment and supported FEMA’s strategic plan and annual goals and
                                    objectives, states had the authority to use funding, as they considered
                                    appropriate. The amount of EMPG funds allocated to the states was
                                    based on a share of all program funds that were included in the grants,
                                    a population factor, and the gradual incorporation of a 50 percent
                                    federal-state match requirement. Administration of this grant
                                    transferred to ODP in FY 2005.

111
    Other programs consolidated under these agreements included the Mitigation Assistance Program, Hurricane
Program, and State Hazard Mitigation Program in 1997; Earthquake Program, Pre-Disaster Mitigation, and Flood
Mitigation Assistance in 1998; and the National Dam Safety Program in 1999.
112
    The programs consolidated into the EMPG were State and Local Assistance, Superfund Amendment and
Reauthorization Act Title III, Mitigation Assistance Program (which included the Earthquake and Hurricane
Preparedness programs), Anti-Terrorism Training, Disaster Preparedness Improvement Grant, and the state
administration portion of Project Impact. Programs that were funded under separate authorities were left out of the
EMPG and became separate Cooperative Agreements, i.e., Chemical Stockpile Emergency Preparedness Program,
Community Assistance Program – State Support Services Element, and Flood Mitigation Assistance.

                                   A Performance Review of FEMA’s Disaster Management Activities
                                                 In Response to Hurricane Katrina

                                                             Page 114
Overall, federal funding for all-hazards preparedness grants has decreased.
Between FY 2000 and FY 2005, EMPG funds increased noticeably, with a
slight decrease in FY 2002, a marked jump in FY 2003, and a plateau in FY
2005. The following chart demonstrates the increase in EMPG funding for
the three states affected by Hurricane Katrina. Some states were challenged to
obtain EMPG funds under the 50 percent match requirement, considering that
some programs included in the EMPG had been previously provided at 100
percent federal funding.

          FEMA and State Combined Non-Terrorism EMPG Funding Totals*

   $7,000,000

   $6,000,000

   $5,000,000

   $4,000,000

   $3,000,000

   $2,000,000

   $1,000,000

          $0
                   FY 2000      FY 2001      FY 2002      FY 2003      FY 2004      FY 2005
    Alabama       $4,007,558   $4,090,324   $4,063,018   $5,505,728   $5,784,616   $5,793,236
    Louisiana     $4,006,278   $4,073,125   $4,045,525   $5,502,520   $5,781,854   $5,790,470
    Mississippi   $3,106,095   $3,164,341   $3,121,300   $4,411,320   $4,637,632   $4,644,542



* For FY 2000 through FY 2002, Non-Terrorism and Terrorism EMPG funds were allocated
separately due to separate funding authorizations.

Even though there were reporting requirements and accountability
mechanisms for EMPGs, FEMA was limited in its ability to prioritize or
direct state activities. In practice, EMPGs required states to report to FEMA
regions on their annual plans and performance objectives, but EMPG
authorization language did not enable FEMA regions to influence changes to
the plans or use of funds. Additionally, according to FEMA headquarters and
regional officials, EMPG reporting mechanisms were inconsistent and lacked
quantitative performance measures.



      A Performance Review of FEMA’s Disaster Management Activities
                    In Response to Hurricane Katrina

                                      Page 115
FEMA Region IV and VI and ODP officials assert that EMPGs provide
limited assistance and fund only basic operational costs such as salaries and
overhead, both at the state and local levels. State emergency management
agencies in Alabama, Mississippi, and Louisiana reported distributing a
significant portion of their EMPG funds to local emergency managers for
county and parish preparedness activities, with the remainder used for state
salaries and overhead. States use little EMPG funding to undertake specific
natural hazards preparedness activities such as catastrophic planning.
According to state officials, EMPG does not provide enough funds to conduct
as many activities – exercises, conferences, training sessions, and other events
– as states would need to be sufficiently prepared for disasters. In fact,
officials from the Louisiana Office of Homeland Security and Emergency
Preparedness said that EMPG funds are closer to half of what is required. The
remaining amount is either provided by the state, or unfunded.

When the EMPG program transferred to ODP, FEMA ceased providing
financial assistance to states for natural hazards preparedness activities. The
program and its predecessors had been the exclusive mechanism for FEMA to
provide such assistance. FEMA was no longer able to influence state
activities tied to the grant funding, including state training, planning, and
exercises. FEMA lost its direct preparedness relationship with the state
emergency management agencies. By the time FEMA begins joint operations
with the state under a federally declared disaster, preparedness activities will
have given way to immediate response and recovery needs. FEMA’s
relationship with state agencies for natural hazards preparedness is no longer
structural but ad hoc.

FEMA has limited visibility and no required evaluation of the states’ overall
preparedness goals or their day-to-day activities. There is no formal
mechanism for FEMA regional personnel to provide feedback on both the
development of EMPG guidance and the use of EMPG funds, which distances
FEMA from state activities. At the federal headquarters level, ODP writes
EMPG annual guidance without the input of FEMA employees experienced in
natural hazards preparedness.

Nevertheless, ODP and states have invited FEMA to continue its involvement
in some informal ways. At the regional level, ODP established a system of
preparedness officers that roughly parallels FEMA’s regional structure. ODP
regional staff make efforts to include FEMA in state EMPG evaluation and
reporting systems. In addition, state officials at the Alabama, Mississippi, and
Louisiana emergency management agencies have worked to maintain a

     A Performance Review of FEMA’s Disaster Management Activities
                   In Response to Hurricane Katrina

                               Page 116
relationship with FEMA by including it in their activities. For example,
natural hazards program managers at the state level invite FEMA regional
personnel to conferences and state and local exercises. However, because
FEMA is no longer funded to oversee grant-related activities, staff in both
Regions IV and VI said they depended on diverting travel funds to participate,
which were not readily available.

Even though federal funding for all-hazards preparedness has not decreased,
there is a perception among states that DHS favors terrorism preparedness
because of the less prescriptive grant mechanism, FEMA’s discontinued
administration of these grants, and the expansion of terrorism preparedness
grants. While ODP officials state that they have adopted a multi-hazard or
capabilities-based approach to domestic preparedness, the majority of
preparedness grants are reserved for terrorism-related activities. In addition to
EMPG, ODP distributes funds through the State Homeland Security Program,
the Urban Area Security Initiative, and the Law Enforcement Terrorism
Prevention Program, which focus on improving state and local terrorism
preparedness.

Recent analysis from the Government Accountability Office demonstrates that
legislative language directed ODP to emphasize funding for terrorism
programs, potentially at the expense of funding for natural hazards
preparedness, or even all-hazards. In FY 2005, almost three out of every four
grant dollars provided to state and local governments were for three primary
programs with an explicit focus on terrorism.




     A Performance Review of FEMA’s Disaster Management Activities
                   In Response to Hurricane Katrina

                               Page 117
                               Most FY 2005 DHS Grant Funding for First Responders Focuses on Terrorism
                                                            Other Grants
                                                                2%


                                        Assistance to
                                                                                           State Homeland
                                      Firefighters Grant
                                                                                            Security Grant
                                             21%
                                                                                               Program
                                                                                                 34%

                                    Emergency
                                   Management
                                Performance Grant
                                       5%                                                              Terrorism



                                     Law Enforcement
                                        Terrorism                                         Urban Area Security
                                    Prevention Program                                         Initiative
                                           12%                                                   26%

                            Source: DHS’ Efforts to Enhance First Responders’ All-Hazard Capabilities Continue to
                            Evolve, GAO-05-652, July 2005.

                            Moreover, unlike the very flexible EMPG block grants, ODP’s terrorism-
                            oriented programs contain stringent requirements for how funds can be spent.
                            As a result of state efforts to comply with such requirements in order to
                            receive funding, state officials experienced ODP’s “multi-hazard approach” as
                            a shift towards terrorism preparedness, at the expense of natural hazards.


           Organizational Staffing Requires Better Management
                            While Hurricane Katrina highlighted weaknesses in FEMA’s ability to staff
                            catastrophic events, FEMA confronts staffing challenges on a day-to-day
                            basis. Frequent reorganizations, chronic vacancies, the use of temporary staff
                            in permanent positions, and fragmented human resources management limit
                            FEMA’s ability to hire and retain sufficient staff.

                            FEMA has reorganized its divisions and offices more than five times since
                            1995. 113 Though some divisions within FEMA have created organizational
                            charts, FEMA has not created a chart for its current organization. FEMA’s

113
      See Appendix Q for an overview of FEMA’s reorganizations over the past ten years.

                                   A Performance Review of FEMA’s Disaster Management Activities
                                                 In Response to Hurricane Katrina

                                                              Page 118
                          transient structure disrupts working relationships as staff counterparts alter
                          roles. It also creates the opportunity for increased turnover as staff adjusts to
                          changing duties and accountability structures. In addition, the reorganizations
                          caused FEMA offices to delay hiring while position needs were determined.

                          While interviews suggest that low staffing levels might be a chronic and
                          worsening condition, we could not ascertain the extent of changes in vacant
                          positions, because staffing baselines have only been recorded since
                          January 2005. The lack of organizational charts and workforce plans
                          compounded the issue. According to FEMA, approximately 20 percent of
                          FEMA positions are not filled with permanent full-time staff. A July 2004
                          report from the Office of Personnel Management determined that FEMA
                          Disaster Temporary Employees, COREs, and DAEs are at times unavailable
                          to provide surge capacity during a disaster response because they are being
                          used in permanent roles.

                          Vacancies existed for many years but have increased since FEMA’s
                          incorporation into DHS. For example, FEMA’s Response Division had over
                          100 vacancies as of June 2005. In contrast, based on budgeted staffing levels,
                          FEMA’s staffing levels have remained relatively constant. However, these
                          numbers are misleading because they do not reflect funds set aside to support
                          DHS programs (3 percent of FEMA’s budget) or the number of positions
                          Human Resources deliberately leaves unfilled because of budget constraints
                          (15 percent of FEMA positions).

                          Negative effects from FEMA’s understaffing include decreased morale and
                          inadequate succession planning. The remaining FEMA staff is overworked,
                          often performing multiple duties and working with few days off during
                          disaster responses. The annual Office of Personnel Management reports on
                          morale indicate that FEMA has one of the lowest levels in the federal
                          government. 114 Also, because hiring is restricted, FEMA staff said they rely
                          on retirements and departures to open up positions for new hiring. But
                          waiting for such vacancies to occur does not allow FEMA to prioritize hiring
                          positions based on need. In addition, many FEMA headquarters and FEMA
                          field personnel told us that they will not continue to work for the agency or
114
   In 2003, FEMA was ranked the worst place to work in Federal government by its own employees in the Office of
Personnel Management surveys analyzed by the Partnership for Public Service. In 2005, FEMA was ranked at this level,
as it was no longer a cabinet-level agency, but remained tied for last place among many others. See Best Places to Work,
2005. Partnership for Public Service, viewed at http://www.ourpublicservice.org/usr_doc/Subcomponent_Rankings.pdf
Compare with Best Places to Work, 2003. Partnership for Public Service, viewed at
http://www.ourpublicservice.org/usr_doc/2003-Rankings.pdf

                                 A Performance Review of FEMA’s Disaster Management Activities
                                               In Response to Hurricane Katrina

                                                             Page 119
          will retire as soon as they are eligible. The negative media portrayals of
          FEMA’s efforts in response to Hurricane Katrina and the staff’s perceived
          lack of confidence by DHS’ Secretary have also contributed to low morale.

          FEMA does have significant vacancies in higher-level positions. For
          example, within the Preparedness Division, half of the Senior Executive
          Service and GS-15 positions were vacant during our review. Vacancies at
          higher levels not only decrease institutional knowledge, but also disrupt
          divisions as acting managers often perform two jobs, and postpone less
          immediate concerns such as planning and training.


Despite Expanded Training Delivery, Some FEMA Training Needs Are
Unmet
          FEMA provides regular training for emergency responders at the federal,
          state, and local levels, manages the training and development of FEMA
          employees internally, and provides disaster-specific training through the
          Disaster Field Training Operations cadre. FEMA’s Training Division
          increased the size and number of classes it delivered, even as budgets
          decreased. Courses provided by the Emergency Management Institute are one
          of FEMA’s primary interactions with state and local emergency managers and
          responders. However, employee development lacks the resources and
          organizational alignment to improve performance.

          FEMA Training for Emergency Responders Has Increased

          FEMA’s Training Division provides instruction through four venues: the
          Emergency Management Institute, part of the National Emergency Training
          Center located in Emmitsburg, Maryland; the Noble Training Center for
          public health in Anniston, Alabama; at field locations and conferences; and
          distance learning via independent study courses. The number of Emergency
          Management Institute enrollees has increased significantly over the past ten
          years, even as institute staff decreased. Since 1995, resident enrollments
          tripled and use of FEMA’s independent study courses increased 30 times over,
          largely due to internet enrollments. Students complete over 1 million courses
          each year.

          While the vast majority of those are NIMS and ICS courses, the use of
          hurricane-specific and general emergency management courses has increased

               A Performance Review of FEMA’s Disaster Management Activities
                             In Response to Hurricane Katrina

                                         Page 120
as well. FEMA’s Training Division conducts industry-standard evaluations of
these courses and can demonstrate student learning in Emergency
Management Institute classes. However, the ability of the classes to improve
emergency management during a hurricane is not quantifiable with current
measurements. Additionally, some older courses, including Community
Hurricane Preparedness, need to be updated to incorporate evaluations of
student learning and course effectiveness.

The Emergency Management Institute conducts an Integrated Emergency
Management Course that provides small-scale exercises for managers and
elected officials to learn and rehearse disaster response plans and decision-
making skills. The Integrated Emergency Management Course can be tailored
for specific communities. It was provided to New Orleans officials in 2001.
While the Emergency Management Institute selects applications based on risk,
prioritization depends on communities and individuals that apply for the
training.

Under current authorities and grant program requirements, FEMA does not
have the ability to impose training requirements on states. When FEMA
replaced its prescriptive grant programs with EMPG block grants in 2000,
FEMA decreased its oversight of state training budgets and training
requirements. The NIMS Integration Center has begun to reestablish
requirements from FEMA, prescribing NIMS and NRP basic training courses
for state and local emergency managers and responders.

FEMA also retains influence over state and local training by supporting
emergency management certifications, through its own programs and through
partnerships. It supports the International Association of Emergency
Managers’ Certified Emergency Manager certification and the Association for
State Floodplain Managers’ Certified Floodplain Manager program. FEMA’s
Emergency Management Higher Education Project supported the rapid growth
of college programs in emergency management from 4 in 1994 to 123 in
2005.

FEMA Lacks an Organized System for Employee Development

Several FEMA staff told us that insufficient employee development led to a
shortage of qualified staff for key positions responding to Hurricane Katrina.
For example, the NRCC was unable to obtain trained managers and section
chiefs to man additional shifts, which caused some FEMA employees to work
long shifts every day without relief. Staff also said that FEMA does not have

     A Performance Review of FEMA’s Disaster Management Activities
                   In Response to Hurricane Katrina

                               Page 121
                           enough trained and experienced personnel for day-to-day positions supporting
                           emergency preparedness and response.

                           Under the Chief Human Capital Officers Act, the Office of Personnel
                           Management established standards in the human capital assessment and
                           accountability framework to ensure that agencies close skill gaps in mission-
                           critical occupations and maintain continuity of effective leadership. 115
                           According to the standards, FEMA should create individual development
                           plans (or a similar process) and maintain accurate information on training
                           planned and completed.

                           FEMA does not have individual development plans, despite attempts to
                           institute such plans in the past. With the exception of training requirements
                           for cadres such as the FCOs, FEMA does not have standard requirements for
                           pursuing credentials, additional qualifications, or recommended training.
                           FEMA’s Employee Development Branch, which provides general
                           professional development, does not have authority to set training
                           requirements. Overall, FEMA enrollments in professional development
                           courses, which include leadership and managerial training, decreased
                           significantly in the past ten years. For example, in 2005 only 25 percent of its
                           employees were enrolled in such programs when compared to 1995 levels.

                           Furthermore, FEMA has no centralized and comprehensive information on
                           employee training. FEMA uses several incompatible systems, including
                           databases operated by the Employee Development branch, Emergency
                           Management Institute, Disaster Field Training Operations cadre, and
                           information technology security. Additional classes, including classes
                           provided at conferences, classes provided by the state or locals, and leadership
                           training courses, are not consistently tracked. FEMA regional training
                           managers also maintain records on their own, drawing from each of these
                           systems. Not only is this process inefficient and susceptible to error, it
                           complicates efforts to monitor employee development of mission-critical
                           skills and competencies.

                           Recommendation #29: We recommend that the Director of the Federal
                           Emergency Management Agency create individual development plans (or a
                           similar process) and implement a consolidated records system to maintain
                           accurate information on training completed.


115
      5 U.S.C. §1003(c).

                                A Performance Review of FEMA’s Disaster Management Activities
                                              In Response to Hurricane Katrina

                                                          Page 122
         FEMA Planning Efforts Were Incomplete and Insufficient
                           Other than evacuation plans created under the National Hurricane Program,
                           our review demonstrated no FEMA efforts to conduct planning specifically
                           for catastrophic natural disasters, and little awareness of the need for
                           preparing for them, prior to 2001. Individual officials within FEMA
                           promoted catastrophic planning for New Orleans that culminated in the
                           Hurricane Pam planning scenario in 2004. Though the Hurricane Pam efforts
                           were only partially complete when Hurricane Katrina made landfall, they
                           resulted in the draft Southeast Louisiana Catastrophic Hurricane Plan. FEMA
                           is pursuing additional initiatives to increase its catastrophic planning.

                           The National Hurricane Program: An Effective Tool

                           The National Hurricane Program, which has several components, is FEMA’s
                           most comprehensive hurricane preparedness tool. The current National
                           Hurricane Program budget is $2.9 million, with $1.8 million used for the
                           Hurricane Evacuation Study Program. 116 The purpose of the Hurricane
                           Evacuation Study is to inform emergency managers about factors affecting
                           hurricane evacuation planning and decision-making, and to provide skills and
                           training aids for public education. FEMA, along with the U.S. Army Corps of
                           Engineers and the National Oceanic and Atmospheric Administration,
                           developed the Hurricane Evacuation Study, which includes analyses of
                           hazards, vulnerability, behavior, shelter, and transportation for a given state.
                           The Hurricane Evacuation Study also involves an effort to coordinate
                           evacuations between states, resolving issues such as exit routes that cross over
                           state borders and sheltering in another state. After a hurricane, the Hurricane
                           Evacuation Study develops a post-storm assessment, which it uses to guide
                           future program goals and initiatives. These assessments contain
                           recommendations for program improvement and identify areas to focus
                           preparedness and response efforts.

                           Although the National Hurricane Program has had a steady budget for the
                           Hurricane Evacuation Study, because the U.S. Army Corps of Engineers’
                           budget for this program is decreasing, the program is required to do more with
                           the funding FEMA provides. National Hurricane Program personnel told us
                           that updating states’ studies are difficult because the budget is limited and
                           conducting the studies requires an extensive amount of time. The Hurricane

116
  The remaining $1.1 million is used for other mitigation activities, such as developing building codes for coastal
construction.

                                  A Performance Review of FEMA’s Disaster Management Activities
                                                In Response to Hurricane Katrina

                                                              Page 123
Evacuation Study must be updated as populations shift and geographical
changes alter the supporting assessments and analyses. Therefore, the 22
states and island territories covered under the Hurricane Evacuation Study
take turns having their studies conducted.

Over the past ten years, the National Hurricane Program has conducted
several studies in the Gulf Coast region. Alabama had its Hurricane
Evacuation Study completed in 2001, Mississippi’s was completed in 2002,
and Louisiana’s study was in progress during the 2005 hurricane season.
Louisiana and Mississippi had a joint Hurricane Evacuation Study done in
order to model traffic congestion, shelter demand, and to review existing
traffic plans for major evacuation routes between the two states.

In addition to the Hurricane Evacuation Study, the National Hurricane
Program maintains a number of decision assistance tools including software
packages to assist state and local officials in hurricane prone regions decide
when to evacuate. The software is used in conjunction with the Hurricane
Evacuation Study, which provides evacuation timetables to assist states with
estimating how long an evacuation might take.

FEMA’s Catastrophic Planning Efforts Were Incomplete

There were no FEMA efforts to conduct planning specifically for catastrophic
incidents, and little awareness of the need for preparing for them prior to
2001. In 2001, FEMA categorized a major hurricane striking New Orleans as
among the three most likely catastrophic disaster events to occur within the
United States. After 2001, FEMA staff attempted catastrophic planning but
staff comments and supporting documents point to inadequate funds to
complete such plans. Beyond the overarching strategy compiled in the
Catastrophic Incident Supplement to the NRP, FEMA has not developed final,
incident-specific catastrophic plans for functional responses to disasters.

   New Orleans Planning Project

In 2001, FEMA’s Director requested that its Region VI and Louisiana develop
a proposal for a hurricane-planning project. Louisiana’s Office of Emergency
Preparedness, FEMA, and representatives from the New Orleans district of the
U.S. Army Corps of Engineers jointly developed a proposal and scope of
work. FEMA awarded a contract for $99,000 to URS Corporation to conduct
information collection on the development of a Southeastern Louisiana
Catastrophic Disaster Plan. URS Corporation was to collect all existing plans,

     A Performance Review of FEMA’s Disaster Management Activities
                   In Response to Hurricane Katrina

                               Page 124
                           maps, infrastructure information, meteorological information, and other
                           preliminary information regarding New Orleans’ hurricane threat. URS
                           Corporation produced a report on decision-making and sheltering, which
                           FEMA later provided to IEM, Inc. for use in developing the 2004–2005
                           Hurricane Pam catastrophic planning session.

                                New Orleans Among Overall Catastrophic Planning Efforts

                           In 2003, several catastrophic planning projects within FEMA as well as
                           among coordinating agencies were either underway or had been proposed. A
                           draft November 2003 FEMA document lists 22 such projects, 7 of which were
                           catastrophic hurricane projects involving New Orleans. FEMA had either
                           lead or joint responsibility for 17 projects. 117 Several documents from these
                           projects were in draft form at the time Hurricane Katrina struck.

                           Also in FY 2003, FEMA’s Response Division developed a five-year strategy
                           for catastrophic planning in the highest risk communities across the country.
                           The strategy called for FEMA to engage in state, local, and regional-based
                           planning initiatives involving multiple agencies at all levels of government.
                           The strategy was submitted in the FY 2005 budget request from FEMA to
                           DHS for a funding increase of $4.5 million to develop catastrophic disaster
                           response plans at the federal level, in partnership with state and local
                           governments, for five of the nation’s highest-risk communities, and to
                           establish catastrophic planning templates adaptable to other U.S.
                           communities. 118 However, the additional funding was not approved.

                           In 2004, Louisiana’s Office of Homeland Security and Emergency
                           Preparedness briefed a senior administration official on catastrophic planning.
                           This official insisted that the State of Louisiana work with FEMA to develop a
                           catastrophic plan for New Orleans. However, as FEMA had not received
                           additional funding for the project, it secured funds by making cuts to other
                           programs.

                           Design and planning for the Louisiana catastrophic hurricane-planning event
                           began in March 2004. The project was based on a scenario that assisted
                           Louisiana and its 13 southernmost parishes to develop a response and

117
    The other projects included four national catastrophic planning projects; three catastrophic housing activities; three
Texas hurricane projects; one catastrophic New Madrid fault earthquake project; one catastrophic Miami hurricane; and
more peripheral but related activities.
118
    DHS EP&R, “Justification of FY 2005 Over Target Requests,” July 25, 2003.

                                  A Performance Review of FEMA’s Disaster Management Activities
                                                In Response to Hurricane Katrina

                                                               Page 125
recovery plan for a major hurricane that floods New Orleans and the
surrounding parishes, and to identify any issues that could not be resolved
based on current capabilities. It was the only ongoing catastrophic planning
effort for the region when Hurricane Katrina occurred; however, the plan
resulting from this scenario was in draft form at that time.

Planning sessions were built upon an initial scenario named “Hurricane Pam”
that was conducted from July 16 – 23, 2004. It involved over 350 participants
from more than 15 federal agencies, 30 Louisiana state agencies and 13
parishes, FEMA headquarters, FEMA Regions I, II, IV, and VI, the Louisiana
Office of Homeland Security and Emergency Preparedness, the State of
Mississippi, the State of Arkansas, and numerous voluntary agencies. The
weather scenario, designed by the National Weather Service, involved a slow
moving Category 3 hurricane, sustaining 120 mph winds at landfall in
Louisiana. IEM, Inc., a contractor hired in May 2004, provided planning
session support. The first two days of the exercise were devoted to pre-
landfall planning and achieved the following objectives:

   •    Validation of existing local, state, regional, and headquarters plans,
        recommendation of changes needed, and consolidation into a single
        joint master plan;
   •    Identification of potentially available existing teams and resources and
        where, when, and how they will be alerted, activated, and deployed;
   •    Identification of new plans, checklists, and decision and action points
        that need to be developed and documented;
   •    Identification of any inconsistencies or conflicts between state,
        regional, and national plans and recommendations of changes to
        resolve discrepancies;
   •    Objectives with specific emphasis on search and rescue, temporary
        medical care, sheltering, temporary housing, schools, and debris; and,
   •    Objectives with specific emphasis on other action topics selected
        during the exercise, including hazardous materials; dewatering of
        levee-enclosed areas; billeting of federal response personnel;
        donations management and volunteer resources; distribution of ice,
        water, and power; public information; transition from rescue to
        temporary housing; and reentry and access control.

The Southeast Louisiana Catastrophic Hurricane Plan, which included 15
specific areas of focus, was a major output of these planning sessions.
Beyond the four Hurricane Pam sessions, however, no catastrophic planning

       A Performance Review of FEMA’s Disaster Management Activities
                     In Response to Hurricane Katrina

                                 Page 126
                          events reached fruition. According to FEMA officials, the major challenge in
                          conducting catastrophic planning was a lack of funding. There were three
                          follow-up planning sessions after the initial event, which focused on
                          sheltering, temporary housing, and temporary medical issues with the last one
                          held in August 2005. The follow up sessions were significantly delayed after
                          the initial Pam exercise due to difficulties in obtaining funding.

                          The original proposals for the Southeast Louisiana Catastrophic Plan included
                          a second series of planning sessions, Pam II, which was originally scheduled
                          for April 2005. Pam II was intended to cover additional subject areas,
                          including transportation, communications, feeding, security, external affairs
                          and public relations, financial, personal records, and missing persons/family
                          reunification. The areas of focus proposed for Pam II were not only essential
                          issues, as demonstrated by problems that emerged after Hurricane Katrina, but
                          they were problems for which little to no planning had been conducted.
                          FEMA leadership never approved funding for Pam II. In total, FEMA spent
                          $1.5 million on the Hurricane Pam planning scenario and all additional
                          sessions.

                          In addition to Hurricane Pam, there have been at least a few initiatives to
                          conduct additional catastrophic planning. During the 2004 hurricane season,
                          FEMA requested funding from the disaster supplemental funds for several
                          initiatives. FEMA’s Response Division initially requested $20 million from
                          these funds to create ten catastrophic plans, including completion of the New
                          Orleans plan. The funding was intended primarily for contract support of
                          state and local efforts, as well as to fund federal, state, and local travel.
                          FEMA issued a draft “Strategy for Catastrophic Incident Planning” for FY
                          2005 – FY 2009 in early 2005, which is designed to establish “a
                          comprehensive and aggressive set of unified goals and objectives” and to
                          provide “a baseline against which to identify, validate, align, and prioritize
                          necessary capability-building initiatives” to meet the challenges posed by an
                          incident of catastrophic magnitude. 119 However, this document has not been
                          finalized or distributed, and thus does not provide much-needed guidance on
                          the conduct and purpose of catastrophic planning initiatives.

                          Also in 2005, FEMA introduced seven Disaster Support Initiatives, one of
                          which focuses on catastrophic planning and exercises. The catastrophic
                          planning initiative proposes 16 projects to be implemented in FY 2005 and


119
      DRAFT Strategy for Catastrophic Incident Planning, FY 2005–FY 2009 (DHS-FEMA-0079-0000403–0000417).

                                A Performance Review of FEMA’s Disaster Management Activities
                                              In Response to Hurricane Katrina

                                                          Page 127
          FY 2006. According to the project’s abstract, the catastrophic planning
          initiatives address five concerns: (1) improving local response and recovery
          planning in high-risk localities; (2) improving mass care capabilities; (3)
          improving catastrophic temporary housing capabilities, (4) improving
          decontamination capabilities; and (5) expanding logistical support capabilities.
          FEMA resubmitted the catastrophic planning initiative to the Office of
          Management and Budget for approval in October 2005. Also in 2005, the
          Response Division received supplemental funding which provided $160,000
          to complete the Southeast Louisiana Hurricane Planning Project Initiative,
          plus $60,000 for federal and state travel to two Louisiana workshops.

          Recommendation #30: We recommend that the Director of the Federal
          Emergency Management Agency finalize and distribute the Southeast
          Louisiana Catastrophic Hurricane Plan, using the lessons learned during
          Hurricane Katrina to improve the plan.

          Recommendation #31: We recommend that the Director of the Federal
          Emergency Management Agency request appropriation or provide other
          funding, resources, and institutional support to agency components and to
          state and local partners to complete draft or proposed catastrophic planning
          initiatives for natural disasters.


Long-term Deterioration in FEMA’s Exercise Program
          Emergency management exercises are developed to test and validate existing
          programs, policies, plans, and procedures to address a wide range of disasters
          to which FEMA must respond. There are numerous types of exercises,
          ranging from tabletop exercises where participants discuss actions and
          responses; to command post exercises, where specific aspects of a situation
          are exercised; to large-scale exercises, which involve multiple entities and a
          significant planned event with activation of personnel and resources. In 1998,
          FEMA ceased conducting large-scale exercises, and its exercise program has
          gradually deteriorated in authority, staff, and budgetary resources. Further,
          FEMA no longer has a significant role in the development, scope, and conduct
          of state exercises, though FEMA personnel maintain a presence at state
          events. FEMA participates in exercises administered by other agencies,
          including DHS’ ODP and the Department of Defense, but these exercises limit
          FEMA’s ability to choose which plans, objectives, and relationships to test.



               A Performance Review of FEMA’s Disaster Management Activities
                             In Response to Hurricane Katrina

                                         Page 128
                          Until 1993, FEMA had one branch dedicated to planning, preparing, and
                          directing exercises. After Hurricane Andrew, a reorganization dispersed
                          exercise personnel throughout FEMA; and following additional
                          reorganizations, only one section retained a focus on exercises. Currently, the
                          All Hazards Exercise Section in FEMA’s Preparedness Division 120 has one
                          staff member working on exercise planning and development. Compounding
                          the decline in staff, over the past ten years, FEMA’s exercises budget
                          decreased by more than 90 percent to less than $200,000. This funding leaves
                          FEMA unable to conduct a large-scale catastrophic event exercise, which
                          costs between $500,000 and $1 million. The decline in budget highlights the
                          diminished focus on exercises in particular and natural hazards preparedness
                          in general. 121

                                                               FEMA Preparedness Division Exercises Budget Request
                                                    $2,500



                                                             $2,000
                                                    $2,000


                                                                        $1,598
                             Dollars in thousands




                                                    $1,500




                                                    $1,000
                                                                                                 $836
                                                                                    $687

                                                                       $707.50
                                                                                                         $466
                                                     $500
                                                                                                                       $287
                                                                                                                              $196

                                                                                                                $241
                                                       $0
                                                              1995    1996   1997     1998     1999     2000    2001   2002   2003   2004   2005




                          Further, there is now no clear “owner” within FEMA with the authority to
                          plan and implement exercises and induce the participation of the other FEMA
120
    FEMA’s Preparedness Division remained intact at the time of Hurricane Katrina, and is therefore referred to as such
in this report. The Division has begun the Second Stage Review transformation into the Preparedness Directorate
directly under the Secretary of Homeland Security, outside of FEMA.
121
    Each of FEMA’s programs, such as the Radiological Emergency Preparedness Program and the Chemical Stockpile
Emergency Preparedness Program, has its own required exercises run by program personnel. There are no required
natural disaster exercises.

                                                      A Performance Review of FEMA’s Disaster Management Activities
                                                                    In Response to Hurricane Katrina

                                                                                           Page 129
                          divisions. While an interoffice memorandum designates the Preparedness
                          Division’s All Hazards Exercise Section as the “executive agent within FEMA
                          for all exercise matters,” there does not appear to be any coordination between
                          divisions for exercises, giving the designation little real effect. 122 For
                          example, staff said that the Response Division did not inform the All Hazards
                          Exercise Section of the Hurricane Pam planning exercise until the planning
                          scenario was already taking place. While the Hurricane Pam planning
                          scenario is not a typical test and validation exercise, it is significant that
                          FEMA Response Division staff did not tap Preparedness Division experience
                          in developing the scenario. Similarly, exercise staff have developed scenarios
                          but been unable to solicit participation from the Response and Recovery
                          Divisions. Now, with the Second Stage Review reorganization of DHS,
                          FEMA’s exercise staff may move to the new Preparedness Directorate,
                          leaving FEMA’s role undefined.

                          FEMA No Longer Conducts Catastrophic Natural Disaster Exercises on
                          a National Level

                          Between 1995 and 1998, FEMA conducted several large-scale natural event
                          exercises, targeting different areas threatened by natural disasters such as
                          hurricanes, earthquakes, and floods. In 1998, FEMA leadership determined
                          that FEMA exercises would focus on tabletop rather than full-scale exercises.
                          Staff in the Response Division questioned the need for expensive full-scale
                          exercises, and instead believed small-scale exercises with fewer participants
                          and objectives would be more useful.

                          Now that FEMA does not conduct its own catastrophic natural disaster
                          exercises, it partners with exercise conductors. For example, FEMA
                          participates in exercises run by the Department of Defense, jointly developing
                          scenarios in order to test Defense and FEMA objectives. When FEMA
                          collaborates with the Department of Defense, there is usually at least one
                          terrorist or weapon of mass destruction event occurring at the same time as a
                          hurricane or other natural disaster event. 123 FEMA is on a two-year staggered
                          cycle of exercise planning and conduct, meaning that the agency plans one
                          exercise while another is in more advanced stages, and continues in this way.
122
    There is currently a draft exercise policy, but it has been on hold through the 2005 hurricane season as FEMA
personnel have been responding to events, such as Katrina. Compounding this have been personnel changes within
FEMA’s Preparedness Division (it has been without a Director for one year), and the shift to the Second Stage Review
reorganization.
123
    The scenario for Unified Defense ’04 was the release of a dirty bomb at the same time that a hurricane strikes the
south coast of Texas.

                                 A Performance Review of FEMA’s Disaster Management Activities
                                               In Response to Hurricane Katrina

                                                             Page 130
The difficulty with FEMA’s “piggybacking” exercise strategy is that FEMA
must wrap its objectives around an exercise that it is able to participate in, as
opposed to creating an exercise around the objectives it seeks to test. A set of
general objectives has been developed by the All Hazards Exercise Section as
a foundation for FEMA participation in national-level exercises. We note
very little specificity regarding the plans, procedures, and scenarios FEMA
seeks to test.

Diminished FEMA Role in State Exercises

FEMA regional officials built relationships with state and local officials
through exercises, grants for exercises, and other preparedness efforts. With
changes in grant management including its transfer to ODP, FEMA no longer
has a significant role in the development, scope, and conduct of state
exercises, though FEMA personnel maintain a presence at state events.
Without this mechanism, FEMA regional personnel said they are struggling to
maintain relationships with the states to support future responses.

Under its system of grant management in the late 1990s, FEMA required
states to participate in a four-year exercise cycle. During the first three years,
states tested their response to a natural disaster, a technological disaster, and a
national security event. States chose their own scenarios in the fourth year
according to risks faced. However, FEMA’s consolidation of EMPG in 2000
eliminated the state exercise cycle requirement. In spring 2004, ODP
assumed FEMA’s former responsibility for the development and distribution
of the all hazards exercise schedule, a monthly, yearly, and tri-yearly schedule
of all planned exercises in the country. This reduced FEMA’s association
with another aspect of state exercises. Finally, with the transfer of
preparedness grants to ODP in FY 2005, responsibility and authority for the
funding and oversight of exercise requirements moved as well, and FEMA
could no longer require states to conduct exercises it deemed necessary or
appropriate for preparedness. Because ODP provides grant funding, states
seek ODP guidance on exercise requirements, where they once turned to
FEMA. Nearly all DHS first responder grants provide funds for states to
conduct exercises for terrorist and weapons of mass destruction scenarios.

While FEMA does not have control or influence over state exercises, FEMA
regional personnel participate in the state exercises in a variety of roles. In
Regions IV and VI, a FEMA regional representative is present at most major
state exercises as a participant, evaluator, or observer. Regional personnel
told us relationships are developed through participation and coordination,

      A Performance Review of FEMA’s Disaster Management Activities
                    In Response to Hurricane Katrina

                                Page 131
                          which are invaluable during actual responses. FEMA personnel in both
                          Region IV and VI said that a lack of travel funds, however, has prevented
                          them from participating in state-run exercises sufficient to sustain the
                          relationships they believe are vital to the conduct of emergency management
                          and response. What travel funds they do have are earmarked for specific
                          programs, such as the Radiological Emergency Preparedness Program.

                          Exercise is one component of preparedness that has been allowed to atrophy
                          over the past decade. While augmenting FEMA’s exercise capabilities will
                          not immediately enhance its ability to respond and prepare for natural
                          disasters, it is one of the best ways to determine the appropriateness of
                          policies, plans, and procedures, and alert FEMA to the circumstances and
                          situations for which it is not prepared.

                          Recommendation #32: We recommend that the Director of the Federal
                          Emergency Management Agency and Under Secretary for Preparedness
                          jointly develop a formal mechanism to ensure continuity between
                          preparedness, response, and recovery by including FEMA regional staff in the
                          Preparedness Directorate’s relationships with state emergency management
                          agencies for grants, exercises, planning, technical assistance, and training.


        FEMA Should Strengthen Remediation Measures for Lessons Learned
                          Some of FEMA’s difficulties during the response to Hurricane Katrina were
                          first observed during previous disasters and exercises. After Action Reports,
                          facilitator-led discussions (hotwashes), and third party reviews resulted in
                          recommendations and “lessons learned.” However, changes for corrective
                          action were not tracked or implemented to prevent problems and issues from
                          recurring. After several unsuccessful attempts at tracking lessons learned,
                          FEMA began using RAMP in 2003 to consolidate, assign, track, and monitor
                          the remediation of issues and the distribution of lessons learned. 124 FEMA
                          should strengthen RAMP by providing greater management support and by
                          requiring interim remediation measures.


124
   Another repository of lessons learned is ODP’s Lessons Learned Information Sharing website, which consolidates
lessons learned in a single site accessible to emergency response providers and homeland security officials throughout
the country. Unlike FEMA’s RAMP, the Lessons Learned Information Sharing website does not include mechanisms
for pushing new lessons to designated staff or for monitoring the implementation of recommendations. It serves as an
“information clearinghouse” rather than a remediation tool.

                                 A Performance Review of FEMA’s Disaster Management Activities
                                               In Response to Hurricane Katrina

                                                             Page 132
                         Following are some examples of issues FEMA still needs to remediate:

                             •    In 2003, Hurricane Isabel demonstrated that FEMA needed a better
                                  understanding of state capability to respond to a disaster. FEMA
                                  expected the states affected by Hurricane Isabel to support themselves
                                  with basic provisions for the first 72 hours, but states required federal
                                  assistance sooner. In 2003, it was recommended that FEMA
                                  communicate closely with the states regarding their mutual
                                  expectations. 125 However, in 2005, FEMA remained unable to
                                  determine the point at which states will become overwhelmed and
                                  require federal assistance. FEMA’s awareness of state capabilities,
                                  now based on state self-assessments and a third-party review
                                  conducted and compiled by a nongovernmental organization, does not
                                  include 21 states and territories and has no requirement that state
                                  assessments be kept current.
                             •    During the Top Officials 2 exercise in 2003, states affected by a
                                  simulated biological attack requested major disaster declarations under
                                  the Stafford Act, but FEMA interpreted the biological attack not to be
                                  within the scope of the Act and ineligible for assistance. During the
                                  exercise, the Department of Health and Human Services provided
                                  assistance under its authority, which is less comprehensive than the
                                  assistance available under the Stafford Act. FEMA did not alter its
                                  interpretation or seek amendment to the Stafford Act by the time of
                                  Top Officials 3, in April 2005. 126
                             •    The 2004 hurricanes highlighted that FEMA had insufficient methods
                                  to track logistics assets. In December 2004, FEMA added improving
                                  asset visibility as a remedial action in RAMP. 127 While FEMA began
                                  implementing a total asset visibility program in the summer of 2005,
                                  during Hurricane Katrina FEMA remained unable to track most state
                                  requests through to order fulfillment. Staff compiled reports manually
                                  with paper tracking forms and ad hoc spreadsheets.

                         FEMA’s RAMP program provides a tool to address these issues. It combines
                         the essential components of a lessons learned system to: collect issues from
                         hotwashes around the country, consolidate issues into a single report, assign
                         responsibility for fixing problems, and monitor the progress of those solutions.
                         However, the program does not have consistent high-level oversight or

125
    DHS 2003 Performance and Accountability Report, February 13, 2004, p. 170.
126
    A Review of the Top Officials 3 Exercise, Report Number OIG-06-07, November 2005.
127
    Special RAMP report from the 2004 hurricane season dated November 29, 2004, issue LG-2 and LG-4.

                                 A Performance Review of FEMA’s Disaster Management Activities
                                               In Response to Hurricane Katrina

                                                           Page 133
            support, and it does not have strong mechanisms to ensure completion of
            assigned remediation tasks. The RAMP program manager and remedial
            action managers in each FEMA division perform those tasks as collateral
            duties. The FEMA divisions have authority to reject assigned RAMP tasks
            and to set their own completion date for accepted tasks. While this flexibility
            can be helpful – for example, it allows a division to refuse a new task for a
            problem recently addressed – it also leads to delays. In August 2005, there
            were four action plans overdue and five missed remediation completion dates,
            some older than three months. Monthly RAMP reports did not exist for
            September, October, November, and December 2005, because of the
            increased agency demands due to hurricane response activities. FEMA needs
            to emplace stricter oversight of RAMP task completion.

            A second issue with RAMP is the need for interim solutions when remediation
            plans are long-term. As of December 2005, RAMP contained eight
            outstanding remedial action issues that have a remediation completion date
            greater than one year from the time the issue was assigned. For the RAMP
            action to improve logistics asset visibility, staff revised the completion date
            twice, extending it to October 2009. We observed no interim remediation
            measures in RAMP for these long-term solutions. Since the majority of
            disasters to which FEMA responds recur on a yearly cycle, such as hurricanes,
            long completion dates allow the problems and issues to recur. We recognize
            that particular issues may require long-term remediation plans. However,
            FEMA should implement interim solutions to lessen the impact of known
            problems.

            Recommendation #33: We recommend that the Director of the Federal
            Emergency Management Agency oversee the Remedial Action Management
            Program to maintain focus and provide support for corrective action.

            Recommendation #34: We recommend that the Director of the Federal
            Emergency Management Agency direct its Remedial Action Management
            Program to identify interim remediation plans for issues that have a
            remediation completion date of greater than one year from the date assigned.


Future Considerations
            The integration of FEMA, natural hazards preparedness, and disaster response
            and recovery into DHS requires additional work and a level of support not

                 A Performance Review of FEMA’s Disaster Management Activities
                               In Response to Hurricane Katrina

                                           Page 134
                              currently demonstrated. After the September 11, 2001, terrorist attacks,
                              terrorism prevention and preparedness overshadowed preparedness for natural
                              hazards, both in perception and in application. This has occurred even though
                              natural disasters are more frequent and cannot be prevented. An all-hazards
                              approach can address preparedness needs common to both types of disasters.
                              DHS needs to take a greater role in ensuring that all four phases of emergency
                              management – preparedness, response, recovery, and mitigation – are
                              managed throughout the department on an all-hazards basis. DHS’ leadership
                              in these areas will assist in unifying the many DHS components with
                              emergency management and response roles into a single, integrated culture
                              that can enhance and sustain its all hazards capability.


            Working Toward All-Hazards Preparedness
                              The response to Hurricane Katrina demonstrated that DHS’ efforts to protect
                              and prepare the nation for terrorist events and natural disasters have not yet
                              translated into preparedness for all hazards. State emergency management
                              staff we interviewed said the majority of DHS preparedness grants are spent
                              on terrorism preparedness, which has not afforded sufficient support or
                              funding for natural hazards preparedness. However, a July 2005 Government
                              Accountability Office report said that while some DHS grants have
                              prescriptive requirements focused on terrorism, most of the grant funding is
                              applicable to all-hazards preparedness. Many preparedness measures funded
                              by DHS first responder grants can serve both means, and federal and state
                              emergency managers need to adopt an all-hazards approach. Second,
                              emergency managers need to establish a baseline for preparedness at both the
                              state and federal level in order to meet increasing standards of preparedness.

                              Directing Preparedness Activities Toward All Hazards

                              Homeland Security Presidential Directive-5, “Management of Domestic
                              Incidents,” calls for a single national incident management system. Homeland
                              Security Presidential Directive-8, “National Preparedness,” calls for the
                              development of a national preparedness goal. Together these directives form
                              the backbone of the National Preparedness System, encompassing seven
                              component documents: the NRP, the National Preparedness Goal, the
                              National Preparedness Guidance, the 15 Homeland Security Planning
                              Scenarios, the Universal Task List, the Target Capabilities List, and NIMS. 128
128
      The National Preparedness Goal is still in draft form.

                                     A Performance Review of FEMA’s Disaster Management Activities
                                                   In Response to Hurricane Katrina

                                                               Page 135
There are differences between responses to terrorist incidents and natural
disasters such as hurricanes. For example, a response to a weapon of mass
destruction would require expert assessments, protective gear, and law
enforcement investigation. However, the incident management techniques
and resources for terrorist events and natural disasters are more similar than
different: use of the incident command structure, communications and
information techniques, applying federal assistance under the Stafford Act.
The greatest delta is perception. Staff in the Hurricane Katrina affected states
described a heavy emphasis on terrorism funding and expressed bafflement at
the lack of natural hazards funding. Few perceived grants as “all-hazard.”
This perception may be fueled by the fact that all DHS preparedness grants
are now managed by an entity – ODP – whose mandate was originally
terrorism preparedness. Additionally, only 2 of the 15 National Planning
Scenarios, a compilation of potential disasters that ODP developed to support
preparedness, involve natural disasters (a major hurricane and a major
earthquake). Though the documents in the National Preparedness System
address all hazards, the prevalence of terrorism-related items in them fosters a
perception that the preparedness for and response to a terrorist event is
different from that of a naturally occurring event.

Further, requirements associated with federal emergency preparedness grants
to states also support the perception that terrorism preparedness is separate
from natural disaster preparedness. A majority of grants to states emphasize
preparedness for terrorism and weapons of mass destruction and limit use of
the grants to terrorism-preparedness measures, such as the purchase of
specific personal protective equipment. ODP staff said that state grantees are
failing to take advantage of the grants’ flexibility and use them for all-hazards
preparedness measures. State emergency managers questioned grant packages
that required so much spending on potential events involving terrorism and
weapons of mass destruction, when they received far less funding to prepare
for natural disasters that are certain to recur. For example, the Gulf Coast
region experienced 91 major disaster and emergency declarations from
September 1, 1995, to September 1, 2005, all due to natural hazards such as
hurricanes and flooding. Yet a significant portion of the federal funding for
these states is earmarked for terrorism preparedness to the exclusion of natural
hazards preparedness.




     A Performance Review of FEMA’s Disaster Management Activities
                   In Response to Hurricane Katrina

                               Page 136
                                                          DHS Grant Funding for
                                                  Terrorism and All Hazards Preparedness
                               $4,000
                                                                                    Total
                                                                                   $3,925
                               $3,500
                                                                    Total                         Total      Total
                                                                   $3,418                        $3,345     $3,360
                               $3,000
 Grant Funding (in millions)



                               $2,500                                              $2,925

                                                                   $2,500                        $2,385
                               $2,000                                                                       $2,640



                               $1,500
                                                      Total
                                                      $941

                               $1,000
                                                       $403
                                        Total
                                $500    $233                        $918           $1,000         $960
                                                                                                             $720
                                                       $538
                                         $130
                                         $103
                                  $0
                                        FY 2001      FY 2002       FY 2003         FY 2004       FY 2005    FY 2006
                                                                                                           (proposed)
                                                                     All hazards     Terrorism



One official involved in the Hurricane Katrina response added that DHS’
preparations for natural hazards should be considered in the same context as
preparations for National Security Special Events, which are high profile,
large-scale events that present high-probability targets. National Security
Special Events, though historically less a cause of loss of life and property
than natural disasters, receive millions of preparedness dollars. For example,
for the 2005 Super Bowl in Jacksonville, Florida, overtime costs alone, which
DHS helped fund, topped $1.5 million. Over 50 state, local, and federal
agencies including the U.S. Secret Service, FEMA, the U.S. Coast Guard,
Customs and Border Patrol, and the Federal Bureau of Investigation had
worked for over a year to establish security for the 2006 Super Bowl in
Detroit, Michigan.

Preparedness Baseline Needed

Although the seven components of DHS’ National Preparedness System
establish goals and targets for preparedness, they do not assess current state or
federal capabilities in terms of plans, equipment, staff, training, and resources.
FEMA does not currently have a system to determine when a disaster is

                                 A Performance Review of FEMA’s Disaster Management Activities
                                               In Response to Hurricane Katrina

                                                               Page 137
                        beyond the capabilities of state and local governments; and systems to assess
                        state capabilities remain unable to determine the point at which the state will
                        need federal assistance. Currently, there is no baseline of preparedness for
                        either the states or the nation, though there have been several attempts to
                        develop baselines. Such assessments are needed to plan response efforts and
                        to remediate shortfalls.

                        Federal awareness of when an individual state will become overwhelmed and
                        require federal support enables preparation and is essential to a rapid and
                        seamless response. Differences in state and local capabilities translate into
                        differences in the federal response. For example, the state of Florida’s
                        response to October 2005’s Hurricane Wilma required significantly less
                        federal support than September 2003’s Hurricane Isabel response in North
                        Carolina, though Hurricane Wilma far surpassed Hurricane Isabel in strength,
                        damage, and mortality. North Carolina required federal commodities right
                        away, whereas Florida supplied much of its own commodities and logistics
                        management throughout its response to the storm. What is catastrophic for
                        one state may not be catastrophic for another. Similarly, unpredictable
                        disasters may render an otherwise capable state helpless by destroying
                        essential infrastructure, including emergency response commodities.
                        Therefore, each state and potentially any disaster may have a different trigger
                        at which a state becomes overwhelmed. This prevents the federal government
                        from establishing a single, national point – such as after the first 72 hours of a
                        disaster – at which the federal government prepares to intervene.

                        FEMA has never had an effective system for assessing state readiness or
                        determining a standard to which a state must be prepared. Beginning in the
                        late 1990s, FEMA used the Capabilities Assessment for Readiness to assess
                        state capabilities. Designed jointly by FEMA and the National Emergency
                        Management Association, Capabilities Assessment for Readiness required
                        states to conduct self-assessments. However, the program had flaws,
                        including the short time frame allowed to complete assessments, limited
                        empirical data about state capability, insufficient confidence in the validity
                        and accuracy of the of the self-assessment process, and a lack of information
                        from which to determine how large a disaster each state can handle on its
                        own. 129



129
  FEMA Office of Inspector General, Review of FEMA’s Cooperative Agreement Process, Report #I-01-99, March
1999.

                              A Performance Review of FEMA’s Disaster Management Activities
                                            In Response to Hurricane Katrina

                                                        Page 138
                              In 2002, the Emergency Management Accreditation Program replaced the
                              Capabilities Assessment for Readiness for state assessments. 130 The
                              Emergency Management Accreditation Program is a non-governmental
                              association that assesses states’ emergency management capabilities. Like the
                              Capabilities Assessment for Readiness, the Emergency Management
                              Accreditation Program assessments rely on state self-assessments and do not
                              calculate the scale of disaster a state can manage without federal assistance.
                              However, the Emergency Management Accreditation Program adds on-site,
                              peer-evaluations of state assessments to accredit states on a voluntary basis.
                              When the management of emergency management grants transferred from
                              FEMA to ODP, FEMA lost its authority to require state assessments and
                              validation of them under an accreditation program. In 2005, ODP encouraged
                              but did not require states to use Emergency Management Accreditation
                              Program assessments. For FY 2006, ODP plans to make grant awards
                              contingent on states using an assessment like the Emergency Management
                              Accreditation Program, but ODP will not require accreditation.

                              FEMA remains involved in the state assessment process because FEMA
                              contracts out to the Emergency Management Accreditation Program to
                              perform the assessments in the National Emergency Management Baseline
                              Capabilities Assurance Program (NEMB-CAP). NEMB-CAP is a one-time
                              project to combine Emergency Management Accreditation Program state
                              assessments into a national preparedness baseline. Begun in 2003, NEMB-
                              CAP did not meet its 2005 completion deadline. If the project is completed,
                              the baseline will be difficult to use in comparative analysis because early
                              assessments may no longer be current or relevant. Of the 56 states and
                              territories eligible for assessment, only 35 (62.5 percent) have completed
                              assessments since 2003. The NEMB-CAP results to date show insufficient
                              state capabilities, and there does not appear to be a system to address the
                              shortfalls. In its most recent progress report, the NEMB-CAP has
                              demonstrated that only 2 of the 35 assessed states are fully compliant with the
                              Emergency Management Accreditation Program standards. FEMA and ODP
                              have not yet determined whether states that scored higher should receive
                              additional funds because they spent previous grants effectively, or whether
                              states that scored lower should receive additional funds because they have
                              greater deficiencies.

                              An additional weakness is that NEMB-CAP does not include a federal
                              assessment component to determine the readiness of FEMA and other federal

130
      Separate Capabilities Assessment for Readiness assessments are still in use for local and tribal governments.

                                    A Performance Review of FEMA’s Disaster Management Activities
                                                  In Response to Hurricane Katrina

                                                                 Page 139
          agencies to support states. NEMB-CAP’s premise is that because the state
          response precedes the federal one, an assessment of the readiness of each state
          provides a baseline of the readiness of the nation. However, Hurricane
          Katrina demonstrated that federal readiness could not be taken for granted. A
          two-tiered state and federal assessment would provide a more realistic and
          “big picture” view of national readiness and allow FEMA to determine areas
          of weakness across all levels of government.

          Recommendation #35: We recommend that the Under Secretary of
          Preparedness for the Department of Homeland Security provide states with
          training on the applicability of the National Preparedness System and
          preparedness grants to all hazards, including natural disasters.

          Recommendation #36: We recommend that the Under Secretary of
          Preparedness for the Department of Homeland Security develop a system to
          assess state capability to respond to a disaster, without federal assistance and
          in respect to a minimum level of preparedness based on the Emergency
          Management Accreditation Program standard.

          Recommendation #37: We recommend that the Director of the Federal
          Emergency Management Agency develop a method for determining the level
          of readiness of FEMA to respond to a disaster that exceeds a state’s
          capabilities.


Developing DHS Culture in Carrying Out Emergency Management
Responsibilities
          Emergency management refers to the comprehensive approach to preparing
          for, responding to, recovering from, and mitigating the effects of emergencies
          and disasters. With the creation of DHS, what was traditionally the
          responsibility of one agency has evolved into a department-wide
          responsibility. DHS is positioned to significantly enhance the nation’s
          emergency management capability. It has more internal resources within one
          department than what existed when FEMA was an independent agency. DHS
          is the executive agent of the NRP and the NIMS. Finally, it is the central
          point of oversight to integrate the four phases of emergency management.

          Many DHS components provide support throughout the emergency
          management phases of preparedness, response, recovery, and mitigation.

               A Performance Review of FEMA’s Disaster Management Activities
                             In Response to Hurricane Katrina

                                         Page 140
                            Under the Federal Response Plan, FEMA was the lead for only 2 of 12 ESFs:
                            Information and Planning and US&R. Under the NRP, DHS is either the
                            coordinator or has lead responsibilities for 8 of the 15 ESFs. 131 In addition to
                            the ESFs that FEMA leads, DHS furnishes leadership for ESF-15, External
                            Affairs, with its Public Affairs staff, and ESF-2, Communications, with
                            National Communications System staff. Several DHS components support
                            ESF-13, Public Safety and Security, including the U.S. Secret Service, U.S.
                            Coast Guard, Immigration and Customs Enforcement, Customs and Border
                            Protection, and Transportation Security Administration. Moreover, of the 57
                            federal departments, agencies, and other organizations tasked by FEMA
                            (mission assigned) to support the federal or state operation for Hurricane
                            Katrina during our review period, 14 were DHS components:

                                          Responding DHS Components
                                          Border and Transportation Security
                                          Citizen and Immigration Services
                                          Coast Guard
                                          Customs and Border Protection
                                          Federal Law Enforcement Training Center
                                          Federal Protective Service
                                          Immigration and Customs Enforcement
                                          Information Analysis and Infrastructure Protection
                                          National Communications System
                                          Office of State and Local Government Coordination and Preparedness
                                          Office of the Chief Financial Officer
                                          Science and Technology Directorate
                                          Secret Service
                                          Transportation Security Administration

                            In addition, DHS is the central element in identifying Incidents of National
                            Significance and coordinating activities in support of other federal
                            departments and agencies acting under their own authority. DHS is
                            responsible for the establishment and operation of critical coordination and
                            operation centers, field office facilities and organizational elements, such as
                            the IIMG. DHS’ HSOC continually monitors potential disasters and
                            emergencies and provides informational and operational support during
                            Incidents of National Significance. Also, DHS is responsible for identifying
                            personnel to lead, coordinate, and communicate activities in such critical roles
                            as the PFO, the FCO, and the IIMG Director.

                            DHS’ emergency response role was further illustrated when then Under
                            Secretary for EP&R requested, and the Secretary supported, the use of all
131
      See page 31 for a list of ESFs for which DHS is either the coordinator or primary agency under the NRP.

                                   A Performance Review of FEMA’s Disaster Management Activities
                                                 In Response to Hurricane Katrina

                                                                Page 141
                         available DHS employees to respond to the needs of the disaster and reinforce
                         the department's all-hazards capabilities. During our field interviews one
                         FEMA employee suggested that all DHS employees should be assigned to an
                         emergency response function and provided with the necessary training to
                         perform that function. The employee also felt that a department-wide
                         credentialing program could be used to measure proficiency.

                         Finally, DHS’ central role in emergency management is reinforced by the
                         changes it has made to assign responsibility for the four phases of emergency
                         management (preparedness, response, recovery, and mitigation) within the
                         department. DHS began transferring preparedness grant and exercise
                         responsibilities from FEMA to the Office of State and Local Government
                         Coordination in 2004. The Secretary’s Second Stage Review reinforced the
                         redistribution by creating a Preparedness Directorate in 2005, with FEMA
                         retaining responsibility for response, recovery, and mitigation. Ensuring that
                         all four phases of emergency management are working harmoniously is the
                         responsibility of the DHS Secretary.

                         Merging the preparedness activities within one office allows for department-
                         wide priority setting of funds and resources that are available for grants,
                         training, exercises, equipment, personnel, and other preparedness activities.
                         With all of its preparedness activities and resources consolidated, DHS is
                         better poised to assist state, local, and tribal entities, and embrace the
                         capabilities of the private sector in adopting an all-hazards approach to
                         national preparedness. Such an approach considers the risks of not only
                         natural and accidental disasters, but also events that result from terrorism.

                         DHS' implementation of Homeland Security Presidential Directive-8 through
                         its new Preparedness Directorate requires the department to coordinate the
                         development of a national all-hazards preparedness goal that would establish
                         measurable readiness priorities and targets that balance the potential threat of
                         terrorist attacks and large-scale disasters with the resources required to
                         prevent, respond to, and recover from them. 132 The consolidated or “one-stop
                         shop” nature of these activities diminish the possibility of gaps or duplication
                         in allocating funds and resources on a risk-oriented basis. Unlike its previous
                         designation where distinct agencies within DHS endeavored to separately
                         assist state, local, and tribal governments in preparedness functions, the
                         Preparedness Directorate is positioned to effectively target DHS’ cumulative

132
   DHS’s Efforts to Enhance First Responders’ All-Hazard Capabilities Continue to Evolve, GAO-05-652, July 2005,
available at http://www.gao.gov/new.items/d05652.pdf, p. 2 (accessed on January 10, 2006).

                                A Performance Review of FEMA’s Disaster Management Activities
                                              In Response to Hurricane Katrina

                                                          Page 142
                           resources, such as grants to urban areas for increased security and assistance
                           to firefighters, in an integrated and complementary manner.

                           It is critical that DHS develop a culture that maximizes the capabilities of its
                           components, personnel, and resources; establishes performance expectations;
                           and adequately funds department priorities. To this end, DHS needs to revise
                           the NRP during its upcoming scheduled review to aggressively address
                           deficiencies; streamline, clarify, and enhance processes, protocols, and
                           procedures so as not to delay critical decision-making; and incorporate lessons
                           learned from Hurricane Katrina. DHS must also provide the necessary
                           emergency management leadership to other federal departments, agencies, and
                           other organizations when responding to Incidents of National Significance.

                           Recommendation #38: We recommend that the Under Secretary of
                           Preparedness for the Department of Homeland Security, in coordination with
                           the Director of the Federal Emergency Management Agency, ensure all DHS
                           employees receive training on DHS responsibilities under the NRP and NIMS.


         Stafford Act Authorities are Sufficient, Long-Term Recovery Issues Need
         to be Addressed
                           In general, we determined the authorities of the Stafford Act are adequate to
                           deliver the necessary supplemental assistance required after such a
                           catastrophic event, subject to funding caps, cost shares, and time limitations.
                           However, the Stafford Act specifically limits Department of Defense
                           assistance to ten days. 133 In statute and federal regulation, which implements
                           the Stafford Act, we were not able to establish a provision for an extension of
                           time for this assistance. 134 Other provisions of Stafford Act assistance contain
                           provisions for time extensions, waivers of funding caps, and the ability to
                           increase the funding cost share of eligible disaster related costs giving the
                           President or his designee the flexibility to provide assistance, based on the
                           severity and magnitude of the event. For example, the time limit for


133
    According to 44 CFR 206.34, the 10-day limit only applies to instances where FEMA’s Associate Director can direct
the Department of Defense to utilize its personnel and equipment “during the immediate aftermath of an incident which
may ultimately qualify for a Presidential declaration of a major disaster or emergency, when threats to life and property
are present which cannot be effectively dealt with by the State or local governments.”
134
    42 U.S.C. §5170b, Essential Assistance, Section 403; and 44 CFR Section 206.34, Request for utilization of
Department of Defense resources.

                                  A Performance Review of FEMA’s Disaster Management Activities
                                                In Response to Hurricane Katrina

                                                              Page 143
                            completing a direct federal assistance mission assignment is 60 days after the
                            President’s declaration.

                            However, based on extenuating circumstances, or unusual project
                            requirements, FEMA may extend this time limitation.135 Additionally, the
                            President or his designee can approve up to 100 percent funding of direct
                            federal assistance for an extended period of time. For example, in Louisiana,
                            direct federal assistance mission assignments are eligible for 100 percent
                            funding through and including June 30, 2006. In Mississippi, direct federal
                            assistance mission assignments were eligible for 100 percent funding through
                            and including March 15, 2006. And, in Alabama, direct federal assistance
                            mission assignments were eligible for 100 percent funding for 60-days from
                            the date of the major disaster declaration which was August 29, 2005. DHS
                            may want to consider whether this limitation has an effect on the overall
                            federal response to catastrophic events.

                            Congress intended the Stafford Act to provide an orderly and continuing
                            means of supplemental assistance by the federal government to state and local
                            governments in carrying out their responsibilities to alleviate the suffering and
                            damage which result from declared disasters. The authorities, as applied by
                            FEMA, have demonstrated to be dynamic and sufficient in addressing the
                            needs of individuals, states, and local governments in most emergency and
                            major disaster events declared by the President. As the Stafford Act was
                            intended to provide supplemental federal disaster relief and emergency
                            assistance, we urge that considerable caution be exercised when
                            recommending changes to this authority in light of the flexibility that already
                            exists.

                            However, we note areas where individual needs have been demonstrated and
                            authorities are not provided: (1) the ability to address individual physical loss
                            from an event that results in widespread physical catastrophic damages; and
                            (2) the ability to address individual economic loss from an event that results in
                            widespread economic disruption.

                            As previously discussed, FEMA’s IHP has a maximum financial cap of
                            $26,200. The program’s direct federal assistance provision may not be
                            extended past 18-months after the date of a declared major disaster, except
                            when the President extends that period due to extraordinary circumstances that
                            would be in the public interest. In events where entire communities have been

135
      44 CFR 206.208 (d).

                                 A Performance Review of FEMA’s Disaster Management Activities
                                               In Response to Hurricane Katrina

                                                           Page 144
           affected and the vast majority of housing stock destroyed, there is no other
           current mechanism, aside from FEMA’s IHP, for the federal government to
           address individual needs for persons without insurance or persons unable to
           obtain a loan. Congressional consideration may be warranted to better
           position the federal government to address widespread physical catastrophic
           damages and economic loss issues of individuals affected by disasters.


Management Comments and OIG Analysis
           The Department did not provide its official comments to our report until after
           the report was signed on March 31, 2006. Although we attached management
           comments, which were dated April 4, 2006, we did not perform an in depth
           analysis of them. We requested the Department to advise us, within 90 days,
           of the actions taken or planned to implement each of our recommendations.
           We consider all 38 recommendations to be unresolved and open.




                A Performance Review of FEMA’s Disaster Management Activities
                              In Response to Hurricane Katrina

                                          Page 145
                              Appendix A
                              Hurricane Katrina Event Timeline




                          Hurricane Katrina – Storm Track, Key Events and Decisions
                                            August 24 – September 30, 2005
       Wednesday, August 24, 2005
       0500       • Tropical depression 12 – to become Hurricane Katrina – identified about 270 miles
       hrs 136         ESE of Florida.
       0700 hrs   • FEMA Hurricane Liaison Team activated.
                  • FEMA Region IV RRCC activated at modified level in Thomasville, GA
       Thursday, August 25, 2005
       0500 hrs   • Tropical Storm Katrina is located 90 miles east of Fort Lauderdale, FL
       0700 hrs   • FEMA NRCC Red Team activated at modified Level 2
                  • FEMA NRCC ESFs 1 (with Air Ops Element), 3, 4, 5, 7, 15, and a Military Liaison
                       activated
       1200 hrs   • FEMA Region IV RRCC transitioned from Thomasville at Level 3 to Atlanta, GA at
                       Level 2; ESFs 1, 3, 4, 7, 14, 15, and a Military Liaison activated.
       1530 hrs   • Tropical Storm Katrina becomes a hurricane, located 25 miles east of Fort Lauderdale,
                       FL
       1830 hrs   • Hurricane Katrina makes first landfall in Florida as a Category 1 hurricane.
       Friday, August 26, 2005
       0500 hrs   • National Hurricane Center predicts second landfall near the Florida panhandle
                       Category 1 storm on August 28 or 29, 2005
       1130 hrs   • Hurricane Katrina strengthened to a Category 2 storm; National Hurricane Center
                       predicts second landfall near the Florida panhandle as Category 3 storm on
                       August 29, 2005.
       1700 hrs   • National Hurricane Center advises Hurricane Katrina’s track has shifted significantly to
                       the west; predicts second landfall near eastern Louisiana and Mississippi coast
                  • Governor of Louisiana declares State of Emergency
                  • Alabama Emergency Operations Center activated
       Saturday, August 27, 2005
       0700 hrs   • FEMA NRCC activated at Level 1 (24-hour operations)
                  • FEMA NRCC ESFs 2, 6, 8, 9, 10, 11, 12, 13, 14, 15, and EMAC activated
       0830 hrs   • Louisiana Emergency Operations Center activated
                  • Governor of Mississippi declares State of Emergency
                  • Mississippi Emergency Operations Center activated
       1000 hrs   • FEMA Emergency Response Team-Advanced activated; pre-staged at FEMA RRCC
                       Region IV in Atlanta, GA
                  • FEMA Emergency Response Team-Advanced activated and deployed to Alabama
                       Emergency Operations Center
                  • FEMA Emergency Response Team-Advanced activated and deployed to Mississippi
                       Emergency Operations Center



136
      All times are eastern daylight time.

                                     A Performance Review of FEMA’s Disaster Management Activities
                                                   In Response to Hurricane Katrina

                                                                 Page 146
                   Appendix A
                   Hurricane Katrina Event Timeline


1200 hrs    •  FEMA Region IV RRCC activated at Level 1; all ESFs plus a Military Liaison
               activated
            • FEMA Region VI RRCC activated at Level 1; all ESFs plus a Military Liaison and
               U.S. Coast Guard activated
            • FEMA Emergency Response Team-National activated and deployed to Louisiana
               Emergency Operations Center
1700 hrs    • Contra Flow activated on Mississippi and Louisiana interstate highways
1944 hrs    • Emergency Declaration FEMA–3212–EM–LA issued for Louisiana; FCO–William
               Lokey
Sunday, August 28, 2005
            • Governor of Alabama declares State of Emergency
1115 hrs    • Emergency Declaration FEMA–3213–EM–MS issued for Mississippi; FCO–William
               Carwile
by 1700     • Contra Flow deactivated on Mississippi and Louisiana interstate highways
hrs
1830 hrs    • Emergency Declaration FEMA–3214–EM–AL issued for Alabama; FCO–Ron
               Sherman
Monday, August 29, 2005
0710 hrs    • Hurricane Katrina makes second landfall over Southeast Louisiana as a Category 4
               storm
0921 hrs    • First report of levee breaches; City of New Orleans begins to flood
1448 hrs    • Major Disaster Declaration FEMA–1603–DR–LA issued for Louisiana; FCO–William
               Lokey
            • Major Disaster Declaration FEMA–1604–DR–MS issued for Mississippi; FCO–
               William Carwile
2051 hrs    • Major Disaster Declaration FEMA–1605–DR–AL issued for Alabama; FCO–Ron
               Sherman
Tuesday, August 30, 2005
            • DHS’ Secretary, Michael Chertoff, declares Hurricane Katrina an Incident of National
               Significance; Under Secretary for EP&R Michael Brown appointed PFO
Thursday, September 1, 2005
            • Alabama operations transition to Joint Field Office in Montgomery, AL
Friday, September 2, 2005
            • Emergency declarations issued to support Hurricane Katrina evacuees – Arkansas,
               Texas
Monday, September 5, 2005
            • Vice Admiral Thad Allen appointed as Deputy PFO for Hurricane Katrina in New
               Orleans
            • Emergency declarations issued to support Hurricane Katrina evacuees - Tennessee,
               Georgia, Oklahoma, Florida, West Virginia, North Carolina, Utah, and Colorado
Tuesday, September 6, 2005
            • Expedited Assistance authorized in the amount of $2,000 for eligible applicants under
               the Individuals and Households Program



                         A Performance Review of FEMA’s Disaster Management Activities
                                       In Response to Hurricane Katrina

                                                      Page 147
                   Appendix A
                   Hurricane Katrina Event Timeline


Wednesday, September 7, 2005
            • Emergency declarations issued to support Hurricane Katrina evacuees – Michigan, the
               District of Columbia, Washington, Oregon, New Mexico, and Illinois
Friday, September 9, 2005
            • Vice Admiral Thad Allen appointed as PFO for Hurricane Katrina
Saturday, September 10, 2005
            • Emergency declarations issued to support Hurricane Katrina evacuees – Kentucky,
               Missouri, South Carolina, South Dakota, Pennsylvania, Kansas, Alabama, Indiana,
               Iowa
Monday, September 12, 2005
            • Under Secretary Michael Brown resigns as FEMA’s Director
            • Louisiana operations transition to Joint Field Office in Baton Rouge, LA
            • Emergency declarations issued to support Hurricane Katrina evacuees – Virginia and
               Arizona
Tuesday, September 13, 2005
            • R. David Paulison appointed as Acting Director of FEMA
            • Emergency declarations issued to support Hurricane Katrina evacuees – Minnesota,
               Nevada, Idaho, Nebraska, Connecticut, North Dakota, California, Wisconsin, Ohio,
               Maryland, Massachusetts, and Montana
Saturday, September 17, 2005
            • Mississippi operations begin transition to Joint Field Office in Jackson, MS
Sunday, September 18, 2005
            • Mike Bolch appointed as FCO for Alabama
Monday, September 19, 2005
            • Joint Field Office in Jackson, MS becomes fully operational
            • Emergency Declarations issued to support Hurricane Katrina evacuees – Rhode Island,
               Maine, New Jersey, and New Hampshire
Wednesday, September 21, 2005
            • Vice Admiral Thad Allen appointed as FCO in Louisiana, Mississippi, and Alabama
Saturday, September 24, 2005
0330 hrs    • Hurricane Rita makes landfall as Category 3 storm in Texas and Louisiana
Wednesday, September 28, 2005
            • Transitional Housing Assistance authorized for eligible applicants in the most affected
               areas of Louisiana and Mississippi in the amount of $2,358 for rent without home
               inspection under the Individuals and Households Program
Friday, September 30, 2005
            • Emergency Declarations issued to support Hurricane Katrina evacuees – New York
               and Delaware




                         A Performance Review of FEMA’s Disaster Management Activities
                                       In Response to Hurricane Katrina

                                                      Page 148
                         Appendix B
                         FEMA’s Individual Assistance Programs




FEMA’s Individual Assistance Programs
                         FEMA may provide financial assistance and, if necessary, direct services to
                         eligible individuals and households who, as a direct result of a major disaster,
                         have necessary expenses and serious needs and are unable to meet such
                         expenses or needs through other means. 137 FEMA is authorized to administer
                         four distinct Individual Assistance programs in response to disasters declared
                         by the President: (1) Individuals and Households; (2) Crisis Counseling; (3)
                         Unemployment Assistance; and, (4) Legal Services.

                         Individuals and Households Program

                         The Individuals and Households Program is FEMA’s primary mechanism to
                         assist individuals and households recover from damages or losses sustained as
                         a direct result of a disaster, when losses are not covered by insurance and
                         property has been damaged or destroyed. Applicants must meet specific
                         eligibility criteria to qualify for assistance, and the program is designed to
                         assist only with critical expenses that cannot be covered by other means, such
                         as loans from the SBA. It does not cover all losses from damage to homes,
                         personal property, and household items that result from a disaster and is not
                         intended to restore damaged property to its condition before a disaster.

                         For Hurricane Katrina, an individual or household could receive a maximum
                         of $26,200 of IHP assistance, with repair and replacement assistance capped
                         at $5,200 and $10,500 respectively. 138 Rental assistance was provided to
                         renters whose homes were uninhabitable due to the disaster and to
                         homeowners until more permanent repairs could be made to their primary
                         residence. The combination of all forms of IHP financial assistance cannot
                         exceed the maximum grant of $26,200.

                         When housing resources are not available within an affected area to
                         accommodate the needs of disaster victims, FEMA is authorized to provide
                         direct federal assistance, such as mobile homes and travel trailers, for up to 18
                         months following a declared major disaster. Using lessons learned from
                         previous disasters, FEMA developed a concept of operations and procurement
                         strategy in August 2004 to address direct housing needs associated with
                         multiple disasters. The strategy would allow FEMA to: (1) establish a
                         temporary housing surge capacity of 2,500 units; (2) establish primary
137
  42 U.S.C. §5174 and 44 CFR Part 206, Subparts D and F.
138
  The maximum grant amount is adjusted annually to reflect changes in the Consumer Price Index. See 69 FR 61515
(October 19, 2004).

                               A Performance Review of FEMA’s Disaster Management Activities
                                             In Response to Hurricane Katrina

                                                         Page 149
                         Appendix B
                         FEMA’s Individual Assistance Programs


                         contractors for installation, maintenance, site inspection of units, and
                         deactivation; (3) develop uniform procurement specifications for temporary
                         housing units; (4) develop a statement of work for refurbishing and deploying
                         units in storage; (5) establish staffing requirements to support field and
                         storage operations; and, (6) support shelter operations.

                         While supporting 2004 disasters, FEMA began to establish additional
                         capability and capacity in its housing unit inventory, and formalized the use of
                         Technical Assistance Contractors. 139 As of May 2005, FEMA’s existing
                         housing inventory was approximately 4,832 mobile homes and travel trailer
                         units. 140

                         As of November 16, 2005, FEMA had received 1,680,516 registrations for
                         IHP assistance from residents of the three affected states, determined that
                         984,432 (or 59 percent) were eligible, and approved approximately $3.5
                         billion in assistance. 141 IHP has two major components: Housing Assistance
                         and Other Needs Assistance. Housing Assistance is 100 percent federally
                         funded and administered and provides assistance for temporary rental
                         assistance, home repairs, and home replacement. Other Needs Assistance is a
                         cost-shared partnership between FEMA and the states. 142 As part of this
                         partnership, FEMA and the states engage in annual coordination efforts to
                         determine how Other Needs Assistance will be administered for the coming
                         year. States may choose to administer the component or to have FEMA
                         administer it. For Hurricane Katrina, all three states elected to have FEMA
                         administer the program; however, each retained influence over the program by
                         determining which household items were eligible for reimbursement.

                         Contract inspectors, under FEMA’s Inspections Services Branch, verify
                         personal and real property losses and damages of individuals and households
                         while FEMA personnel verify reported disaster-related deaths as well as
                         medical and dental needs for the IHP. Inspectors visit homes of applicants to
                         verify disaster-related damages to real and personal property. Findings are
                         uploaded into FEMA’s processing system, the National Emergency
                         Management Information System, which in most disasters automatically
                         determines eligibility in over 90 percent of cases. FEMA caseworkers process
                         all cases that cannot be processed automatically to determine eligibility for
                         IHP.

139
    Approximately 20,000 temporary housing units were assigned to the field to support FEMA’s Disaster Housing
Operations mission in 2004.
140
    FEMA Direct Housing 2005 Pre-Hurricane Season Briefing, May 26, 2005.
141
    FEMA Data Status Report as of November 16, 2005.
142
    Under the other needs assistance component of the IHP, a state must provide a 25 percent match.

                                A Performance Review of FEMA’s Disaster Management Activities
                                              In Response to Hurricane Katrina

                                                           Page 150
                         Appendix B
                         FEMA’s Individual Assistance Programs


                         Crisis Counseling

                         FEMA provides financial assistance for professional counseling services to
                         relieve mental health problems caused or aggravated by a disaster or its
                         aftermath. Under the Crisis Counseling Assistance and Training Program
                         (Crisis Counseling Program), FEMA provides assistance to states through the
                         Immediate Services Program and Regular Services Program. The Immediate
                         Services Program affords funding for screening or diagnostic techniques that
                         can be applied to meet mental health needs immediately following the
                         disaster. The duration of the Immediate Services Program is 60 days from the
                         declaration date, with a potential extension of 30 days or more. The Regular
                         Services Program generally expands upon the existing Immediate Services
                         Program to identify and reach impacted populations more effectively. The
                         Regular Services Program funds up to nine months of services from the date
                         of the award notice, with potential extensions of up to three months,
                         contingent upon the ongoing need. For catastrophic disasters, the Regular
                         Services Program often is extended beyond three months.

                         The Crisis Counseling Program is intended to supplement – not supplant – a
                         state’s mental health program. The program is 100 percent FEMA-funded.
                         The Center for Mental Health Services under the U.S. Department of Health
                         and Human Services consults with state officials and helps ensure that
                         appropriate services are provided. Historically, only states receiving a disaster
                         declaration were eligible to receive funding for the Crisis Counseling
                         Program. Recognizing the special needs resulting from Hurricane Katrina and
                         the unprecedented relocation of disaster victims, FEMA, in consultation with
                         the Center for Mental Health Services, allowed states to apply for funding
                         without a disaster declaration; funding was provided through the existing
                         declarations. FEMA monitored applicant registrations from all states and
                         when a threshold of 150 was exceeded, FEMA coordinated with the Center
                         for Mental Health Services and contacted each State Emergency Management
                         Agency and State Mental Health Authority to invite applications for the
                         Immediate Services Program. As of November 17, 2005, 35 states and the
                         District of Columbia had met the threshold. The Immediate Services Program
                         was initiated for 33 states and the District of Columbia; FEMA approved
                         $24,423,729 to fund the program. 143




143
   FEMA Recovery Division, November 17, 2005. Two states decided not to initiate the Immediate Services Program
because needs were met through existing resources.

                               A Performance Review of FEMA’s Disaster Management Activities
                                             In Response to Hurricane Katrina

                                                         Page 151
                          Appendix B
                          FEMA’s Individual Assistance Programs


                          Disaster Unemployment Assistance

                          The Stafford Act authorizes FEMA to provide assistance to any unemployed
                          individual whose employment or self-employment was interrupted as a direct
                          result of a declared disaster and who is not eligible for regular state
                          Unemployment Insurance or other supplemental income. The Disaster
                          Unemployment Assistance program provides financial assistance until
                          applicants resume work or their customary employment, traditionally up to 26
                          weeks. Disaster Unemployment Assistance was not designed as an income
                          replacement program. The amount of assistance is authorized by a state’s
                          regular unemployment program. Through a delegation of authority by FEMA,
                          the U.S. Department of Labor oversees and coordinates the program. The
                          program is 100 percent FEMA-funded and administered by state agencies
                          responsible for providing unemployment services and insurance.

                          Eligible applicants received at least the minimum benefit rate, estimated at
                          $86 per week in Mississippi, $89 per week in Alabama, and $98 per week in
                          Louisiana at the time of Hurricane Katrina. 144 Applicants qualifying for the
                          maximum amount could receive $210, $220, or $258 per week respectively.
                          Gaps may exist between an applicant’s day-to-day living expenses and
                          Disaster Unemployment Assistance benefit amounts, which could be
                          considerably less than the weekly pay of most. As of September 30, 2005,
                          approximately 67,769 claims were received in all three affected states and
                          66,806 claims (98.6 percent) were approved, totaling $18,982,565. 145

                                             Hurricane Katrina Disaster Unemployment Assistance
                                                                as of 09/30/05
                                                      DUA        DUA         First      Amount
                                       State
                                                     Claims    Eligible Payments      Compensated
                                       Louisiana       55,950      55,950      55,950    $15,121,129
                                       Mississippi     10,285      10,238       8,409     $3,788,968
                                       Alabama          1,534         618         333        $72,468
                                       Total           67,769      66,806      64,692    $18,982,565


                          After Hurricanes Charley, Frances, Ivan, and Jeanne struck Florida during the
                          2004 hurricane season, approximately 14,761 claims were received during a
                          comparable period and 12,698 claims (86 percent) were approved, totaling
                          $2,489,619.



144
    The minimum Disaster Unemployment Assistance benefit amount is based on 50 percent of the average weekly
benefit amount for regular unemployment insurance within a state. For Hurricane Katrina, the initial minimum amount
was based upon the average of total unemployment benefits from 04/01/04 to 03/31/05 within each state.
145
    U.S. Department of Labor, data as of September 30, 2005.

                                A Performance Review of FEMA’s Disaster Management Activities
                                              In Response to Hurricane Katrina

                                                           Page 152
                          Appendix B
                          FEMA’s Individual Assistance Programs


                                          Disaster Unemployment Assistance for 2004 Hurricanes 146
                                                      DUA      DUA        First        Amount
                                       Hurricane
                                                     Claims   Eligible Payments      Compensated
                                       Charley          3,283     3,244      1,770          $779,529
                                       Frances          6,888     5,984      2,946        $1,197,349
                                       Ivan             2,811     2,654      1,242          $352,292
                                       Jeanne           1,779       816        342          $160,449
                                       Total           14,761    12,698      6,300        $2,489,619


                          The higher than average approval rate in the Hurricane Katrina affected states
                          may have occurred as a result of the Department of Labor’s decision to extend
                          the 21-day filing period for applicants to provide supporting documentation to
                          90 days. Due to the widespread evacuation and limited access to appropriate
                          documentation, many workers would likely be unable to present
                          documentation within 21 days. As of November 17, 2005, FEMA had
                          obligated the following funds to three affected states for Disaster
                          Unemployment Assistance: Louisiana – $94,402,248; Mississippi –
                          $28,400,000; and Alabama – $1,150,000.

                          Legal Services

                          FEMA is authorized by the Stafford Act to provide legal services to help low-
                          income victims with issues such as landlord and tenant relationships,
                          employment, immigration, and insurance provisions. Assistance is also
                          available to address issues with credit and bankruptcy, will validity, trusts and
                          estates, real property, and powers of attorney. The Disaster Legal Services
                          program was implemented for Hurricane Katrina with eligibility criteria used
                          in previous disasters. Attorneys work pro bono and FEMA reimburses
                          eligible administrative costs through the Young Lawyers Division of the
                          American Bar Association. FEMA believes the program is cost effective
                          because the work is pro bono and many lawyers, firms, and organizations
                          donate legal services outside FEMA programs. Within the affected areas, the
                          program was implemented as intended. As of November 23, 2005, legal
                          services assistance totaled $21,400. 147

                          Coordination with Voluntary Organizations

                          FEMA is authorized by the Stafford Act to coordinate the activities of
                          voluntary organizations to the extent that they “agree to cooperate under this
                          advice or direction.” Under ESF-6, FEMA exercised its lead responsibility in

146
    U.S. Department of Labor, Hurricane Charley data as of September 30, 2004; Hurricane Frances data as of October
31, 2004; Hurricane Ivan data as of October 31, 2004; and, Hurricane Jeanne data as of November 30, 2004.
147
    FEMA Recovery Division, November 23, 2005.

                                A Performance Review of FEMA’s Disaster Management Activities
                                              In Response to Hurricane Katrina

                                                            Page 153
Appendix B
FEMA’s Individual Assistance Programs


an environment of consensus that allowed the Voluntary Organizations Active
in Disaster to carry out their missions in a coordinated manner. VOADs
typically provide immediate emergency assistance to victims while FEMA
addresses shorter and longer-term recovery needs. Near the end of the
recovery phase, VOADs address victims’ unmet needs.

FEMA is required by the Stafford Act to ensure that benefits are not
duplicated among disaster programs, insurance benefits, or any other types of
disaster assistance. FEMA traditionally has not considered the assistance of
voluntary organizations to be duplicative of its assistance programs. For
example, the Red Cross provides food and water to affected communities
through fixed feeding sites and emergency response vehicles that canvass
neighborhoods with hot meals, water, and snacks. These programs are
separate from any assistance provided by FEMA and other government
agencies.

Small Business Administration Loans Address More Permanent Needs

While disaster assistance is available through FEMA’s IHP, most federal
disaster assistance is provided through loans from SBA, which must be repaid.
IHP applicants may be required to first seek assistance from SBA before being
considered for certain types of IHP assistance.

SBA reviews the income-to-debt ratio of those who apply to determine
whether applicants are eligible for loans. Based on this information, SBA
determines whether the applicant has the resources to repay the loan.
Applicants who cannot afford a loan or do not qualify will be referred back to
FEMA to determine eligibility for IHP grant assistance.

Under SBA’s Disaster Loan Program, homeowners may apply for real
property loans of up to $200,000 to repair or restore a primary residence
damaged in a declared disaster area to its pre-disaster condition, but may not
use the funds to upgrade homes or make additions. The loan amount depends
on the cost of repairing or replacing the home, less any insurance settlements
or grants. Any proceeds from insurance coverage on the property or home
would be deducted from the total damage to the property to determine the
eligible loan amount.

In addition, renters and homeowners may borrow up to $40,000 in personal
property loans to repair or replace clothing, furniture, cars, or appliances
damaged or destroyed in the disaster. For applicants unable to obtain credit
elsewhere the interest rate does not exceed four percent. For those who can

      A Performance Review of FEMA’s Disaster Management Activities
                    In Response to Hurricane Katrina

                                Page 154
Appendix B
FEMA’s Individual Assistance Programs


obtain credit elsewhere, the interest rate is no more than eight percent. The
SBA offers terms of up to 30 years for repayment, which are determined on a
case-by-case basis. For Hurricane Katrina, SBA provided the following data
on loan applications for homeowners and renters.

                         SBA Disaster Loan Information by State
                                   through of 09/30/05
        State           Cumulative    Applications Applications     Amount
                      FEMA Referrals Received by Approved by      Approved by
                         to SBA           SBA           SBA          SBA
        Mississippi      290,286         10,089          95          $7,661,700
        Alabama           57,876         1,791           43          $1,497,100
        Louisiana        636,050         17,195         136          $5,336,100


By September 30, 2005, SBA had approved 274 applications for $14,494,900
in Mississippi, Alabama, and Louisiana; and, by November 23, 2005, had
approved 8,979 applications for $633,146,300 within the affected states.




      A Performance Review of FEMA’s Disaster Management Activities
                    In Response to Hurricane Katrina

                                Page 155
                           Appendix C
                           FEMA’s Public Assistance Program and Eligible Work




FEMA’s Public Assistance Program
                           FEMA’s Public Assistance program provides supplemental federal disaster
                           grants for the repair, replacement, reconstruction, or restoration of disaster-
                           damaged, publicly owned facilities and the facilities of certain private non-
                           profit organizations, and for the reimbursement of eligible emergency related
                           activities such as debris removal and emergency protective measures. 148 The
                           federal share of assistance is at least 75 percent of the eligible cost. The state
                           determines how the non-federal share (up to 25 percent) is split among
                           applicants; eligible applicants are state agencies, local governments, certain
                           private non-profit organizations, and federally recognized Indian tribes or
                           tribal organizations. 149

                           To be eligible for assistance, the work must be required as the result of the
                           disaster, be located within the designated disaster area, and be the legal
                           responsibility of an eligible applicant. Eligible work is categorized as either
                           “emergency work” or “permanent work.” Emergency work is defined as work
                           that must be done immediately to save lives and protect improved property
                           and public health and safety, or to avert or lessen the threat of a major
                           disaster. 150

                           Emergency Work

                                Category A: Debris Removal
                                Clearance of trees and woody debris; building wreckage; sand, mud, silt,
                                and gravel; vehicles; and other disaster-related material deposited on
                                public and, in very limited cases, private property

                                Category B: Emergency Protective Measures
                                Measures taken before, during, and after a disaster to save lives, protect
                                public health and safety, and to protect improved public and private
                                property




148
    Stafford Act, P.L. 93-288, as amended, Sections 403, 406, 407, 418, and 419.
149
    Certain eligible private non-profit organization facilities must be open to the public and perform essential services of
a governmental nature.
150
    44 CFR §206.201(b)

                                   A Performance Review of FEMA’s Disaster Management Activities
                                                 In Response to Hurricane Katrina

                                                                Page 156
                             Appendix C
                             FEMA’s Public Assistance Program and Eligible Work


                             Permanent Work

                                  Category C: Roads and Bridges
                                  Repair of roads, bridges, and associated features, such as shoulders,
                                  ditches, culverts, lighting and signs

                                  Category D: Water Control Facilities
                                  Repair of irrigation systems, drainage channels, and pumping facilities.
                                  Repair of levees, dams, and flood control channels fall under Category D,
                                  but the eligibility of these facilities is restricted (Permanent repair of Flood
                                  Control Works is the responsibility of the U.S. Army Corps of Engineers
                                  and the Natural Resources Conservation Service)

                                  Category E: Buildings and Equipment
                                  Repair or replacement of buildings, including their contents and systems;
                                  heavy equipment; and vehicles

                                  Category F: Utilities
                                  Repair of water treatment and delivery systems; power generation
                                  facilities and distribution lines; and sewage collection and treatment
                                  facilities

                                  Category G: Parks, Recreational Facilities, and Other Items
                                  Repair and restoration of parks, playgrounds, pools, cemeteries, and
                                  beaches. Also, this category is used for any work or facility that cannot be
                                  characterized adequately by Categories A-F

                             The state serves as the grant administrator for all funds provided under the
                             program and also is considered the grantee, which then provides funds to
                             subgrantees, such as local governments. 151 Small projects, estimated to be
                             less than $51,000, are funded based on an approved project cost estimate.
                             Large projects, estimated to be $51,000 or more, are funded based upon the
                             actual cost of the project. The state or grantee may provide advances or
                             progress payments to subgrantees on large projects as work is completed.

                             The President’s pre-landfall emergency declarations in Louisiana, Mississippi,
                             and Alabama authorized federal funds under the Public Assistance program
                             for debris removal and emergency protective measures (Categories A and B)
                             at 75 percent. Major disaster declarations in all three states on


151
      Federally recognized tribes and tribal organizations may also be their own grantee if approved by FEMA.

                                    A Performance Review of FEMA’s Disaster Management Activities
                                                  In Response to Hurricane Katrina

                                                                Page 157
Appendix C
FEMA’s Public Assistance Program and Eligible Work


August 29, 2005, authorized FEMA to provide Public Assistance for debris
removal and emergency protective measures at 100 percent federal share for a
period of up to 72 hours. However, the President amended the cost sharing
arrangements two days later and authorized funding for debris removal and
emergency protective measures at 100 percent of total eligible costs for a
60-day period, retroactive to August 29, 2005. The vast majority of work
requested by the affected states as of October 1, 2005, was for emergency
protective measures and debris removal. As of October 1, 2005, FEMA had
received a total of 430 projects and obligated more than $962 million.




      A Performance Review of FEMA’s Disaster Management Activities
                    In Response to Hurricane Katrina

                                Page 158
              Appendix D
              The National Incident Management System




Command and Management Under NIMS
              To the extent possible, disasters are managed locally; most responses do not
              exceed the capabilities of the local government. However, some incidents
              require multiple jurisdictions or levels of government to provide an adequate
              response. In addition, some incidents initially can be handled locally but grow
              in size or complexity and require assistance and support beyond what is
              available at the local level. The NIMS provides an effective and efficient
              coordination system to enable multiple entities at different levels of
              government to conduct incident management activities.

              The NIMS uses two levels of management structures depending on the size,
              nature, and complexity of the incident. First, an ICS is a standard on-scene,
              all-hazard incident management system that allows users to establish an
              integrated organizational structure to respond to single or multiple incidents.
              Second, Multiagency Coordination Systems provide a common framework to
              integrate and support incident management and coordination for incident
              prioritization, critical resource allocation, integration of communication
              systems, and information flow.

              The Incident Command System

              The ICS structure is designed to enable effective and efficient domestic
              incident management by integrating a combination of facilities, equipment,
              personnel, procedures, and communications operating within a common
              organizational structure. The ICS structure is widely applicable to a variety of
              emergencies from small and basic to large and complex, whether natural or
              man-made. It applies across all levels of government, the private sector, and
              nongovernmental organizations, as well as across multiple functional
              disciplines. Several characteristics enable ICS to efficiently and effectively
              manage incidents:

                  •    Use of common terminology;
                  •    Scalable, top-down modular system based on the size, complexity, and
                       nature of the incident;
                  •    Incidents managed by objectives established by the incident command;
                  •    Use of incident action plans to communicate strategic objectives and
                       operational and support activities to the incident command
                       organization;
                  •    Span of control ranging from three to seven subordinates;
                  •    Designation of one supervisor for each individual for the incident;

                      A Performance Review of FEMA’s Disaster Management Activities
                                    In Response to Hurricane Katrina

                                                Page 159
Appendix D
The National Incident Management System


    •    Clear chain of command and authority within the organization; and,
    •    Use of communication plans and interoperable communications
         systems.

    ICS Organization

The ICS structure usually includes five major functional areas: command,
operations, planning, logistics, and finance/administration. Depending on the
size and complexity of the incident, additional functional or geographic
branches or divisions can be included within one or more of the major
functional areas. FEMA used all five major functional areas in each of the
affected states.




    •    Incident Command: The Incident Commander is responsible for
         overall management of the incident. This can be accomplished
         through a single command or a unified command. Under a single
         command, the Incident Commander develops the strategic incident
         objectives, approves the incident action plan, and approves all requests
         for ordering and releasing incident resources.

         Unified command is used for incidents involving multiple agencies or
         jurisdictions. Under unified command, multiple agencies and
         jurisdictions are able to work together effectively without

        A Performance Review of FEMA’s Disaster Management Activities
                      In Response to Hurricane Katrina

                                  Page 160
Appendix D
The National Incident Management System


         compromising their different legal, geographic, and functional
         authorities and responsibilities. Designated members of each agency
         work together to develop a common set of objectives and strategies for
         the entire incident and jointly plan support activities under a single
         incident action plan. As a result, unified command improves
         information flow, communication, and coordination and reduces
         duplication of efforts. For Hurricane Katrina, Mississippi and
         Alabama established unified commands from the start, while
         Louisiana did not.

    •    Operations: The Operations Section is responsible for activities
         dedicated to reducing the immediate hazard, saving and sustaining
         lives and property, establishing situational awareness and control, and
         restoring normal operations. ICS provides flexibility for organizing
         incident operations depending on the nature of the incident, the
         agencies involved, and the strategic objectives set by the incident
         commander. Within the Operations Section, divisions or groups are
         established when resources involved exceed the Operations Section
         Chief’s manageable span of control. Divisions create geographical
         areas of operation. Groups create functional areas of operation. If the
         number of divisions or groups exceeds the manageable span of control
         or the incident involves multiple jurisdictions, branches would be
         established.

    •    Planning: The Planning Section gathers, evaluates, and disseminates
         situational information and intelligence critical to the incident;
         prepares situation reports and incident maps; maintains the status of
         incident resources; and develops the incident action plan based on the
         incident commander’s strategic objectives.

    •    Logistics: The Logistics Section provides support needs for the
         incident, including ordering resources from off-incident locations if
         not readily available in the incident area. Logistics provides facilities,
         transportation, supplies, equipment maintenance and fuel, food
         services, communications, and medical services for personnel.

    •    Finance/Administration: A Finance/Administration Section is
         established if an incident requires significant financial, reimbursement,
         or administrative support services. If established, this section monitors
         multiple sources of funds, tracks and reports funds spent or obligated,
         and reconciles operational records with financial records.


        A Performance Review of FEMA’s Disaster Management Activities
                      In Response to Hurricane Katrina

                                  Page 161
Appendix D
The National Incident Management System


Multiagency Coordination Systems

Multiagency coordination systems provide the framework to coordinate and
support incident management policies and priorities, facilitate logistics
support and resource tracking, make critical resource allocation decisions,
coordinate incident related information, and coordinate interagency and
intergovernmental issues regarding incident management policies, priorities,
and strategies. Facilities, equipment, personnel, procedures, and
communications are resources integrated into a multiagency coordination
system. Operational responsibility for incident management activities
remains, however, with the on-scene incident commander.

Both EOCs and multiagency coordination entities could be part of a
multiagency coordination system. EOCs, usually established at the state or
local level, are the physical location where core functions of coordination,
communications, resource dispatch and tracking, and information collection
are executed. Personnel from multiple jurisdictions or functional disciplines
may staff EOCs. For Hurricane Katrina, each affected state activated and
staffed its EOC following basic ICS positions and elements. This facilitated
coordination between federal and state counterparts, and ultimately,
integration when the incident command organization was established in each
state’s JFO. The HSOC was activated and executed the core EOC functions at
the federal level for Hurricane Katrina.

Multiagency coordination entities support and facilitate incident management,
coordinate policy, and provide strategic guidance and direction to support
incident management activities. These entities usually include representatives
from agencies or organizations with direct incident management responsibility
or significant support and resource responsibilities. Several multiagency
coordination entities were used during the Hurricane Katrina response,
including the NRCC, RRCCs, and the IIMG.




      A Performance Review of FEMA’s Disaster Management Activities
                    In Response to Hurricane Katrina

                                Page 162
                Appendix E
                The National Response Plan




The National Response Plan
                On April 14, 2005, the NRP superseded the Initial National Response Plan,
                the Federal Response Plan, the Domestic Terrorism Concept of Operations
                Plan, and the Federal Radiological Emergency Response Plan. The NRP
                references 70 statutes, regulations, executive orders, and presidential
                directives that outline the authorities and responsibilities of the signatories for
                domestic incident management. Thirty-two federal departments and service
                agencies agreed to support the NRP:

                                             National Response Plan Signatories
                Department of Agriculture                     Environmental Protection Agency
                Department of Commerce                        Federal Bureau of Investigation
                Department of Defense                         Federal Communications Commission
                Department of Education                       General Services Administration
                                                              National Aeronautics and Space
                Department of Energy                          Administration
                Department of Health and Human Services       National Transportation Safety Board
                Department of Homeland Security               Nuclear Regulatory Commission
                Department of Housing and Urban
                Development                                   Office of Personnel Management
                Department of Interior                        Small Business Administration
                Department of Justice                         Social Security Administration
                Department of Labor                           Tennessee Valley Authority
                Department of State                           U.S. Agency for International Development
                Department of Transportation                  U.S. Postal Service
                Department of the Treasury                    American Red Cross
                Department of Veteran Affairs                 Corporation of National Community Service
                                                              National Voluntary Organizations Active in
                Central Intelligence Agency                   Disaster

                The NRP consists of a base plan plus 31 annexes:

                    •    Fifteen ESF annexes: The 15 ESF annexes categorize emergency
                         services that are likely to be needed during a domestic incident, such
                         as transportation, urban search and rescue, and food. These annexes
                         provide for service planning, support, resources, and program
                         implementation.


                        A Performance Review of FEMA’s Disaster Management Activities
                                      In Response to Hurricane Katrina

                                                   Page 163
                 Appendix E
                 The National Response Plan


                     •    Nine support annexes: These annexes explain crosscutting processes
                          and administrative requirements, such as logistics management and
                          public affairs.

                     •    Seven incident annexes: The incident annexes explain how the NRP
                          will be tailored to address particular events including catastrophic,
                          terrorism, and biological incidents.

                 The NRP designates lead and support agencies for administering each annex.
                 A chart of the 15 ESFs and the agencies responsible for their coordination is
                 on page 31.

                 DHS has primary responsibility for the Catastrophic Incident Annex. The
                 DHS Secretary officially activates this annex when needed. According to the
                 NRP, a catastrophic event is any incident “that results in extraordinary levels
                 of mass casualties, damage, or disruption severely affecting the population,
                 infrastructure, environment, economy, national morale, and/or government
                 functions.” 152 The Catastrophic Incident Annex applies to any kind of
                 incident of this scale, whether caused by a natural hazard or man-made. For
                 such incidents, the NRP requires a proactive federal response, including rapid
                 deployment of specific teams and resources. The Catastrophic Incident
                 Supplement to the annex specifies which teams and resources deploy on a
                 phased schedule. This supplement was published in September 2005, and
                 therefore was not finalized in advance of Hurricane Katrina.




152
      Page 43.

                         A Performance Review of FEMA’s Disaster Management Activities
                                       In Response to Hurricane Katrina

                                                   Page 164
                  Appendix F
                  Comparison of PFO and FCO Duties




                   Comparison of PFO and FCO Duties Under the National Response Plan
                          PFO                                                       FCO
Designated by the Secretary of Homeland Security,      Appointed by the President to coordinate the federal
as necessary, to facilitate federal support to         response effort for a specified emergency or major
established incident command structures and            disaster declaration; manages and coordinates the
coordinate overall federal incident management and application of programs and funds under the Stafford
assistance to officials such as the FCO                Act, including mission assignments and resource
                                                       allocation
Provides real-time incident information to the         When delegated from the DHS/EPR/FEMA Regional
Secretary of Homeland Security through the HSOC        Director, serves as Disaster Recovery Manager (DRM)
and the IIMG, as required                              to administer the financial aspects of assistance
                                                       authorized under the Stafford Act
Ensures the seamless integration of federal activities Taking other such action consistent with the authority
in support of and in coordination with state, local,   delegated to him/her as deemed necessary to assist local
and tribal requirements                                citizens and public officials in promptly obtaining
                                                       assistance to which they are entitled
Serves as a primary, although not exclusive, point of Working in partnership with the State Coordinating
contact for federal interface with state, local, and   Officer (appointed by the governor to oversee operations
tribal senior elected/appointed officials, the media,  for the state) and the Governor’s Authorized
and the private sector                                 Representative (empowered by the governor to execute
                                                       all necessary documents for federal assistance on behalf
                                                       of the state)
Ensures that adequate connectivity is maintained       Conducts an initial appraisal of the types of assistance
between the JFO and the HSOC; local, county,           most urgently needed
state, and regional EOCs; nongovernmental EOCs;
and relevant elements of the private sector
Ensures overall coordination of federal domestic       Coordinates the timely delivery of federal assistance to
incident management and resource allocation            affected state, local, and tribal governments and disaster
activities                                             victims
Coordinates response resource needs between            Coordinates the administration of relief, including
multiple incidents as necessary, or as directed by the activities of the state and local governments, and other
Secretary of Homeland Security                         relief or disaster assistance organizations, which agree to
                                                       operate under his/her advice or direction
Facilitates interagency conflict resolution as         Establishes such field offices as deemed necessary and
necessary                                              authorized by the President
Participates in ongoing steady-state preparedness
efforts (as appropriate for PFOs designated in a
“pre-incident” mode, when a threat can be ascribed
to a particular geographic area)
Provides strategic guidance to federal entities
Coordinates the overall federal strategy locally to
ensure consistency of federal interagency
communications to the public




                         A Performance Review of FEMA’s Disaster Management Activities
                                       In Response to Hurricane Katrina

                                                     Page 165
Appendix G
National Voluntary Organizations Active in Disaster


The following is a list of some of the organizations that contributed to the response,
relief, and recovery efforts during the hurricanes the affected the Gulf Coast region
and continue to provide assistance to help families recover.

Members – National Voluntary Organizations Active in Disaster

    •    Adventist Community Services
    •    America’s Second Harvest
    •    American Baptist Men
    •    American Radio Relay League
    •    American Red Cross
    •    AMURT (Ananda Marga Universal Relief Team)
    •    Catholic Charities USA
    •    Center for International Disaster Information
    •    Christian Disaster Response International
    •    Christian Reformed World Relief Committee
    •    Church of the Brethren –Emergency Response/Service Ministries
    •    Church World Service
    •    Convoy of Hope
    •    Disaster Psychiatry Outreach
    •    Episcopal Relief and Development
    •    Friends Disaster Service, Inc.
    •    The Humane Society of the United States
    •    International Aid
    •    International Critical Incident Stress Foundation
    •    International Relief Friendship Foundation
    •    Lutheran Disaster Response
    •    Mennonite Disaster Service
    •    Mercy Medical/Angel Flight America
    •    National Emergency Response Teams (NERT)
    •    National Organization for Victim Assistance
    •    Nazarene Disaster Response
    •    Northwest Medical Teams International
    •    The Points of Light Foundation and Volunteer Center National Network
    •    Presbyterian Church (U.S.A.)
    •    REACT International, Inc.
    •    The Salvation Army
    •    Society of St. Vincent de Paul
    •    Southern Baptist Convention – North American Mission Board
    •    United Jewish Communities
    •    United Church of Christ – Wider Church Ministries
    •    United Methodist Committee on Relief (UMCOR)
    •    United Way of America
    •    Volunteers of America

        A Performance Review of FEMA’s Disaster Management Activities
                      In Response to Hurricane Katrina

                                  Page 166
Appendix G
National Voluntary Organizations Active in Disaster


    •    World Vision

Members of State, County, City VOADs also Providing Services

    •    Christian Appalachian Project
    •    Christian Contractors Association (FLVOAD)
    •    United Jewish Federation of New York

Friends of VOAD (These organizations have long standing relationships with
National VOAD)

    •    Church of Jesus Christ of Latter Day Saints
    •    Compassion Alliance
    •    Hope Coalition America
    •    Samaritan’s Purse International Relief
    •    Scientology Disaster Response

Other Organizations Providing Services and Accepting Donations

    •    Alzheimer’s Association
    •    AmeriCares
    •    American Kennel Club
    •    American Veterinary Medical Foundation
    •    Blacks in Government
    •    NIEHS, Research Triangle Park Chapter
    •    Brother’s Brother Foundation
    •    Children’s Hunger Fund
    •    Christian Children’s Fund
    •    Churches of Christ Disaster Relief Effort
    •    Green Cross Assistance Program
    •    Habitat for Humanity
    •    HOPE worldwide
    •    His Work In Progress
    •    Independent Charities of America (ICA)
    •    International Medical Corps
    •    International Rescue Committee
    •    Islamic Circle of North American Relief (ICNA Relief USA)
    •    Islamic Relief USA
    •    Mercy Corps
    •    National Alliance on Mental Illness
    •    Orphans International Worldwide
    •    Orthodox Christian Charities
    •    Save the Children
    •    World Relief

        A Performance Review of FEMA’s Disaster Management Activities
                      In Response to Hurricane Katrina

                                  Page 167
Appendix H
FEMA Consolidated Shelter Report




      A Performance Review of FEMA’s Disaster Management Activities
                    In Response to Hurricane Katrina

                                Page 168
Appendix H
FEMA Consolidated Shelter Report




      A Performance Review of FEMA’s Disaster Management Activities
                    In Response to Hurricane Katrina

                                Page 169
Appendix I
Disaster Recovery Centers: Location Map




      A Performance Review of FEMA’s Disaster Management Activities
                    In Response to Hurricane Katrina

                                Page 170
Appendix J
Disaster Recovery Centers: Hours of Operation




   Hurricane Katrina Fixed Disaster Recovery Centers
                  Operational Hours
                 August 24, 2005, to September 30, 2005

                                           Louisiana
    #      Parish                 City                     Opening Date   Operational
    1      Caddo                  Shreveport               09/06/2005     9am-7pm
    2      Ouachita               Monroe                   09/06/2005     9am-7pm
    3      Iberville              Plaquemine               09/08/2005     9am-7pm
    4      Lafayette              Lafayette                09/09/2005     9am-7pm
    5      Rapides                Alexandria               09/10/2005     9am-7pm
    6      Webster                Minden                   09/14/2005     9am-7pm
    7      Plaquemines            Belle Chase              09/14/2005     8am-6pm
    8      E. Baton Rouge         Baton Rouge              09/15/2005     9am-7pm
    9      Washington             Bogalusa                 09/16/2005     9am-7pm
    10     Washington             Franklinton              09/16/2005     9am-7pm
    11     Avoyelles              Marksville               09/17/2005     9am-7pm
    12     St. Tammany            Slidell                  09/19/2005     9am-7pm
    13     Orleans                Algiers                  09/19/2005     9am-7pm
    14     St. James              Vacherie                 09/20/2005     9am-7pm
    15     LaFourche              Thibodeaux               09/20/2005     9am-7pm
    16     St. Charles            Boutte                   09/20/2005     9am-7pm
    17     St. John the Baptist   LaPlace                  09/27/2005     9am-7pm
    18     Ascension              Gonzales                 09/27/2005     9am-7pm
    19     Jefferson              Gretna                   09/28/2005     9am-7pm
    20     LaFourche              Raceland                 09/29/2005     9am-7pm
    21     Iberia                 New Iberia               09/29/2005     9am-7pm
    22     Tangipahoa             Amite                    09/30/2005     9am-7pm
    23     Livingston             Walker/Denham Springs    09/30/2005     9am-7pm



                                          Alabama
    #       City                  Opening Date            Operational
    1       Bayou La Batre        09/02/2005              8am-6pm Closed Sunday
    2       Chatom                09/03/2005              8am-6pm Closed Sunday
    3       Bay Minette           09/05/2005              7am-7pm
    4       Robertsdale           09/05/2005              7am-7pm
    5       Foley                 09/11/2005              8am-6pm Closed Sunday
    6       Mobile                09/18/2005              8am-6pm Closed Sunday
    7       Montgomery            09/18/2005              8am-6pm Closed Sunday
    8       Mobile                09/21/2005              8am-6pm Closed Sunday
    9       Birmingham            09/23/2005              8am-6pm Closed Sunday
    10      Livingston            09/30/2005              8am-6pm Closed Sunday




         A Performance Review of FEMA’s Disaster Management Activities
                       In Response to Hurricane Katrina

                                      Page 171
Appendix J
Disaster Recovery Centers: Hours of Operation




     Hurricane Katrina Fixed Disaster Recovery Centers
                    Operational Hours
                   August 24, 2005, to September 30, 2005

                                       Mississippi
    #      City                   Opening Date               Operational
    1      Ocean Springs           09/06/2005          8am-6pm; Sunday 1pm-6pm
    2      Pascagoula              09/09/2005                 8am-6pm
    3      Moss Point              09/09/2005          8am-6pm; Sunday 1pm-6pm
    4      Poplarville             09/12/2005          8am-6pm; Sunday 1pm-6pm
    5      Waveland                09/08/2005          8am-6pm; Sunday 1pm-6pm
    6      Gulfport                09/15/2008          8am-6pm; Sunday 1pm-6pm
    7      Biloxi                  09/15/2005          8am-6pm; Sunday 1pm-6pm
    8      Jackson                 09/19/2005          8am-6pm; Sunday 1pm-6pm
    9      Purvis                  09/19/2005          8am-6pm; Sunday 1pm-6pm
    10     Picayune                09/20/2005          8am-6pm; Sunday 1pm-6pm
    11     Pass Christian          09/19/2005          8am-6pm; Sunday 1pm-6pm
    12     McComb                  09/24/2005          8am-6pm; Sunday 1pm-6pm
    13     Hattiesburg             09/25/2005          8am-6pm; Sunday 1pm-6pm
    14     Laurel                  09/25/2005          8am-6pm; Sunday 1pm-6pm
    15     Woodville               09/27/2005          8am-6pm; Sunday 1pm-6pm
    16     Biloxi                  09/29/2005          8am-6pm; Sunday 1pm-6pm
    17     Wiggins                 09/30/2005          8am-6pm; Sunday 1pm-6pm




         A Performance Review of FEMA’s Disaster Management Activities
                       In Response to Hurricane Katrina

                                   Page 172
        Appendix K
        Agencies Receiving Mission Assignments




        Cumulative Listing of Agencies Receiving Mission Assignments for All Three States
                            For the Period August 28 - September 30, 2005
American Red Cross                                 National Communications System (DHS)
Animal and Plant Health Inspection Service         National Credit Union Administration
Border and Transportation Security (DHS)           National Geospatial-Intelligence Agency
Center for Disease Control                         National Labor Relations Board
Corporation for National and Community Service National Oceanic and Atmospheric Administration
Customs and Border Protection (DHS)                National Science Foundation
Department of Agriculture                          Nuclear Regulatory Commission
Department of Commerce                             Occupational Safety and Health Administration
Department of Defense                              Office of the Chief Financial Officer (DHS)
Department of Education                            Office of Personnel Management
Department of Energy                               Office of State and Local Government Coordination
                                                   and Preparedness (DHS)
Department of Health and Human Services            Railroad Retirement Board
Department of Housing and Urban Development        Science and Technology Directorate (DHS)
Department of Interior                             Securities and Exchange Commission
Department of Justice                              Social Security Administration
Department of Labor                                Soil Conservation Service
Department of Transportation                       Tennessee Valley Authority
Department of Treasury                             Transportation Security Administration (DHS)
Environmental Protection Agency                    U.S. Agency for International Development
Federal Law Enforcement Training Center (DHS) U.S. Army Corps of Engineers
Federal Protective Service (DHS)                   U.S. Citizen and Immigration Services (DHS)
Food and Nutrition Service                         U.S. Coast Guard (DHS)
General Services Administration                    U.S. Forest Service
Immigration and Customs Enforcement (DHS)          U.S. Geological Survey
Information Analysis and Infrastructure Protection U.S. Postal Service
(DHS)
Merit Systems Protection Board                     U.S. Public Health Service
National Aeronautic and Space Administration       U.S. Secret Service (DHS)
National Archives and Records Administration       U.S. Small Business Administration
                                                   Veterans Administration




               A Performance Review of FEMA’s Disaster Management Activities
                             In Response to Hurricane Katrina

                                         Page 173
                             Appendix L
                             Mission Assignment Descriptions




                                                        Louisiana
                  State Requests for Specific Types of Assistance from August 29 to September 30, 2005
                                            MA
      #           Tasked Agency             Type      Date                         Description
       1   Corporation for National           DFA 153   08/31/05     Pharmaceuticals and other necessary medical supplies
           Community Service
       2   U.S. Army Corps of Engineers        DFA      08/29/05     Procure, transport, and distribute bags of ice
       3   U.S. Army Corps of Engineers        DFA      08/29/05     Emergency power generation
       4   U.S. Army Corps of Engineers        DFA      08/29/05     Acquire, transport, and distribute bottled/bulk water
       5   U.S. Army Corps of Engineers        DFA      08/30/05     Temporary roofing support, provide temporary roofing, and
                                                                     coordinate roofing activities
       6   U.S. Army Corps of Engineers        DFA      08/30/05     Housing planning support
       7   U.S. Army Corps of Engineers        DFA      08/30/05     Emergency debris clearance, removal, and disposal site
                                                                     management
       8   U.S. Army Corps of Engineers        DFA      08/30/05     Complete a series of levee breaches to lower the water to level
                                                                     of the surrounding lakes/marshes, then repair the levee
                                                                     breaches, and repair and operate pumps to remove the
                                                                     remaining water
       9   U.S. Army Corps of Engineers        DFA      08/31/05     Housing Planning support
      10   U.S. Army Corps of Engineers        DFA      08/31/05     Dredging services for specified waterways
      11   U.S. Army Corps of Engineers        DFA      09/03/05     Engineering and construction support to DMORTS
      12   Department of Housing and           DFA      09/27/05     Transitional housing assistance
           Urban Development
      13   Department of Defense               DFA      08/31/05     Helicopter support to move 2,500 victims per day
      14   Department of Defense               DFA      08/31/05     Support rotary air operations for search and rescue and levee
                                                                     reparations
      15   Department of Defense               DFA      09/01/05     Airlift support to transport an estimated 10,000 evacuees from
                                                                     New Orleans to Houston, Texas, and San Antonio, Texas
      16   Department of Defense               DFA      09/02/05     Meals ready-to-eat (MREs)
      17   Department of Defense               DFA      09/02/05     High-water vehicles
      18   Department of Defense               DFA      09/04/05     Temporary housing support at NAS New Orleans
      19   Department of Defense               DFA      09/06/05     Trucks/drivers for supplies and personnel
      20   Department of Defense               DFA      09/22/05     Sheltering area for LA NG troops
      21   Department of Education             DFA      09/15/05     Personnel to facilitate appropriate communication and
                                                                     coordination regarding displaced students that have been
                                                                     relocated nationwide
      22   Department of Transportation        DFA      09/03/05     Air transportation for evacuation of critical medical patients
      23   Department of Transportation        DFA      09/03/05     Transportation assistance
      24   Department of Transportation        DFA      09/18/05     Supplemental emergency transportation
      25   Environmental Protection Agency     DFA      08/29/05     Activate EPA to support FEMA
      26   Environmental Protection Agency     DFA      09/01/05     Removal and disposal of actual and potential oil discharges
                                                                     releases of hazardous material, pollutants and contaminants
      27   General Service Administration      DFA      09/03/05     Medical service package
      28   Health and Human Services           DFA      08/31/05     Medical personnel to support hospital, clinic and medical
                                                                     special needs shelters


153
   Direct federal assistance consists of goods and services provided directly from the federal government to affected
state and local jurisdictions when they lack the capability to perform or contract for eligible emergency work (such as
providing debris removal, potable water, emergency medical services, and urban search and rescue). A Presidential
emergency or major disaster declaration must be issued before direct federal assistance can be provided.

                                     A Performance Review of FEMA’s Disaster Management Activities
                                                   In Response to Hurricane Katrina

                                                                   Page 174
                             Appendix L
                             Mission Assignment Descriptions


      29   Health and Human Services             DFA      08/31/05     Technical expertise, to determine requirements, if any, for
                                                                       vector control
      30   Health and Human Services             DFA      08/31/05     Deliver 500 beds and associated supplies to the Strategic
                                                                       National Stockpile vender supply chain
      31   Health and Human Services             DFA      09/06/05     Mental health professionals
      32   Health and Human Services             DFA      09/07/05     Veterinarians to assist with large and small animal care and
                                                                       carcass disposal issues
      33   Health and Human Services             DFA      09/08/05     Deliver 1000 beds and associated supplies to the Strategic
                                                                       National Stockpile vender supply chain
      34   Health and Human Services             DFA      09/09/05     General health and medical assistance
      35   Immigration and Customs               DFA      09/27/05     Law enforcement support
           Enforcement
      36   Coast Guard                           DFA      09/01/05     Air and ground support to perform lifesaving and, search and
                                                                       recovery missions
      37   Coast Guard                           DFA      09/05/05     Security personnel for law enforcement operations
      38   Department of Agriculture             DFA      09/16/05     Assistance with the removal and disposal of animal carcasses
      39   Department of Justice                 DFA      09/02/05     Air transportation
      40   Department of Justice                 DFA      09/03/05     Protective services
      41   Department of Justice                 DFA      09/10/05     Beds with staff to maintain custody and control of up to 1000
                                                                       inmates
      42   Department of Justice                 DFA      09/11/05     Transportation of inmates
      43   Department of Justice                 DFA      09/14/05     Law enforcement support
       1   U.S. Army Corps of Engineers          TA 154   08/30/05     Aid in accomplishing of priority missions
       2   Environmental Protection Agency        TA      09/01/05     Assessment of water and wastewater facilities and threats of
                                                                       oil, hazardous substances, pollutants or contaminants
       3   Health and Human Services              TA      09/10/05     Coordination of TB patients, tracking patients, coordinate
                                                                       distribution of drugs, and purchasing of supplies
       4   Department of Justice                  TA      09/22/05     Assist NOPD establish a law enforcement coordinating center
                                                                       in New Orleans and to reconstitute the NOPD and its
                                                                       supporting 911 system



                                                        Mississippi
                  State Requests for Specific Types of Assistance from August 30 to September 30, 2005
                                            MA
      #           Tasked Agency             Type      Date                         Description
       1   Corporation for National              DFA      09/03/05     Teams to manage donations of volunteers, goods, and cash.
           Community Service                                           Support the Blue Roof Project. Assist special needs clients
      2    U.S. Army Corps of Engineers          DFA      08/30/05     Emergency power planning and preparation support
      3    U.S. Army Corps of Engineers          DFA      08/30/05     Emergency debris clearance, removal, and disposal support
      4    U.S. Army Corps of Engineers          DFA      08/30/05     Temporary roofing support, provide temporary roofing, and
                                                                       coordinate roofing activities
      5    U.S. Army Corps of Engineers          DFA      09/07/05     Equipment/materials to make temporary repairs to the
                                                                       wastewater treatment plants and collection systems
      6    U.S. Army Corps of Engineers          DFA      09/10/05     Self-help tarps for small areas of roof damage
      7    U.S. Army Corps of Engineers          DFA      09/10/05     Design, develop, and construct, including installation utilities,
                                                                       sites for portable buildings to support public education and
                                                                       other public service entities

154
   Technical assistance is expertise provided to state and local jurisdictions when they have the resources but lack the
knowledge and skills needed to perform the required activity (such as hazardous materials assessment). Technical
assistance may be provided prior to a Presidential emergency or major disaster declaration.

                                       A Performance Review of FEMA’s Disaster Management Activities
                                                     In Response to Hurricane Katrina

                                                                     Page 175
                       Appendix L
                       Mission Assignment Descriptions


8    U.S. Army Corps of Engineers       DFA     09/29/05     Provide essential services including debris removal, provision
                                                             of temporary government facilities essential for government
                                                             operation and other measures to protect public health and
                                                             safety
9    Department of Defense              DFA     09/01/05     Purchase of pharmaceuticals and medical supplies that cannot
                                                             be immediately filled by HHS
10   Department of Defense              DFA     09/08/05     Emergency facility repair for displaced citizens, public
                                                             shelters, local infrastructure and utilities
11   Department of Defense              DFA     09/23/05     Provide berthing barges for displaced individuals
12   Department of Transportation       DFA     09/30/05     Emergency public transportation services in support of the Red
                                                             Cross and other essential government services
13   Department of Transportation       DFA     09/30/05     Emergency public transportation services to access essential
                                                             government and life sustaining services
14   Environmental Protection Agency    DFA     08/31/05     Removal and disposal of oil discharges and other hazardous
                                                             material, pollutants and contaminants and implement measures
                                                             to prevent potential releases
15   Environmental Protection Agency    DFA     09/17/05     Burn sites monitors
16   Environmental Protection Agency    DFA     09/19/05     Disposal of rotting, decaying putrescible type matter
17   Federal Protective Service         DFA     09/02/05     Federal Protection Service support
18   Federal Protective Service         DFA     09/15/05     Law enforcement support
19   Health and Human Services          DFA     08/31/05     Environmental health support to include the inspection of food,
                                                             potable water, sanitary waste, and other preventative medicine
                                                             activities
20   Health and Human Services          DFA     08/31/05     Medical staff support to include physicians, nurses, and
                                                             specialty staff
21   Health and Human Services          DFA     08/31/05     Providing staff support to and purchase pharmaceuticals and
                                                             medical supplies for MSDoH
22   Health and Human Services          DFA     09/02/05     One Strategic National Stockpile push package
23   Health and Human Services          DFA     09/02/05     Epidemiology disease surveillance support
24   Health and Human Services          DFA     09/07/05     Personnel and equipment to provide technical assistance/
                                                             assessment/surveillance activities to reduce vector borne pests
25   Health and Human Services          DFA     09/09/05     Supplement hospital capacity to provide collection point and
                                                             triage for special needs patients
26   Health and Human Services          DFA     09/11/05     Vaccines and ancillary supplies
27   Health and Human Services          DFA     09/16/05     Liaison to coordinate emergency dental services
28   Health and Human Services          DFA     09/20/05     Personnel to support CFHC services
29   Health and Human Services          DFA     09/22/05     Dental staff to operate temporary dental facility
30   Health and Human Services          DFA     09/20/05     Assess patients in mobile medical facilities and shelters for
                                                             replacement in nursing facilities, assisted living facilities and
                                                             personal care homes
31   Health and Human Services          DFA     09/23/05     Medical teams needed to address medical and mental health
                                                             concerns
32   National Aeronautics and Space     DFA     08/30/05     Use of NASA facility to house state emergency workers and
     Administration                                          vehicles, or specific services
33   National Communication System      DFA     09/11/05     Telephone service to for shelter information, donation of goods
                                                             and services, and volunteer placement provisions
34   National Communication System      DFA     09/19/05     Telephone service
35   Department of Agriculture          DFA     09/10/05     Resources to assist the state respond to animal and agricultural
                                                             issues
36   Department of Justice              DFA     09/14/05     Law enforcement support
37   Forest Service                     DFA     09/23/05     Fire fighting assistance to address fire threat
 1   Environmental Protection Agency    TA      08/30/05     Assessment of water and wastewater facilities and threats of
                                                             oil, hazardous substances, pollutants or contaminants


                              A Performance Review of FEMA’s Disaster Management Activities
                                            In Response to Hurricane Katrina

                                                           Page 176
                       Appendix L
                       Mission Assignment Descriptions


2   U.S. Army Corps of Engineers          TA     08/31/05     Aid in accomplishing of priority missions
3   Health and Human Services             TA     09/01/05     Expertise to estimate the amount and duration of federal
                                                              support needed to augment hospital staffing
4   Health and Human Services             TA     09/04/05     Expertise to assess damage to community water supplies
5   Department of Agriculture             TA     09/10/05     Technical assistance
6   Forest Service                        TA     09/10/05     FEMA liaison to county emergency manager providing
                                                              guidance and advice on available FEMA recovery and
                                                              response assistance
7   Health and Human Services             TA     09/17/05     Expertise needed to assist utility companies, and to monitor
                                                              and track water and wastewaters systems as they come on line



                                                   Alabama
           State Requests for Specific Types of Assistance from September 1 to September 30, 2005
                                       MA
#          Tasked Agency              Type      Date                         Description
1   Corporation for National             DFA     09/04/05     Personnel to support call centers, warehouses and distribution
    Community Service                                         systems for management of donations and volunteers, and
                                                              other services and facilities
2   U.S. Army Corps of Engineers         DFA     09/01/05     Emergency debris clearance, removal, and disposal support
3   U.S. Army Corps of Engineers         DFA     09/05/05     Temporary housing support. Design, site development and
                                                              construction, including installation of utilities at a mobile
                                                              home group site
4   U.S. Army Corps of Engineers         DFA     09/06/05     Temporary housing support to FEMA Housing Area
                                                              Command (HAC)
5   Environmental Protection Agency      DFA     09/02/05     Removal and disposal of oil discharges and other hazardous
                                                              material, pollutants and contaminants and implement measures
                                                              to prevent potential releases
1   Environmental Protection Agency       TA     09/04/05     Assessment of water and wastewater facilities and threats of
                                                              oil, hazardous substances, pollutants or contaminants




                               A Performance Review of FEMA’s Disaster Management Activities
                                             In Response to Hurricane Katrina

                                                            Page 177
                              Appendix M
                              Call Center Staff Compared to Number of Calls




                              Call Center Staff vs. Number of Calls - 08/24/05 to 09/30/05
                    14,000                                                                           350,000



                    12,000                                                                           300,000



                    10,000                                                                           250,000
Call Center Staff




                                                                                                               Number of Calls
                     8,000                                                                           200,000



                     6,000                                                                           150,000



                     4,000                                                                           100,000



                     2,000                                                                           50,000



                        0                                                                            0
                              8/24 (4)
                              8/25 (4)
                              8/26 (4)
                              8/27 (0)
                              8/28 (0)
                              8/29 (4)
                              8/30 (4)
                              8/31 (4)
                               9/1 (9)
                               9/2 (9)
                              9/3 (11)
                               9/4 (7)
                              9/5 (11)
                              9/6 (11)
                              9/7 (11)
                              9/8 (11)
                              9/9 (11)
                             9/10 (12)
                             9/11 (12)
                             9/12 (12)
                             9/13 (12)
                             9/14 (19)
                             9/15 (19)
                             9/16 (19)
                             9/17 (19)
                             9/18 (19)
                             9/19 (19)
                             9/20 (19)
                             9/21 (19)
                             9/22 (19)
                             9/23 (19)
                             9/24 (19)
                             9/25 (19)
                             9/26 (19)
                             9/27 (19)
                             9/28 (19)
                             9/29 (19)
                             9/30 (19)
                                             Date of Calls (Number of Sites Open)

                                  Staffing Total           Calls Made               Calls Answered




                                    A Performance Review of FEMA’s Disaster Management Activities
                                                  In Response to Hurricane Katrina

                                                                Page 178
                                                                                      Appendix N
                                                                                      Average Length of Disaster Victim Calls




                                                                                                                 Average Length of Disaster Victim Call

                                       45


                                       40
Average Length of Calls (in minutes)




                                       35


                                       30


                                       25


                                       20


                                       15


                                       10


                                        5


                                        0
                                            8/24

                                                   8/25
                                                          8/26

                                                                 8/27
                                                                        8/28
                                                                               8/29
                                                                                       8/30

                                                                                              8/31




                                                                                                                                                            9/10
                                                                                                                                                                   9/11
                                                                                                                                                                          9/12

                                                                                                                                                                                 9/13
                                                                                                                                                                                        9/14
                                                                                                                                                                                               9/15

                                                                                                                                                                                                      9/16
                                                                                                                                                                                                             9/17

                                                                                                                                                                                                                    9/18
                                                                                                                                                                                                                           9/19
                                                                                                                                                                                                                                  9/20

                                                                                                                                                                                                                                         9/21
                                                                                                                                                                                                                                                9/22
                                                                                                                                                                                                                                                       9/23

                                                                                                                                                                                                                                                              9/24
                                                                                                                                                                                                                                                                     9/25

                                                                                                                                                                                                                                                                            9/26
                                                                                                                                                                                                                                                                                   9/27
                                                                                                                                                                                                                                                                                          9/28

                                                                                                                                                                                                                                                                                                 9/29
                                                                                                                                                                                                                                                                                                        9/30
                                                                                                     9/1

                                                                                                           9/2
                                                                                                                  9/3
                                                                                                                        9/4

                                                                                                                              9/5
                                                                                                                                    9/6
                                                                                                                                          9/7

                                                                                                                                                9/8
                                                                                                                                                      9/9




                                                                                                                                                        Date of Calls
                                                                                      Average Minutes Waiting in Queue                                                                  Average Minutes Speaking with Agent




                                                                                                     A Performance Review of FEMA’s Disaster Management Activities
                                                                                                                   In Response to Hurricane Katrina

                                                                                                                                                               Page 179
                          Appendix O
                          FEMA Referrals to Other Assistance Providers




                          FEMA Referrals to Other Assistance Providers as of November 16, 2005

                                 Assistance Providers                        Total Referrals by State 155
                                                               Louisiana      Mississippi     Alabama         Total
                          Aging Services                             4,488            2,632            693        7,813
                          Agricultural Aid                          21,406           25,446         2,695        49,547
                          Banking Questions                            157              272              21         450
                          Consumer Services                          3,038            1,235              60       4,333
                          Contractors License Board                      0              736            194          930
                          Crisis Counseling                          5,143            2,063            525        7,731
                          Department of Environment                  1,661              735            206        2,602
                          Department of Human Services                   0            1,856            507        2,363
                          Disaster Recovery Center                   2,790            1,463            490        4,743
                          Disaster Unemployment Assistance         625,689          243,176        47,319       916,184
                          Emergency Assistance (Red Cross)         675,010          249,994        47,638       972,642
                          Financial Services                             0            1,136               0       1,136
                          Fraud Detection                            1,712              663            218        2,593
                          Health Department                          3,844            1,627            441        5,912
                          Housing and Urban Development                  0              591               0         591
                          Information and Referrals                  5,182            2,099            700        7,981
                          Insurance Information                      2,723            1,227            350        4,300
                          Legal Services                               763              889            246        1,898
                          SBA                                        1,075              752            355        2,182
                          SBA Workshop                             652,425          299,026        56,752     1,008,203
                          Social Security                            3,359            1,528            407        5,294
                          Tax Assistance                           659,173          304,924        57,793     1,021,890
                          Veterans Benefits                          1,238              713            180        2,131
                          TOTAL REFERRALS                        2,670,876        1,144,783       217,790     4,033,449




155
      FEMA Recovery Division, November 16, 2005.

                                A Performance Review of FEMA’s Disaster Management Activities
                                              In Response to Hurricane Katrina

                                                             Page 180
Appendix P
DHS Organizational Charts




      A Performance Review of FEMA’s Disaster Management Activities
                    In Response to Hurricane Katrina

                                Page 181
Appendix P
DHS Organizational Charts




      A Performance Review of FEMA’s Disaster Management Activities
                    In Response to Hurricane Katrina

                                Page 182
                               Appendix Q
                               FEMA Ten-Year Overview



                        FY 1995               FY 1996           FY 1997              FY 1998              FY 1999            FY 2000
Prominent           Oklahoma City           Hurricanes                             Hurricanes        Hurricanes Bret,      Cerro
Disaster Events*    bombing;                Fran, Opal                             Bonnie,           Floyd                 Grande fire;
                    Hurricane                                                      Georges                                 Hurricanes
                    Marilyn                                                                                                Irene, Lenny
Total Event
                             35                 149                 57                  148                  106               104
Designations
Major Disasters              29                 72                  49                   61                  53                 41
Emergencies                   2                  2                  5                     3                  16                  5
Fire Assistance               4                 75                  3                    54                  37                 58
Laws, Plans,        The Stafford Act                                                                 Second version of     Disaster
and Policies        was most recently                                                                FRP published.        Mitigation
                    amended in 1993.                                                                                       Act of 2000
                    The FRP was in                                                                                         amends
                    effect since 1992.                                                                                     Stafford Act.
Leadership                                                         President: William Clinton
                                                               FEMA Director: James Lee Witt
FEMA                                        Planning       Three Territorial
Reorganizations                             and            Logistics Centers
                                            Operations     established to stock
                                            rejoined       commodities for
                                            after 1993     initial response.
                                            split.
Annual
Appropriation             $847 million      $805 million        $1,816 million      $842 million          $1,064 million   $873 million
Supplementary
Appropriation(s)
for the Disaster                                 $3,171                                   $1,600                                $2,176
Relief Fund             $2,273 million           million        $3,300 million            million         $1,806 million        million
Authorized
FTEs                               3,864           3,860                   4,945             4,625                 4,539           4,789
FEMA                FEMA conducts          FEMA            FEMA begins             FEMA                                    EMPGs
Programmatic        its first large-scale  consolidates    voluntary self-         conducts its                            combine six
Changes             natural event          preparedness    assessments of state    last large-                             preparedness
Discussed In        exercise               grants and      readiness.              scale natural                           grants.
This Report         (Response ’95).        links them to                           event exercise
                    Hurricane Liaison      state                                   (Response
                    Team created.          strategic                               ’98).
                                           agreements.
*
  Includes all Category 3, 4, and 5 hurricanes.




                                        A Performance Review of FEMA’s Disaster Management Activities
                                                      In Response to Hurricane Katrina

                                                                      Page 183
                              Appendix Q
                              FEMA Ten-Year Overview



                             FY 2001                   FY 2002                  FY 2003               FY 2004              FY 2005
Prominent           September 11th attacks on                            Loss of Space Shuttle     Hurricanes Ivan,   Hurricanes
Disaster Events*    World Trade Center and                               Columbia; Hurricane       Charley, Jeanne,   Dennis, Katrina,
                    Pentagon                                             Isabel                    Frances            Rita
Total Event
                                104                      126                       115                   129                 139
Designations
Major Disasters                  50                       42                     62                       65                 45
Emergencies                      15                        1                     19                        7                 67
Fire Assistance                  39                       83                     34                       57                 27
Laws, Plans,                                                           The Homeland                DHS publishes      NRP supersedes
and Policies                                                           Security Act of 2002        NIMS.              FRP in April.
                                                                       creates DHS. DHS            President Bush
                                                                       publishes the Initial       releases HSPD-
                                                                       NRP; FRP remains in         8.
                                                                       effect. President
                                                                       Bush releases HSPD-
                                                                       5.
Leadership                                                       President: George Bush
                                                                                                                 DHS Secretary:
                                                                              DHS Secretary: Thomas Ridge
                            FEMA Director: Joseph Allbaugh                                                      Michael Chertoff
                                                                          EP&R Under Secretary and FEMA Director: Michael Brown
FEMA                Preparedness, Training and    Readiness,             FEMA incorporated                      DHS Second
Reorganizations     Exercises merges with         Response, &            into DHS’ EP&R                         Stage Review
                    Response & Recovery into      Recovery               Directorate. NDMS                      creates DHS
                    Readiness, Response, &        Directorate splits     moves from HHS to                      Preparedness
                    Recovery Directorate.         into National          FEMA.                                  Directorate,
                    FEMA creates External         Preparedness           Some FEMA staff                        absorbing some
                    Affairs and Administration    Division and           moved to DHS                           FEMA staff.
                    & Resource Planning           Response &             headquarters.                          EP&R layer to be
                    Directorates.                 Recovery                                                      eliminated.
                                                  Division.
Annual
Appropriation                    $1,221 million       $2,610 million              $2,465 million    $3,256 million       $3,089 million
Supplementary
Appropriation(s)
for the Disaster
Relief Fund                      $4,383 million       $8,008 million              $1,925 million    $2,245 million     $66,385 million
Authorized
FTEs                                     4,859                4,952                       4,574               4,859                4,905
FEMA                Initial FEMA proposal to      Evacuation             NEMB-CAP                  Four-part          Management of
Programmatic        develop a Southeast           Liaison Team           preparedness baseline     Hurricane Pam      the EMPG
Changes             Louisiana Catastrophic        created.               study and RAMP            planning event     transfers to ODP.
Discussed In        Hurricane Plan.                                      begin. Response           begins in
This Report                                                              Division develops a       Louisiana.
                                                                         5-year catastrophic
                                                                         planning strategy.
*
 Includes all Category 3, 4, and 5 hurricanes.




                                      A Performance Review of FEMA’s Disaster Management Activities
                                                    In Response to Hurricane Katrina

                                                                       Page 184
Appendix R
Purpose, Scope, and Methodology


Purpose, Scope, and Methodology

The purpose of our review was to assess FEMA’s performance as it conducted
its disaster management activities in response to Hurricane Katrina. We
examined whether FEMA's authorities, plans and procedures, organizational
structure, and resources were adequate and operational.

The review included three of the four major phases of disaster management:
preparedness, response, and recovery. We evaluated FEMA’s preparedness
efforts over the past ten years to determine its organizational capability and
posture prior to Hurricane Katrina. For the response and recovery, we focused
on the three states most affected by Hurricane Katrina’s second landfall –
Alabama, Mississippi, and Louisiana – and limited the review timeframe to
August 24, 2005, through September 30, 2005. This period extends from the
National Hurricane Center’s first notice of the storm to the beginning of
recovery efforts. We examined FEMA’s role and performance under the
National Response Plan and National Incident Management System, focusing
on four ESFs for which FEMA is the coordinator or primary agency: ESF-5,
Emergency Management; ESF-6, Mass Care, Housing, and Human Services;
ESF-9, Urban Search and Rescue; and ESF-15, External Affairs.

We reviewed statutes and regulations related to FEMA and state disaster
authorities. We examined FEMA documentation that included annual
performance reports, policy memoranda, directives, standard operating
procedures and manuals, and internet sites. Also, we reviewed various reports
on FEMA programs from the Government Accountability Office; the
Congressional Research Service; FEMA and DHS Office of Inspectors
General; and, other related reports and news articles.

We interviewed over 230 people, in person and by teleconference, and
performed site visits to the Alabama, Mississippi, and Louisiana JFOs and
Joint Information Centers, and to FEMA Region IV and VI offices in Georgia
and Texas. In addition to interviewing FEMA and PFO staff at these sites, we
interviewed officials from the Alabama, Mississippi, and Louisiana state
emergency management agencies. We also conducted interviews with
officials at DHS and FEMA headquarters in Washington, DC, the Red Cross;
the National VOAD; the Department of Labor; the SBA, and private sector
contractors.

As part of our data analysis, we collected a sample of action request forms
from all three affected states to determine and trace request fulfillment
through FEMA field and headquarters offices. We examined work orders

      A Performance Review of FEMA’s Disaster Management Activities
                    In Response to Hurricane Katrina

                                  Page 185
Appendix R
Purpose, Scope, and Methodology


FEMA assigned to other federal agencies in support of the federal response.
We reviewed situation reports generated by federal and state agencies,
incident action plans and activity chronologies assembled by the JFOs, and
data from disaster assistance program offices. We studied FEMA’s
catastrophic planning materials, budget data, staffing levels, and training and
exercise records for the past ten years. For the same period, we evaluated
FEMA’s efforts to work with state governments in preparing for natural
disasters involving hurricane scenarios, particularly in the Gulf Coast region.

Fieldwork began at the end of September 2005 and continued through
December 2005. This review was conducted under the authority of the
Inspector General Act of 1978, as amended, and according to the Quality
Standards for Inspections issued by the President’s Council on Integrity and
Efficiency.




      A Performance Review of FEMA’s Disaster Management Activities
                    In Response to Hurricane Katrina

                                  Page 186
Appendix S
Recommendations




Recommendation #1: We recommend that the Director of the Federal
Emergency Management Agency, in coordination with the Director of the
Office of Operations Coordination, clarify the National Response Plan
guidelines for federal, headquarters-level collection and synthesis of
situational and operational information, with the intent of eliminating
duplication of effort between the Interagency Incident Management Group
and Homeland Security Operations Center.

Recommendation #2: We recommend that the Director of the Federal
Emergency Management Agency, in coordination with the Assistant Secretary
for Policy, clarify the roles of the Principal Federal Official, the Federal
Coordinating Officer, the Federal Resource Coordinator, and the Disaster
Recovery Manager to provide a clear distinction for the types and levels of
response activities that warrant a combination or modification to those roles;
develop procedures for the timely activation of each role; and, ensure that
these officials be provided with the necessary training to complement their
qualifications for serving in these positions.

Recommendation #3: We recommend that the Director of the Office of
Operations Coordination for the Department of Homeland Security, in
coordination with the Chief Information Officer, design an information
management system that allows users to track and share information more
openly and efficiently; and, standardize the format and methodology for
collecting and reporting information.

Recommendation #4: We recommend that the Director of the Federal
Emergency Management Agency establish an ESF-6 working group to define
the explicit roles and responsibilities for each agency, develop standard
operating procedures, and implement a concept of operations plan for
response activities that address all levels of disasters.

Recommendation #5: We recommend that the Director of the Federal
Emergency Management Agency develop alternative housing resource plans
that include a review of all identified resources within an affected area,
determine whether potential duplication exists, and efficiently deliver services
that are accommodating to the disaster victim.

Recommendation #6: We recommend that the Director of the Federal
Emergency Management Agency develop a more comprehensive training
program to prepare existing and new personnel for Disaster Recovery Center
assignments.

     A Performance Review of FEMA’s Disaster Management Activities
                   In Response to Hurricane Katrina

                               Page 187
Appendix S
Recommendations




Recommendation #7: We recommend that the Director of the Federal
Emergency Management Agency develop a more comprehensive program to
recruit, train, and retain local hires for use in augmenting FEMA’s Disaster
Assistance Employees and permanent staff.

Recommendation #8: We recommend that the Director of the Federal
Emergency Management Agency, in coordination with the Assistant Secretary
for Policy, review ESF-9 Annex capabilities for search and rescue and
coordination within FEMA and other Department of Homeland Security
components (such as U.S. Coast Guard and Customs and Border Protection)
or with other federal departments and agencies, and either redistribute ESF-9
responsibilities or develop greater water rescue capabilities within FEMA.

Recommendation #9: We recommend that the Director of the Federal
Emergency Management Agency, in coordination with the Assistant Secretary
for Policy, develop a surge plan and standard operating procedures for
augmenting FEMA’s ESF-9 coordination capability during catastrophic
events with resources such as the U.S. Coast Guard and Customs and Border
Protection personnel.

Recommendation #10: We recommend that the Assistant Secretary for
Public Affairs, in coordination with the Director of the Federal Emergency
Management Agency, develop a definitive ESF-15 organizational chart that is
scalable to the size of an incident, with a clear hierarchical structure and
information flow.

Recommendation #11: We recommend that the Director of the Federal
Emergency Management Agency further develop and fully implement formal
ESF-15 training, so all full-time employees and Disaster Assistance
Employees have a comprehensive understanding of how to operate within its
structure during an incident.

Recommendation #12: We recommend that the Assistant Secretary of Public
Affairs for the Department of Homeland Security, in coordination with the
Director of the Federal Emergency Management Agency, complete the
development of and fully implement the DHS Public Affairs state outreach
program.

Recommendation #13: We recommend that the Director of the Federal
Emergency Management Agency address levels of coordination and
expectations with Department of Defense entities under the NRP, including

     A Performance Review of FEMA’s Disaster Management Activities
                   In Response to Hurricane Katrina

                               Page 188
Appendix S
Recommendations


Northern Command and the Military Liaison, to facilitate coordination during
responses to future domestic incidents.

Recommendation #14: We recommend that the Director of the Federal
Emergency Management Agency, in coordination with the Assistant Secretary
for Policy, establish measurable response expectations and provide the
necessary financial, technical, and staff support to meet those expectations.

Recommendation #15: We recommend that the Director of the Federal
Emergency Management Agency, in coordination with the Assistant Secretary
for Policy, develop a means to standardize and streamline the resource
ordering and tracking process.

Recommendation #16: We recommend that the Director of the Federal
Emergency Management Agency develop and implement a resource tracking
system that is capable of documenting whether resources were delivered and
the efficiency with which the resource was provided.

Recommendation #17: We recommend that the Director of the Federal
Emergency Management Agency, in coordination with the Manager of the
National Communications System, determine and fill requirements to provide
emergency responders with communications equipment capable of performing
in austere conditions.

Recommendation #18: We recommend that the Director of the Federal
Emergency Management Agency define the Mobile Emergency Response
Support authorizations for equipment and staffing, including requirements for
mission support during a catastrophic disaster, and fund and staff the
detachments to meet requirements.

Recommendation #19: We recommend that the Director of the Federal
Emergency Management Agency develop a disaster workforce plan that
accounts for standing capability for permanent, temporary, and reserve staff
that is responsive to the needs demonstrated in response to previous disasters,
and also develop a plan that is scalable to other events irrespective of cause,
size, or complexity.

Recommendation #20: We recommend that the Director of the Federal
Emergency Management Agency develop and implement a system that
automates and tracks the selection, deployment, training, and demobilization
of responders.



     A Performance Review of FEMA’s Disaster Management Activities
                   In Response to Hurricane Katrina

                               Page 189
Appendix S
Recommendations


Recommendation #21: We recommend that the Director of the Federal
Emergency Management Agency provide training to additional National
Processing Service Center staff and contractors to enhance FEMA’s capability
to perform applicant assistance and case management activities responsive to
the needs of applicants.

Recommendation #22: We recommend that the Director of the Federal
Emergency Management Agency establish and test the information
technology infrastructure of the system to ensure support of user demands and
develop internal controls to decrease the potential for duplicate applications.

Recommendation #23: We recommend that the Director of the Federal
Emergency Management Agency develop a contract mechanism for its direct
federal resources that clearly defines the expected roles, responsibilities,
deliverables, and performance measures for contractors implementing
FEMA’s direct housing operations mission.

Recommendation #24: We recommend that the Director of the Federal
Emergency Management Agency discontinue the practice of tasking any
contractor without the appropriate coordination and approval of the
Contracting Officer or Contracting Officer’s Technical Representative.

Recommendation #25: We recommend that the Director of the Federal
Emergency Management Agency establish clear roles and responsibilities for
the Housing Area Command and define its reporting requirements and chain
of command relationship with the FEMA headquarters, Joint Field Offices,
and Technical Assistance Contractors.

Recommendation #26: We recommend that the Director of the Federal
Emergency Management Agency establish eligibility criteria, internal
program controls, and a basis for testing a program before implementation to
ensure the program meets disaster assistance provisions of the Stafford Act.

Recommendation #27: We recommend that the Director of the Federal
Emergency Management Agency place priority on analysis of new methods
and technology to verify damage, occupancy, and ownership, when traditional
methods of inspection are not responsive in the timely provision of assistance.
Methods and applicable technology must be tested, based on supportable data,
and provide the highest assurance of meeting program eligibility
requirements.




     A Performance Review of FEMA’s Disaster Management Activities
                   In Response to Hurricane Katrina

                               Page 190
Appendix S
Recommendations


Recommendation #28: We recommend the Director of the Federal
Emergency Management Agency, in coordination with federal, state, and
nongovernmental partners, develop more effective and efficient plans for the
delivery of assistance to address long-term housing issues, and test these plans
in a simulated environment before application in actual disasters.

Recommendation #29: We recommend that the Director of the Federal
Emergency Management Agency create individual development plans (or a
similar process) and implement a consolidated records system to maintain
accurate information on training completed.

Recommendation #30: We recommend that the Director of the Federal
Emergency Management Agency finalize and distribute the Southeast
Louisiana Catastrophic Hurricane Plan, using the lessons learned during
Hurricane Katrina to improve the plan.

Recommendation #31: We recommend that the Director of the Federal
Emergency Management Agency request appropriation or provide other
funding, resources, and institutional support to agency components and to
state and local partners to complete draft or proposed catastrophic planning
initiatives for natural disasters.

Recommendation #32: We recommend that the Director of the Federal
Emergency Management Agency and Under Secretary for Preparedness
jointly develop a formal mechanism to ensure continuity between
preparedness, response, and recovery by including FEMA regional staff in the
Preparedness Directorate’s relationships with state emergency management
agencies for grants, exercises, planning, technical assistance, and training.

Recommendation #33: We recommend that the Director of the Federal
Emergency Management Agency oversee the Remedial Action Management
Program to maintain focus and provide support for corrective action.

Recommendation #34: We recommend that the Director of the Federal
Emergency Management Agency direct its Remedial Action Management
Program to identify interim remediation plans for issues that have a
remediation completion date of greater than one year from the date assigned.

Recommendation #35: We recommend that the Under Secretary of
Preparedness for the Department of Homeland Security provide states with
training on the applicability of the National Preparedness System and
preparedness grants to all hazards, including natural disasters.

     A Performance Review of FEMA’s Disaster Management Activities
                   In Response to Hurricane Katrina

                               Page 191
Appendix S
Recommendations




Recommendation #36: We recommend that the Under Secretary of
Preparedness for the Department of Homeland Security develop a system to
assess state capability to respond to a disaster, without federal assistance and
in respect to a minimum level of preparedness based on the Emergency
Management Accreditation Program standard.

Recommendation #37: We recommend that the Director of the Federal
Emergency Management Agency develop a method for determining the level
of readiness of FEMA to respond to a disaster that exceeds a state’s
capabilities.

Recommendation #38: We recommend that the Under Secretary of
Preparedness for the Department of Homeland Security, in coordination with
the Director of the Federal Emergency Management Agency, ensure all DHS
employees receive training on DHS responsibilities under the NRP and NIMS.




     A Performance Review of FEMA’s Disaster Management Activities
                   In Response to Hurricane Katrina

                               Page 192
Appendix T
Management Response to Draft Report




      A Performance Review of FEMA’s Disaster Management Activities
                    In Response to Hurricane Katrina

                                Page 193
Appendix T
Management Response to Draft Report




      A Performance Review of FEMA’s Disaster Management Activities
                    In Response to Hurricane Katrina

                                Page 194
Appendix T
Management Response to Draft Report




      A Performance Review of FEMA’s Disaster Management Activities
                    In Response to Hurricane Katrina

                                Page 195
Appendix T
Management Response to Draft Report




      A Performance Review of FEMA’s Disaster Management Activities
                    In Response to Hurricane Katrina

                                Page 196
Appendix T
Management Response to Draft Report




      A Performance Review of FEMA’s Disaster Management Activities
                    In Response to Hurricane Katrina

                                Page 197
Appendix T
Management Response to Draft Report




      A Performance Review of FEMA’s Disaster Management Activities
                    In Response to Hurricane Katrina

                                Page 198
Appendix T
Management Response to Draft Report




      A Performance Review of FEMA’s Disaster Management Activities
                    In Response to Hurricane Katrina

                                Page 199
Appendix T
Management Response to Draft Report




      A Performance Review of FEMA’s Disaster Management Activities
                    In Response to Hurricane Katrina

                                Page 200
Appendix T
Management Response to Draft Report




      A Performance Review of FEMA’s Disaster Management Activities
                    In Response to Hurricane Katrina

                                Page 201
Appendix T
Management Response to Draft Report




      A Performance Review of FEMA’s Disaster Management Activities
                    In Response to Hurricane Katrina

                                Page 202
Appendix T
Management Response to Draft Report




      A Performance Review of FEMA’s Disaster Management Activities
                    In Response to Hurricane Katrina

                                Page 203
Appendix T
Management Response to Draft Report




      A Performance Review of FEMA’s Disaster Management Activities
                    In Response to Hurricane Katrina

                                Page 204
Appendix T
Management Response to Draft Report




      A Performance Review of FEMA’s Disaster Management Activities
                    In Response to Hurricane Katrina

                                Page 205
Appendix T
Management Response to Draft Report




      A Performance Review of FEMA’s Disaster Management Activities
                    In Response to Hurricane Katrina

                                Page 206
Appendix T
Management Response to Draft Report




      A Performance Review of FEMA’s Disaster Management Activities
                    In Response to Hurricane Katrina

                                Page 207
Appendix T
Management Response to Draft Report




      A Performance Review of FEMA’s Disaster Management Activities
                    In Response to Hurricane Katrina

                                Page 208
Appendix U
Major Contributors to This Report




Office of Inspections and Special Reviews

Marcia Moxey Hodges, Chief Inspector
Moises Dugan, Senior Inspector
Wynne Krause Kelch, Inspector
Jennifer A. Lindsey, Inspector
Sarah Hewitt, Inspector
Lawrence Anderson, Inspector
Jessica Barnes, Inspector
Razili K. Datta, Inspector
Russell Lundberg, Inspector
Michelle Streit, Inspector




      A Performance Review of FEMA’s Disaster Management Activities
                    In Response to Hurricane Katrina

                                    Page 209
Appendix V
Report Distribution


Department of Homeland Security

Secretary
Deputy Secretary
Under Secretary for Preparedness
Director, Federal Emergency Management Agency
Assistant Secretary, Policy
Assistant Secretary, Public Affairs
Assistant Secretary, Legislative and Intergovernmental Affairs
Director, Office of Operations Coordination
Executive Director, Office of Grants and Training
Chief of Staff
Deputy Chief of Staff
General Counsel
Executive Secretariat
DHS OIG Liaison
FEMA Audit Liaison

Office of Management and Budget

Chief, Homeland Security Branch
DHS Program Examiner

Congress

Committee on Homeland Security and Governmental Affairs
United States Senate
Committee on Appropriations
United States Senate
Committee on Homeland Security
U.S. House of Representatives
Committee on Appropriations
U.S. House of Representatives
Committee on Government Reform
U.S. House of Representatives




      A Performance Review of FEMA’s Disaster Management Activities
                    In Response to Hurricane Katrina

                                Page 210
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to Department of
Homeland Security, Washington, DC 20528, Attn: Office of Inspector
General, Investigations Division – Hotline. The OIG seeks to protect the
identity of each writer and caller.
